<html>
<title> - S. 1474, S. 1570, S. 1574, S. 1622, AND S. 2160</title>
<body><pre>[Senate Hearing 113-324]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-324
 
                S. 1474, S. 1570, S. 1574, S. 1622, AND 
                                S. 2160 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-668 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 2, 2014....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Begich......................................     9
Statement of Senator Heitkamp....................................     3
Statement of Senator Hoeven......................................     4
Statement of Senator Murkowsi....................................     8
Statement of Senator Tester......................................     1

                               Witnesses

Dorgan, Hon. Byron L., U.S. Senator (Retired) from North Dakota; 
  Founder/Chairman, Center For Native American Youth, Aspen 
  Institute......................................................     4
McDonald, Hon. Leander R., Ph.D,, Tribal Chairman, Spirit Lake 
  Tribe..........................................................    26
    Prepared statement...........................................    28
Robinson, Hon. Lillian Sparks, Commissioner, Administration For 
  Native Americans, U.S. Department Of Health And Human Services.    43
    Prepared statement...........................................    45
Singh, Hon. Natasha, Tribal Court Judge, Stevens Village.........    13
    Prepared statement...........................................    15
Washburn, Hon. Kevin, Assistant Secretary--Indian Affairs, U.S. 
  Department of the Interior.....................................    38
    Prepared statement...........................................    40
Zientek, Margaret, Co-Chair, P.L. 102-477 Tribal Workgroup.......    21
    Prepared statement...........................................    23
    Supplemental testimony.......................................    85

                                Appendix

Abramson, Cathy, Chairperson, National Indian Health Board 
  (NIHB), prepared statement.....................................    80
Andersen, Ralph, President/CEO, Bristol Bay Native Association, 
  prepared statement.............................................    59
Baker, Hon. Bill John, Principal Chief, Cherokee Nation, prepared 
  statement......................................................    64
O'Neill, Gloria, CEO/President, Cook Inlet Tribal Council, 
  prepared statement.............................................    66
Philemonof, Dimitri, President/CEO, Aleutian Pribilof Islands 
  Association, prepared statement................................    55
Pigsley, Hon. Delores, Tribal Chairman, Confederated Tribes of 
  Siletz Indians, prepared statement.............................    83
Pitka, Rhonda, Chairwoman, Council of Athabascan Tribal 
  Governments (CATG), prepared statement.........................    72
Pyle, Hon. Gregory E., Chief, Choctaw Nation, prepared statement.    65
Letters of support submitted by:
    Diana Autaubo................................................    89
    Hon. Scott N. BigHorse.......................................    88
    Hon. Tex G. Hall.............................................    91
    Robert Polasky...............................................    92
    Hon. Robert Shepherd.........................................    90
Schuerch, Timothy, President/CEO, Maniilaq Association, prepared 
  statement......................................................    74
TwoBears, Robert, Representative, Ho-Chunk Nation, prepared 
  statement......................................................    73
United South and Eastern Tribes, Inc., prepared statement........    83


            S. 1474, S. 1570, S. 1574, S. 1622, AND S. 2160

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. I will call the Committee back to order.
    When I took over the chairmanship of this Committee, I 
committed to moving quickly on legislation referred to us in 
order to help move Indian Country forward. I believe the markup 
we just held and legislative hearings such as this are 
important steps in building that momentum.
    I look forward to hearing the various perspectives on the 
bills discussed today and forging ahead with growing and 
supporting tribal sovereignty and self determination.
    To that end, this afternoon, we are holding a legislative 
hearing on five pieces of legislation pending before this 
Committee. Each bill seeks to address a statutory misstep or to 
amend a process that is inhibiting the ability of tribes to 
control their own futures and to protect the well being of 
their people.
    Among these bills, we will look at fixing an oversight in 
Alaska where tribal jurisdiction was cut short and the 
recently-passed Violence Against Women Act has failed to 
protect Alaska Native Women.
    We will also look at our trust responsibility for providing 
health care to Native people. We need to ensure that the health 
of Indian people is not subject to the whims of political 
stonewalling, much like it was during the recent government 
shutdown and sequestration.
    S. 1570, introduced by Senators Begich and Murkowski and 
joined by me and four more of our colleagues, would do just 
that by providing funding for Indian Health Service a full year 
in advance.
    We will also look at S. 1574, a bill proposing to help 
consolidate and streamline Federal funding for tribal 
employment and training and related service programs in Indian 
Country. The bill would update and improve upon existing law 
which has allowed tribes to integrate their employment related 
funding and maximum program efficiency for over 20 years.
    We will also look at two bills that, if passed, would help 
protect and support Native children. First, S. 1622, introduced 
by Senator Heitkamp, would establish a commission to fully 
determine the many problems affecting Native children and 
provide recommendations on how to best address those concerns.
    Finally, we will look at S. 2160 which would help protect 
children from harm when they are taken from their homes and 
placed in the care of others in the foster care system. It is 
especially in these instances that we need to guarantee that 
children are not being removed from one unsafe environment only 
to be placed into another.
    I think discussing these final two bills is particularly 
timely as yesterday was April 1 which marks the beginning of 
Child Abuse Prevention Month in this Country. I think we can 
all agree that the most precious natural resource we have is 
our children and the necessity to protect them and help them 
grow and develop in safe, supportive communities is a priority 
I know I share with my colleagues here on this Committee.
    I have been on the record before stating my commitment to 
early childhood development and educational attainment for our 
children but we all know that children need to be safe, healthy 
and secure in order to truly benefit from the educational 
experience.
    I am pleased to join my colleagues, Senator Heitkamp and 
Hoeven in addressing the needs of Native children through their 
respective bills and look forward to continuing this important 
dialogue on child safety not only this month but until we do 
not have to address it anymore.
    All of these are important issues and I look forward to 
hearing from all the witnesses today on these bills. I look 
forward to debating these issues and determining how we can 
quickly move these bills forward for consideration of the full 
Senate.
    The Chairman. With that, Ranking Member Barrasso, do you 
have a statement?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. I do, Mr. Chairman.
    I want to thank you for holding this important hearing. 
It's so good to see our good friend and former colleague and 
former chairman of this Committee, Senator Dorgan. I very much 
enjoyed serving as Vice Chairman when he was Chairman of the 
Committee.
    Also, Mr. Chairman, I would like to welcome to the 
Committee the students who are here from Lander Valley High 
School in Lander, Wyoming in Fremont County. They have been 
touring the Capitol and this is a very important issue to them, 
specifically one of the bills we are talking about today, the 
Native American Children's Safety Act, S. 2160, introduced by 
my good friend, Senator John Hoeven, of North Dakota.
    Indian children are particularly vulnerable when foster 
care placements are not properly investigated. Senator Hoeven's 
bill will strengthen and clarify foster care placement 
requirements including the character investigations and 
background checks. These minimum standards will promote 
consistency and address gaps in child protective services.
    I recognize that not every potential situation of harm to 
Indian children can be prevented by this legislation, but this 
bill is a significant and meaningful step forward in the right 
direction. For that reason, I am proud to join Senator Hoeven 
in cosponsoring this bill. I look forward to working with you, 
Mr. Chairman, on all of these bills. Thank you for your 
leadership on these important matters.
    I look forward to the testimony.
    Thank you.
    The Chairman. Thank you, Vice Chairman Barrasso. I 
appreciate your comments.
    Does anyone else have a short opening statement? Senator 
Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. First, I would like to thank Senator 
Tester and Vice Chairman Barrasso for holding the hearing 
today. Senator Tester, I appreciate your willingness to move 
this legislation before the Committee and thank all your staff 
for making this happen.
    I also want to thank my friend and colleague, Senator 
Murkowski. I think one of the first times we ever met, we had a 
long conversation about the issue and the challenges involving 
Native American children. It was a bonding and important 
experience because it led to this bill.
    When I was looking to introduce my first bill in the 
Senate, it only made sense that I introduce it with Senator 
Murkowski.
    I have spent a lot of time in Indian Country in my time in 
public life in North Dakota. I used to come to Federal 
officials and ask consistently, what are you going to do to 
address these issues, what are you going to do to address these 
problems and the national shame of how we allow our Native 
American children to live, whether it is housing challenges, 
educational challenges or other safety challenges. When I got 
here, I realized I couldn't point the finger and ask anyone 
else other than myself.
    Too often what we have done is we authorize programs and 
look at all of the things that we have done for years whether 
it's housing, education or public safety but we have never 
asked have we really improved the condition for Native American 
children, have we really changed outcomes?
    I will tell you that the statistics would tell us we have 
not. We have not made them safer, we have not provided a higher 
quality of education, we have not decreased the despair that 
Native American children feel and, as a result, we have a 
population with horrible statistics, with one of the most 
challenging, the rate of suicide among our children, all 
children, children who live in Indian Country and off Indian 
Country.
    I have to say I have been truly humbled by the bipartisan 
nature. I think everyone wants to solve this problem. I cannot 
believe in a country as great as America that if we don't all 
want to solve a problem, and we all want to work to solve the 
problem, that we can't. The great promise of this legislation 
is that we are going to see a fast forward for changing the 
outcome, for changing the dynamics.
    Finally, I want to express my great affection and 
appreciation for the work that Senator Dorgan has done. I think 
North Dakota has always produced Senators who care about people 
in Indian Country. You see that today with two bills being 
considered. I will tell you we have a rich heritage but we also 
have a great responsibility in our State and Senator Dorgan has 
taken that responsibility not only in his work here, but he has 
made it his life work to change this outcome. I want to thank 
him for appearing today on behalf of the bill.
    The Chairman. Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Mr. Chairman, I would like to thank you for 
holding this hearing. I would also like to thank our Ranking 
Member for his comments, as well as your support on the Native 
American Children's Safety Act. Also, thank you, Senator 
Heitkamp, for your support on that legislation. I am pleased to 
join with you on your legislation as well.
    I would like to welcome Senator Dorgan and also acknowledge 
your work on behalf of Native Americans and your leadership 
role.
    Also, Chairman Ross McDonald, I'd like to thank the 
Chairman for being here today and his work on the Spirit Lake 
Reservation and for being here on behalf of not only the people 
on his reservation but across the Country.
    Thank you so much, Chairman, for being here. I truly 
appreciate it.
    The Chairman. Thank you all for your statements.
    I would like to welcome our first panel. Senator Dorgan, as 
always, we try to limit you to five minutes but I know if goes 
a little longer, we won't gavel you down.
    I will just say it is an incredible honor for me, 
especially sitting in this chair, to welcome Senator Dorgan 
back to this Committee. It was a little over seven years ago I 
came to my first Indian Affairs Committee meeting in the Senate 
and saw Chairman Dorgan chairing this Committee along with 
Craig Thomas, the fellow that John Barrasso came after.
    I really learned issues that impact Indian Country like 
none before through the eyes of Byron Dorgan. I would just like 
to say before you begin your testimony, I want to thank you 
personally for everything you have done for this Committee, for 
me, and for Indian people across this Country.
    With that, welcome, Byron, and you may proceed.

        STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR 
   (RETIRED) FROM NORTH DAKOTA; FOUNDER/CHAIRMAN, CENTER FOR 
             NATIVE AMERICAN YOUTH, ASPEN INSTITUTE

    Senator Dorgan. Mr. Chairman, thank you very much.
    I wandered around here for 30 years in the Congress and 
haven't been back here much. I will tell all of you that when 
you leave, as you all will some day, the thing you miss is 
having the opportunity every day to work with your friends in 
the Senate and the House. It is good to see all of you.
    I am here because Senator Heitkamp asked whether I would 
come and testify on her legislation. I am happy to do that. I 
think what she and Senator Murkowski have introduced has great 
merit. I am pleased to see Senator Hoeven as well and know of 
your legislation which I also think has merit.
    I want to talk a bit today about the legislation that has 
been introduced by Senator Heitkamp and Senator Murkowski. Let 
me say immediately the question people might ask is why this, 
why another commission, why another study?
    Frankly, I think this commission is complementary to 
everything that is going on. I am the co-chair of the Task 
Force by the U.S. Justice Department on violence on Indian 
reservations with children. This is perfectly complementary to 
that.
    This is complementary to the Center for Native American 
Youth which I created and we work every day on a range of these 
issues. This complements that. I kind of see this as taking a 
step back with collective fresh eyes from the Nation about what 
do we see here and how do we finally get our arms around it, 
kind of like a diagnosis. It is one thing to talk about these 
things. How do you better diagnose what it is and how you fix 
it?
    We know there are children at risk in this Country, Native 
American children especially. We know of all the population 
that has been left behind, in my judgment, none have been left 
behind more quickly than American Indian children.
    Despite the fact that all these promises have been made, 
all the treaties that have been signed, all the trust 
responsibility that bears on our shoulders, despite all of 
that, these kids have been left behind. The fact is, it is a 
national disgrace. Poverty rates, high school dropouts, teen 
suicide, you could go on and on to describe the circumstances 
that face these kids.
    I want to mention to you just three children that 
symbolize, for me, the urgency with which all of us work on 
these issues. The first, Senator Heitkamp has seen this, this 
is from February 4, 1990. I remember the day it came out in the 
newspaper because it is a photograph of a young child, three 
years old. This young girl named Tamara Demearis was put in a 
foster home, by the way, by a social worker working 125 
separate cases.
    A drunken party ensued and this young girl had her leg 
broken, her arm broken, her nose broken and her hair pulled out 
at the roots at age three. She likely will bear those scars all 
of her life. This persuaded me to go to that reservation in 
February 1990 to find out what in the Hell was going on. It 
still happens across this Country. Despite all our best 
efforts, we still see these problems.
    I was on the Pine Ridge Reservation about a year ago. I 
went to a shelter and met a 12 year old girl. At age 12, this 
young girl faced the following: her mother was dead from drug 
abuse, she didn't know who her father was; she had been in two 
foster homes, sexually abused in both; and now at age 12 was 
finally at long, long last safe in a shelter.
    That shelter was facing the ignorance of sequestration 
which cuts the funding for the most vulnerable people in this 
Country. It is unbelievable. I stood in that room looking at 
this 12 year old girl thinking; how can this Country allow this 
to happen?
    Mr. Chairman, you and I were on the Crow Reservation when 
the grandmother of Ta'shon Rain Little Light walked forward in 
the crowd and held high above her head a photograph of her 
granddaughter, Ta'shon Rain Little Light who died in her 
mother's arms. She died of cancer and she had been to the 
health care facilities at the IHS on their reservation time and 
time and time and time again and was treated for depression 
until she died of cancer.
    These three young children I described to you all suffered 
in what I think is a national disgrace, a circumstance where 
this is not some mysterious illness. We can fix this, but it is 
important to step back as the commission proposed by Senators 
Heitkamp and Murkowski offer to do, step back and take a look 
at all of these elements and try to see if we can put them 
together in a rational way that addresses the issues we know 
cause these problems.
    Mr. Chairman, I created an organization called the Center 
for Native American Youth. That organization focuses on teen 
suicide prevention, education opportunity and more. This 
commission is complementary to what we do every day. This 
commission, in my judgment, will be very, very helpful.
    This commission talks about the barriers, the obstacles, 
trying to evaluate explicitly what the elements are that we can 
put together that finally address the heart of this matter. We 
know it is poverty, it is dysfunctional homes, it is gangs that 
prey on these kids, drug issues. It is all of that, but we 
don't seem to have the capability to put together the solution 
or the set of recommendations that can come from this piece of 
legislation.
    One of the things they are talking about is evaluating what 
all the Federal agencies are doing. It is interesting to me 
that I have been involved, as all of you have, in so many 
different pieces of legislation and at the Center for Native 
American Youth downtown here in Washington, D.C., we do a 
quarterly meeting and ask the Federal agencies to come and they 
come.
    Sitting around the table, about 30 of them, 25 to 30 
agencies, it is the first time they ever sat around the table 
together. All of them working on Indian issues, all of them 
working on issues dealing with Indian children, none of them 
having met before to talk about what they are doing.
    We discovered at the same table that two Federal agencies 
were doing exactly the same thing on one reservation, spending 
a lot of money, and neither knew the other was there. Isn't 
that interesting? Not very interesting, it is pretty 
depressing.
    That is why this legislation will get at all of those 
issues. It is why I think this legislation has very substantial 
merit.
    I do want to mention to you, in some ways I hope the way 
this is written, and as I read it, I think it is possible, that 
you might also as an adjunct decide to chronicle the promises, 
the treaties, the signatures, the trust, and everything. Put it 
all together to evaluate what has been promised and proposed in 
law and treaty. These are solemn promises by the government and 
then what has been done relevant to those promises.
    We know, for example, 50 percent of the health care that 
was promised is not met. Full scale rationing for health care 
for all Indians, including children. It should be front page, 
headline news on the Washington Post today but it is not 
because it happens very day, full scale health care rationing. 
It ought to bring tears to everyone's eyes.
    Finally, let me say the overriding issue is funding. It is 
easy to talk about and hard to solve. The funding issue for 
foster care for social services, education, housing, health 
care as I just described are chronic. We have to find a way to 
get at it.
    Let me conclude by saying that when we talk about all these 
things, I held some hearings, for example, on teen suicide and 
was told by parents and others don't do this, don't have public 
hearings on this subject because it is something that obviously 
we are ashamed of, it is a stain, don't do this.
    As I said, we don't have any choice. This continues to 
happen. We have to shine all the spotlights on one spot and 
figure out not only what is happening, but how on earth do we 
fix it. My sense is that we can use this commission as well to 
chronicle all those promises that have been made and all the 
under funding that exists in these areas to try to figure out 
how to button this up, and finally, with recommendations and 
best practices, give some of these children some hope for the 
future.
    Parents care about this, tribal officials care about this 
and when we talk about it, I don't want anyone to think there 
are tribal members and tribal councilmen who don't care. They 
do, they work very hard and so do parents, to try to fix these 
things but they need our help because we are the ones who made 
the promise and we are the ones not keeping it.
    Let me say this commission idea is complementary to 
everything else that is going on but I think may well get us 
way down the road in terms of a new diagnosis and new 
prescriptions about how we finally fix this in a different way.
    Mr. Chairman, thank you very much for inviting me.
    The Chairman. Thank you, Senator Dorgan, for your 
testimony.
    I have many questions. I am going to ask you one. For three 
years now and much time before that, for the last three years 
plus you have been working with the Center for Native American 
Youth. You have probably seen some stuff you wouldn't normally 
have seen.
    If you could wave a magic wand and could ask Congress to do 
one thing that would help our Native youth or the whole 
population in general, what would it be?
    Senator Dorgan. Obviously the future is education. We have 
a 50 percent high school dropout rate among Native American 
youth. That is pretty unbelievable. What kind of future does 
that consign someone to when you have that kind of dropout 
rate?
    We have a program called Champions for Change where we 
bring in kids from around the Country who are champions--many 
of you have met them--really inspiring young kids, to kind of 
celebrate success. It is the case there are some kids out there 
succeeding but it is also the case that half these kids aren't 
making it through high school.
    My first answer is always adequately fund these programs 
because we made the promise. The second is the future for these 
kids is education.
    The Chairman. Senator Barrasso?
    Senator Barrasso. No questions, thank you, Mr. Chairman.
    The Chairman. Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Not so much a question but a thanks. It 
is clear from your very impassioned remarks here this afternoon 
that the care and compassion you showed for American Indians, 
Alaska Natives, Native Hawaiians when you were chairing this 
Committee and I was privileged to sit as your ranking, that 
passion hasn't abated since you have left the Senate.
    Even before you left, you and I discussed what you were 
doing to found the Center for Native American Youth and wanting 
to continue the focus on Native youth suicide and what we can 
do to make a difference.
    I just want to publicly acknowledge and thank you for that. 
I think it is often easy to leave the rigors of what we do here 
day to day, and quite honestly some of the things that weigh 
heavily on our shoulders and our conscience, to know you have 
left from here and continue to do good things for so many 
around Country and truly those most vulnerable, I renew my 
commitment to work with you on not only the Native Youth 
suicide issues but what you can help Senator Heitkamp and I do 
to advance this children's commission.
    I have great gratitude for what you do.
    Senator Dorgan. Senator Murkowski, thank you very much.
    I should mention to you all that Senator Murkowski was on 
the advisory board of the Center for Native American Youth when 
we created it three years ago. Thank you for that.
    I don't know what is second, third, or fourth place in most 
peoples' lives but I know what is in first place. It is kids. 
If kids are not in first place, then there is something 
unbelievably warped about people. Children are our most 
important resource. We love them, we have responsibilities for 
them, we take care of them, but with respect to the children of 
the people who were here first in this Country, you go do these 
tours, we are doing a lot of youth tours now around the Country 
on Indian reservations and what you see are a lot of kids 
living in third world conditions.
    Then you ask the question, how do they get into that 
trouble? Why aren't they off to college? Why do they quit 
school? You try living in a three bedroom home with 24 other 
people and try and study at night. You try and live on a 
reservation where gangs are there or Mexican drug pushers are 
there. I should say drugs from Mexico are coming to the 
reservation, they are targeting them. It is a pretty hard life 
for some of these kids.
    Despite all that, you see some kids who make you so proud 
it brings tears to your eyes, kids that go through unbelievable 
things. There is a young boy who started an organization called 
NERDS, Native Education Raising Dedicated Students. He is 16 
years old and on the football team.
    He saw a bunch of his friends getting Ds and Fs and 
thought, I am going to try to make it cool for them to get As 
and Bs. He started NERDS, it became a club and people joined 
this club. He was telling us about kids he was playing football 
with who were getting Ds and Fs who are now getting As and Bs 
because they understood it was kind of fun to be a part of a 
people who were succeeding, part of a group that was 
succeeding.
    When you find a young, teenage kid who creates an 
organization called NERDS to help his friends, then you think 
there is some hope out there. If they can do that, what can we 
do as legislators. I know you are going to be doing some tours 
of reservations and there is nothing like being there and 
talking to those young people and seeing it.
    I know that you, like I, when you go to sleep at night, you 
want to lay your head on the pillow thinking, you know what, I 
did a little something to improve some lives today. When I 
decided to leave here, I chose to see if I could do it with 
kids because you have to start somewhere and these kids are our 
future.
    Native American kids have been left behind. I think Senator 
Heitkamp and all of you around the table feel the same way. It 
is time to stop leaving them behind and have them become a part 
of the American dream as well.
    The Chairman. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Senator Dorgan, it is good to see you.
    I wasn't going to ask questions. I am always impressed and 
motivated and inspired when you come and speak, especially 
around American Indian and Alaska Native issues when it comes 
to youth. Thank you again for your passion, as always.
    I want you to know that Tessa Baldwin, who was an intern in 
my office, came as one of your quality leaders and she 
produced. You are producing them. We are taking advantage of it 
too, an incredible inspiration in a program she founded, Hope 
for Alaska, to help young people in Alaska deal with suicide.
    As you work with your foundation, you are planting seeds 
everywhere and I want to thank you for that.
    As Senators, you know we travel quite a bit. I was in a 
hotel, I can't remember which city, and I was watching a late 
night show which showed two young Native women who play 
basketball, sisters. I think it was Louisville, if I remember 
correctly. I am seeing some heads shake so they know exactly 
what I am talking about.
    Just watching that story, I was so impressed that the 
younger sister said she is going to finish college, get her 
degree. I think she has a 3.6. But she talked about the 
challenges of coming off the reservation into this unique 
experience. What she wants to do is go back to the reservation 
and inspire young people.
    It was probably 15 minutes at most. They are great 
basketball players, incredible. Just to watch their enthusiasm 
not about the sport but how the sport is part of what they want 
to bring back with the education and the opportunity for young 
people, it was inspiring.
    As I listened to you about inspiring young people, it is 
just impressive. It draws me to one of the things you did when 
you were here in the Indian Law and Order Commission that was 
established. As you know, its report has come out and it was 
pretty amazing, not in a positive way. Alaska has a whole 
chapter which, on one hand, is very disappointing but on the 
other hand, we have an opportunity.
    What is your advice? You were here for so many years but 
now looking in and watching what we do, how do we make sure. We 
had a hearing and we were glad we had it but what do we do to 
make sure the recommendations and ideas they have in that 
commission, as well as the future commission, to ensure they 
actually happen?
    That is always the challenge around here. Just listening to 
you and thinking of the things we could be doing right this 
second, my worry is as we move forward, what do we do, how do 
we engage those recommendations groups like yours and others to 
make sure they happen?
    Again, thank you for Tessa and creating a leader. Alaska is 
blessed because of that. She is doing great work because of 
you.
    Senator Dorgan. Tessa Baldwin is extraordinary and Hope for 
Alaska, she is a champion for change.
    I wanted to say one of my regrets is I don't think we do 
enough in our Congress of oversight hearings. Even if it is 
just one Senator, maybe not always the chairman, but one 
Senator coming to have an oversight hearing and you have one 
agency to come, sit here and answer the questions, what are you 
doing, what aren't you doing.
    I think there is such a rich vein to be mined in the 
oversight of agencies on these Indian programs. This Committee 
could have the capability of doing that. I did not do as much 
of that. We were trying to get the Indian Health Care 
Improvement Act done, the Tribal Law and Order Act and diabetes 
extension and so on.
    I think there is a rich vein to be mined on this issue of 
oversight. You don't have to have a full committee hearing to 
do it. You can have one or two Senators there and go at it and 
figure out what some of these agencies are doing.
    Maybe they say we only have half the money that we need, so 
what are you doing with half the money. At least let's find out 
that.
    Senator Begich. I will leave my questions at this point and 
say it is a good point, because I'm thinking the report, we 
have the commission and now it is up to agency implementation. 
Maybe the next step is to say here are the recommendations that 
were made, whichever agency it might be, you come back here, 
tell us what you are doing and I like your idea.
    It doesn't matter how much they have but what are they 
prioritizing and how are they making that work. Thank you for 
that advice.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hoeven?
    Senator Hoeven. Senator Dorgan, thanks again for being 
here. You worked very hard on trying to prevent teen suicide 
among Native American youth both during your time in the Senate 
and now with the Center for Native American Youth. Would you 
talk just a minute about linkage as you see it between child 
safety and keeping children safe in foster homes which is what 
we seek to do with the Native American Children's Safety Act 
and suicide among our Native American youth? Could you talk 
about that linkage and your thoughts on safety in terms of the 
home, foster care and so forth among Native Americans?
    Senator Dorgan. I have been on Indian reservations and 
talked to a roundtable of students, maybe seniors in high 
school or juniors in high school, about ten of them, about what 
is your life like and what are your issues. Safety always comes 
up. There is always an issue of what is happening around them 
in their environment that causes them concern about their 
safety.
    It is well documented that Indian children are far over 
represented in foster homes, which is another cultural issue. 
It is too easy for them to be put in foster homes.
    Second, when they are put in foster homes, is the 
investigation done sufficiently to make sure they are putting 
these kids in safe homes? That is why I mentioned the case of 
Tamara Demearis. That is the case that has always kept me 
involved. The tears in this little girl's eyes were real tears. 
She was beaten severely, and should have never been in that 
home.
    I talked to the woman who put her there. That woman was 
handling 125 cases. You can't handle more than 25 or 30 cases. 
Do you think she went to find out was this a safe home? She 
didn't do that, she didn't have the time, so this precious 
child was put in an unsafe circumstance.
    Does that relate to teen suicide? Sure. I think there is 
not one trigger for teen suicide, there are a lot of triggers. 
There is the issue of safety and a wide range of things that 
confront these kids every single day: poverty, abuse, sexual 
abuse and so on. I think the suicide issue continues, in my 
judgment, to be very, very serious.
    You have to keep talking about it and I think we will begin 
to see the reduction of rapes and teen suicide when we finally 
begin to see some progress in many of these other areas. That 
gets back to the underlying bill we were talking about and also 
the legislation you have introduced.
    Senator Hoeven. Thank you.
    The Chairman. Senator Heitkamp?
    Senator Heitkamp. Thank you, Chairman Tester.
    I have just a couple comments which I think Senator Dorgan 
covered quite well, the commitment we have from tribal leaders, 
whether it is elder groups or tribal councils, everyone wants 
to take this problem out into the open and start really 
beginning to examine the root causes and how we can change 
outcomes.
    Senator Dorgan, I want to talk with you about how we make 
this issue of those kids, how many times do we hear those kids, 
but these are our kids, these are all of our kids, these are 
Americans. I sometimes think that it is very easy for people 
who don't have the experiences we have coming to Indian Country 
to say that's Heidi's problem or that's Byron's or Jon's 
problem. It is your problem; it is not our problem.
    I think one of the reasons why this has been allowed to 
continue I we have not created a dialogue in this Country that 
says these are our kids and this is a shame when this happens. 
This is on us. This is on all of us because we are the adults.
    How do we build that broader support beyond a Committee 
like this, beyond a room like this? How do we build the broader 
support, Senator?
    Senator Dorgan. It is very hard to do. As you know, many of 
the Indian reservations, particularly in the northern Great 
Plains are far from population centers out of sight and the 
same in Montana. You land in Billings and drive down to the 
Crow Reservation and there is so much there that is not seen or 
not understood by the American people who have made a 
commitment to them.
    It is very hard. The thing is, as difficult as it is, we 
cannot stop. This Committee is the location of a lot of the 
effort that has to continue to be made to say to the Country, 
you cannot allow this to continue. This is not fair. It is not 
even legal. You have actually signed treaties and made promises 
and passed legislation. I think you are touching on something 
that is really important.
    To the extent that we can, make sure that you continue to 
say in the face of the American people, here is what exists and 
we have to change, we cannot allow this to continue.
    Senator Heitkamp. To close with a story, it is about a 
friend of ours, a guy named Al Lick who for years worked for 
the children of North Dakota. He was doing a program where he 
was trying to figure out how he could do early intervention, 
how he could do some prevention work. He was visiting across 
the State of North Dakota and every place he went, people would 
tell him, you can't do that, you can't do this, you can't do 
that and he got worn down.
    Finally, the last place he went an elder approached him and 
said, you know, Mr. Lick, what you can't do and he thought here 
it comes again. He said, you can't give up. It is really 
important that we don't give up. It is really important that we 
don't forget or lose our sense of responsibility.
    Thank you.
    Senator Dorgan. Thank you very much.
    Mr. Chairman, I have exhausted more time than you probably 
expected but thank you for inviting me. As I said, I don't get 
here very often, but when asked if I would come, of course I 
was happy to do that.
    Thanks for being chairman and thanks to the Committee for 
spending time on this issue. I know there are plenty of other 
issues that command your attention.
    The Chairman. Senator Dorgan, we all want to thank you for 
being here today. I know your schedule is busy and you took 
time out of it to come enlighten us and we very much appreciate 
that.
    I would tell you to keep up with the leadership role you 
are in but we know that ain't going to change. Thank you very 
much for everything you have done and will continue to do.
    I have to leave for another committee meeting. I hope to 
get my questions and be back. I am going to turn the 
chairmanship over to Senator Begich.
    We will start with the second panel which is Native 
American representation. Go ahead, Senator Begich.
    Senator Begich. [Presiding.] Thank you very much, Mr. 
Chairman. I look forward to conducting this next portion.
    I would like to welcome the second panel to come forward. 
We have Natasha Singh, a Tribal Judge from Stevens Village in 
Alaska; Margaret Zientek, Co-Chair, Tribal Workgroup working on 
integration of employment related funding from Federal agencies 
and the Honorable Leander R. McDonald, Chairman of the Spirit 
Lake Dakota Nation in North Dakota.
    Welcome to all three of you. We appreciate it. We will 
start with Natasha and go down. Give your testimony and then we 
will be open for questions from members. Again, thank you all 
very much for being here this afternoon on the important 
legislation in front of us today.
    Natasha?

 STATEMENT OF HON. NATASHA SINGH, TRIBAL COURT JUDGE, STEVENS 
                            VILLAGE

    Ms. Singh. Distinguished members of the Committee, thank 
you for holding today's hearing on several bills of particular 
importance to Alaskan tribes.
    My name is Natasha Singh. I am a Stevens Village tribal 
member, a tribal court judge, a foster mother and I am also 
general counsel for the Tanana Chiefs Conference. TCC is a 
health and social services tribal consortium that represents 37 
federally recognized tribes of interior Alaska.
    The focus of my testimony and why I am here today is to ask 
the Committee to use S. 1474 to make lasting changes in rural 
Alaska. This Committee recently reviewed the Law and Order 
Commission report. In that report, you got a glance at the 
horrors faced by some of the women and children living in rural 
Alaska.
    Generations of Alaska Natives living in our villages have 
been ignored by the State's law enforcement and judicial 
systems, a fact which has created despair among tribal members.
    This summer, I was in a village when an intoxicated man 
attempted sexual assault on a 13 year old girl. When the 
village leaders called the State troopers, they were told 
nothing could be done. This is the third time that I am aware 
of that this man has attempted sexual assault.
    This man is currently still in the village, he regularly 
drinks and the community, the women and children have little 
protection from this individual. Do not allow this man to 
continue to terrorize his tribe. The time for positive 
congressional reform is long overdue.
    As currently written, S. 1474 will do very little. That is 
why we ask Congress to amend the bill as written and to add the 
Alaska Safe Families and Villages Self Governance Tribal Law 
Project. This project will recognize the authority of tribal 
governments to deal in the first instance with issues of local 
domestic violence, sexual assault and alcohol and drug abuse.
    That is what is needed, that is what the Commission called 
for and that alone is what Congress can do.
    A major accomplishment of the bill as currently written is 
the repeal of S. 910 of the Violence Against Women Act. I 
really would like to thank Senators Murkowski and Begich for 
agreeing to repeal that section. Since the passage of that 
section last year and with the State's continued challenge to 
tribal court authority, we have seen that tribal courts are 
more hesitant to issue protective orders when it deals with 
non-members.
    I would like to tell you today that if a woman in a village 
is the subject of domestic violence, the local tribal court 
must be assured that it may take lawful, immediate action 
against abusers regardless of tribal membership.
    S. 910 has created such a problem and the cure is 
straightforward that we respectfully urge the Committee to 
include this provision in any relevant bill moving forward, 
including S. 919, the Tribal Self Governance legislation.
    I would also like to briefly touch on S. 1574. I would like 
to praise the Committee for setting this as a high priority. It 
is a long-awaited bill that would make permanent the remarkably 
successful 477 Initiative. TCC fully supports the testimony you 
will hear from Margaret Zientek.
    The 477 Initiative has proven to be a forward looking piece 
of legislation that permits tribes to consolidate employment 
and training programs authorized by different Federal statutes 
at different times and through different Federal agencies. 
Given the enormous nationwide success of the 477 Initiative, 
TCC strongly supports making it permanent.
    TCC also supports enactment of S. 1570 which would 
authorize advance appropriations of the Indian Health Service. 
Sharp and unpredictable funding swings cause severe disruptions 
and hardships, not just for IHS and tribal providers, but for 
the patients who depend on the IHS system as their only source 
of health care.
    The solution is to authorize advanced appropriations as 
Congress did years ago in connection with the Veterans 
Administration's medical accounts.
    Thank you for the opportunity to testify today on these 
three important bills. In my experience as tribal court judge, 
I am confident enactment of an amended S. 1474 will help our 
communities reverse the disproportionate horrors experienced by 
our women and children.
    Thank you for inviting me to testify. It has been an honor.
    [The prepared statement of Ms. Singh follows:]

 Prepared Statement of Hon. Natasha Singh, Tribal Court Judge, Stevens 
                                Village

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Begich. Thank you very much.
    Margaret?

 STATEMENT OF MARGARET ZIENTEK, CO-CHAIR, P.L. 102-477 TRIBAL 
                           WORKGROUP

    Ms. Zientek. Hello. I am Margaret Zientek. I am co-chair 
for the Public Law 102-477 Tribal Workgroup.
    For the past 14 years, I have served 60 tribes across the 
Nation, 477 tribes, representing 250 tribal nations. For 16 
years, I have had the privilege of serving my own tribe, the 
Citizen Potawatomi Nation, as assistant director for our Public 
Law 102-477 program. For the past two years, I have served as a 
tribal member of the Administrative Flexibility Workgroup.
    I thank you for this opportunity today to speak in support 
of S. 1574. Tribal workgroup members strongly support Senators 
Murkowski and Begich and co-sponsors in a bill that will make 
permanent and amend the Indian Employment Training and Related 
Services Demonstration Act of 1992, as amended.
    The 477 Initiative provides a critical foundation for 
maximizing the effectiveness of diverse tribal employment, 
training related services and the law allows for consolidation 
of funding streams from the Department of the Interior, the 
Department of Health and Human Services and the Department of 
Labor.
    The 477 Initiative also provides flexibility for tribes to 
tailor the consolidated service into a single program that 
meets local community needs. It reduces administrative 
redundancy by merging program and financial reporting 
requirements while still adhering to the Government Performance 
Results Act.
    In fact, to date, the 477 Initiative received the highest 
OMB PART rating of any program in Indian Country.
    In fiscal year 2012, the 477 programs in total reported 
approximately 44,000 people served with a 99 percent positive 
employment or education outcome. Of those who entered 
unsubsidized employment, they achieved an average of $7.00 per 
hour wages, tax paying citizens. Over 30 percent of the adults 
served were cash assistance recipients, TANF or BIA general 
assistance recipients.
    The Citizen Potawatomi Nation for the past three years 
reports a total of over 5,000 people served with 40 percent 
receiving unsubsidized employment with average earnings gain of 
$4.50 per hour. Additionally, through the economic development 
portion of the 477 bill, we have created 122 new jobs in our 
community.
    For two years, I have been meeting with the Administrative 
Flexibility Workgroup and it has become clear that problems lie 
in key and targeted issues regarding the terminology in the 
original Act. The 477 tribes agree strongly with Senators 
Murkowski and Begich and other co-sponsors of the bill.
    It is time for Congress to amend the 477 Act, make this 
landmark legislation permanent, build on pass successes, expand 
type and sources of funding eligible to be included in the 477 
plan, and address issues that have arisen in recent years.
    The 477 Tribal Workgroup strongly supports S. 1574 and 
looks forward to working with this Committee to improve the 
bill's provisions. Key elements of the bill are reaffirmation 
of Congress' intent, continue to receive funds through 
contracts and amendments pursuant to the Indian Self 
Determination Act, but tribes are not required to maintain 
separate records, tracing services or activities conducted 
under an approved plan back to individual Federal programs, nor 
are they required to track audit expenditures by original 
program sources.
    The Federal funds can be combined and integrated in order 
to achieve the program goals set forth in an approved 477 plan 
and eliminate any ambiguities on this point and that tribes can 
allocate funds directly to support economic development and 
creation of jobs.
    Additionally, 477 tribes recommend the following 
provisions. Expand the scope of the original demonstration 
project to include competitive formulas, block grants, and 
designated funds. Expand to include employment training and 
related social services programs from other Federal agencies 
and address the timely approval of 477 plans, regulation 
waivers and dispute resolution so there are clear rules and 
clear forms for resolving disagreements and insert provisions 
that allow a tribe the option of utilizing their negotiated, 
indirect cost rate rather than applying separate administrative 
caps from each funding source if a tribe should so choose
    Without congressional reaffirmation of the fundamental 
purposes of the original Act to allow tribes to reallocate 
their funds within the 477 plan in order to address local 
issues and programmatic needs in the most effective manner 
possible, 477 will not continue to reach its full potential.
    S. 1574 can address all of these problems, restore and 
strengthen Congress' original vision of this important 
initiative. On behalf of the 477 Tribal Workgroup, we urge 
Congress to act with dispatch in finalizing the bill and 
quickly move to mark up.
    Thank you for this opportunity to address both S. 1574 and 
I also stand in support of my colleagues here on this panel in 
what they have to say today.
    [The prepared statement of Ms. Zientek follows:]

 Prepared Statement of Margaret Zientek, Co-Chair, P.L. 102-477 Tribal 
                               Workgroup
    My name is Margaret Zientek, and I appear today as Co-Chair of the 
477 Tribal Work Group. I am also a tribal representative on the Pub. L. 
102-477 Administrative Flexibility Workgroup (AFWG), and serve as the 
Assistant Director for the Citizen Potawatomi Nation Employment and 
Training Program, of which I am an enrolled citizen. Thank you for this 
opportunity to present written testimony in support of S. 1574, a bill 
to make permanent and to amend the Indian Employment, Training, and 
Related Services Demonstration Act of 1992, as amended, Pub. L. No. 
102-477, 25 U.S.C.  3401.
    As Co-Chair for the 477 Tribal Work Group, I speak today on behalf 
of over sixty 477 programs representing and serving over 250 Tribes 
across the United States. The Citizen Potawatomi Nation has operated a 
477 program for almost two decades, and I have served in my national 
capacity for over ten years. This bill takes the crucial steps to make 
the very successful demonstration project permanent, provides more 
detailed processes that build on the experience of the past decades of 
implementation, and opens up the opportunity to add other programs.
    The 477 Initiative established by Pub. L. 102-477 has been 
essential for the development of effective and efficient tribal 
services to increase employment and training in Indian country. The 477 
Initiative is formally administered by the Office of Indian Energy & 
Economic Development (OIEED) in the Department of the Interior (DOI). 
The program provides a critical foundation for maximizing the 
effectiveness of diverse tribal employment, training and related 
service programs that would otherwise be available to Tribes only by 
dealing with a panoply of federal agencies issuing multiple contracts 
or grants.
    The law allows for the consolidation of funding streams from 
thirteen separate programs located in the U.S. Departments of the 
Interior; Health& Human Services (DHHS); and Labor (DOL). Thanks to the 
477 Initiative, these programs are consolidated into a single tribal 
employment and training program. By this means, the 477 Initiative 
provides critical flexibility for Tribes and tribal organizations to 
tailor the consolidated activities into a single new program that best 
meets the unique local needs of their respective communities.
    At the same time, it eliminates administrative redundancy by 
merging program and financial reporting requirements, all while still 
adhering to the Government Performance Results Act's stringent 
accountability standards. Tribes, alone, decide which programs or 
combination of programs to combine into a 477 Plan. This structure 
affords maximum local flexibility and full accountability, which 
accounts for the fact that the 477 Initiative has to date received the 
highest OMB PART rating of any program in Indian Country.
    In FY 2012, DOI-OIEED reported a total participant base of 43,991 
people. Thanks to the 477 Initiative, over 99 percent of these adults 
and youth achieved positive employment or education outcomes, earning 
an average $7.00 increase in hourly wages. Over one-third of the adults 
had been on a Cash Assistance Program such as TANF or BIA General 
Assistance at the time they entered their tribal 477 program. These 
data reveal a remarkable success story.
    477 Tribes target services to the most needy, in order to reduce 
the strain on the public assistance programs. The goal of every 477 
Program is to enable our people to be self-sufficient. Some Tribes 
report that the Cash Assistance Program percentages exceed well over 50 
percent of those they serve. Tribes and tribal organizations can 
include TANF and Child Care as well as WIA and BIA funds in their 477 
Program, creating a holistic approach that removes multiple barriers to 
service delivery and positive client outcomes.
    The Citizen Potawatomi Nation's 477 Program: The Citizen Potawatomi 
Nation (CPN) has participated in the 477 Initiative since 1996. We have 
been able to achieve enormous administrative savings and provide 
extended services to our participants as a direct result of the Act's 
provisions. During just the past three years, CPN's 477 program has 
served over 5,000 people, of whom over 40 percent achieved unsubsidized 
employment, with an average earnings gain of $4.50 per hour.
    For over two decades, the 477 Initiative has offered success to 
some of the areas with highest unemployment in the country. Because of 
477, Tribes and tribal organizations have produced outcomes far beyond 
those of their neighboring States because they have been able to 
consolidate the resources of diverse programs in ways that make the 
most sense at the local level. They have moved tribal members from cash 
assistance to unsubsidized employment. And they have accounted for 477 
program activities according to the Plan approved by the Department of 
the Interior.
    The Pub. L. 102-477 Administrative Flexibility Work Group: In 2011, 
our Tribal Work Group and many individual Tribes and tribal 
organizations went to Congress to respond to two new programmatic 
changes being pressed by DOI and HHS. First--and despite no intervening 
problems--the agencies suddenly wanted to cease transferring 477 
program funds to participating Tribes and tribal organizations through 
Indian Self-Determination Act contracts or compacts. Second--and again, 
despite no intervening problems, and despite extraordinary PART and 
GPRA scores--the agencies now wanted to impose a new accounting 
practice that would essentially destroy the 477 Initiative by demanding 
that participating Tribes and tribal organizations account separately 
for the receipt and expenditure of each stream of agency funding going 
into a 477 Plan (rather than following the historic practice of 
accounting for and independently auditing these funds on a consolidated 
basis).
    The House and Senate appropriations conferees meeting on the FY 
2012 Interior appropriations bill instructed the agencies, including 
OMB, to engage in consultations with the 477 Tribes and tribal 
organizations to reach ``consensus'' and ``permanently resolve'' these 
issues. The federal agencies and the 477 Tribes agreed to try to 
resolve their differences over these new issues, and that effort, in 
combination with the President's Administrative Efficiency Executive 
Order, led to the formation of the P.L. 102-477 Administrative 
Flexibility Work Group (AFWG). This group met weekly and included 
policy and program representatives from DOI, DHHS, DOL, and the Office 
of Management and Budget (OMB), as well as representatives from 10 
affected Tribes and tribal organizations. The tribal representatives 
were designated to participate on behalf of all the tribes and tribal 
organizations involved in the Initiative, and included the co-chairs of 
the 477 Tribal Work Group.
    In the meantime, the agencies agreed to temporarily suspend all 
changes, allowing 477 funds to continue being transferred thru self-
determination agreements, and suspended any supplemental financial 
reporting requirements. In due course, the agencies and tribal 
participants reached consensus on a number of issues, but were never 
able to ``permanently resolve'' their disagreements over the fund 
transfer and reporting issues due to a fundamental difference over the 
proper interpretation of the 477 statute.
    Necessity for Amendments to 477 Act. Thanks to the joint and 
comprehensive review of the 477 Initiative, the Tribes and the agencies 
developed a better understanding of the language and purpose of the 477 
Act, the history of the Act's implementation, and the historic process 
for the submission and approval of 477 Plans. However, despite 
extraordinary efforts, consensus was never reached regarding key 
interpretive issues. Since the disagreements were less about policy 
than they were about the terms Congress employed in the original 
enactment, clarifying amendments should resolve these issues.
    For now, the agencies have agreed to continue transferring funds 
through self-determination agreements, without actually committing in 
writing to do so. As for financial issues, the agencies continue to 
disagree with the Tribes' longstanding understanding that 477 Plans can 
and do provide for the consolidation and re-budgeting of all covered 
federal funds in order to best meet the local priorities and needs of 
the Tribe, all as specified in the Plan. Tribal representatives have 
also expressed concern with new reporting requirements that may force 
Tribes to increase administrative costs, change data collection 
practices and software, and create new problems where none has 
previously existed. In sum, the 477 Initiative is not a problem needing 
fixing; it is a resounding success story that needs to be preserved 
strengthened and emulated elsewhere.
    Tribal representatives have consistently advocated for building on 
the status quo, because the status quo has resulted in extraordinary 
success. This includes reporting in aggregate and not by fund source; 
tribal authority to re-budget and reallocate program funds as specified 
in an approved Plan; implementation that does not require Tribes to 
create or maintain new or additional records or to incur new 
administrative costs; use of a pilot program to test efficiency and 
cost effectiveness of 477 Plans; accountability against the 
requirements of the Plan; continued funding through self-determination 
contracts and compacts; and permanent elimination of any OMB 
requirement (such as was proposed in the suspended OMB 2009 Circular A-
133 compliance supplement) to do supplemental accounting by fund 
source.
    For these reasons, the 477 Tribes and tribal organizations strongly 
agree with Senator Murkowski and Senator Begich and the bill's other 
co-sponsors that it is time for Congress to amend the 477 Act, to make 
this landmark legislation permanent, to build upon past successes for a 
better future; to expand the types and sources of funding eligible to 
be included in a 477 Plan; to establish additional protective 
procedures as outlined below; and to address new issues that have only 
arisen in recent years. The 477 Tribal Work Group strongly supports S. 
1574, and looks forward to continuing to work with the Committee to 
improve upon the bill's provisions in the coming days and weeks.
    One major area of confusion has been a matter of semantics, in 
particular what is meant by the word ``program'' in the context of the 
477 law. To help clarify this confusion, we suggest that the federal 
level 477 operations be called the 477 ``Initiative,'' that the tribal 
operations under the 477 law be referred to as a 477 ``Plan,'' and that 
the federal programs constituting the components of each Tribe's or 
tribal organization's plan be termed the ``programs.'' Clarification 
along these lines would significantly resolve some of the confusion 
that has recently arisen over how to interpret the law.
    We praise the Committee for introducing the bill, which resolves 
the disagreements that remain with the agencies and lays the groundwork 
for the most critical elements Indian country needs in these 
amendments, including:

        1. Reaffirmation of Congress's intent that Tribes and tribal 
        organizations carrying out consolidated programs under the Act 
        through an approved Plan may continue to receive their funds 
        through contracts and agreements awarded pursuant to the Indian 
        Self-Determination Act, and may continue to use those 477 funds 
        on allowable activities authorized pursuant to each Tribe's 
        approved 477 Plan.

        2. Reaffirmation of Congress's original intent that Tribes and 
        tribal organizations are not required to maintain separate 
        records tracing services or activities conducted under an 
        approved Plan back to individual federal program sources, nor 
        are they required to audit expenditures by original program 
        source. Congress should reiterate that Single Agency Audit Act 
        audits, which audit funds on a consolidated basis, are 
        sufficient to assure accountability in the expenditure of these 
        funds, as has long been the case.

        3. Reaffirmation that federal program funds can be combined and 
        integrated in order to achieve the program goals set forth in 
        an approved 477 Plan, and elimination of any ambiguity on this 
        point.

        4. Reaffirm that tribes can allocate funds to directly support 
        Economic Development and creation of jobs.

    These three provisions would ``permanently resolve'' the 
outstanding disputes that have arisen between the 477 Tribes and the 
federal agencies, and ensure that the spirit and intent of the original 
477 Act, as carried out for two decades, will remain in place and be 
implemented consistently across future administrations.
    In addition, the 477 Tribes recommend that the bill also include 
provisions that address tribal efforts to achieve a number of long-term 
goals related to work force development in Indian Country.
    For example, legislation should include a mechanism to identify 
eligible employment, training and related social service programs from 
other federal agencies on which Tribes and tribal organizations might 
draw to supplement their efforts and to add to their Plans. To do this, 
the scope of the original demonstration program should be expanded in 
two ways: (1) to cover a wider range of departmental and agency funds, 
including competitive funds, formula funds, block grants, and 
designated funds; and (2) by specifying a wider range of funding types, 
including funds for job training; welfare to work and tribal work 
experience; creating or enhancing employment opportunities; higher 
education; skill development; assisting Indian youth and adults to 
succeed in the workforce; encouraging self-sufficiency; familiarizing 
individual participants with the world of work; facilitating the 
creation of job opportunities; and any services related to these 
activities.
    Finally, the 477 Act should also be amended to address timely 
approval of 477 Plans, regulation waivers and dispute resolution, so 
that there are clear rules and clear forums for resolution of 
disagreements about the 477 Act, and insert provisions that allow a 
tribe the option of utilizing their negotiated indirect cost rate, 
rather than applying separate administrative caps to each funding 
source.
    Summary and Conclusion. It is has become clear in recent years that 
the 477 Initiative will not reach its full potential until Congress 
reaffirms one of the fundamental purposes of the original Act--to allow 
Tribes and tribal organizations to reallocate their funds within their 
approved 477 Initiative in order to address local issues and 
programmatic needs in the most effective manner possible. In part, this 
may be due to ambiguous language in the 477 law which only recently has 
been identified. Whatever the reason, acknowledging tribal authority 
and responsibility to meet local needs by reallocating funds as needed 
is exactly the point and strength of the 477 Initiative. It is 
precisely this flexibility that has allowed us to be so successful. It 
is precisely this flexibility that must be retained and strengthened. 
The silos that exist elsewhere must not be resurrected here.
    S. 1574 can address all of these problems and restore and 
strengthen Congress's original vision of this important initiative. We 
respectfully urge Congress to act with dispatch in finalizing the bill 
and moving to mark-up. The 477 Tribal Work Group and our members Tribes 
stand ready and willing to work with this Committee to adopt amendments 
that will provide a sound and unambiguous foundation for the 477 
Initiative in the 21st Century. It is imperative that the 477 
Initiative get back on track, that it continue to meet the needs of 
tribal members and operate much in the manner that it successfully 
operated from its inception in 1992, and that is be established as a 
foundation for expansion and emulation in other areas.
    We are deeply grateful for this Committee's unwavering support for 
the 477 Initiative, and we look forward to working with the Committee 
to see this important bill enacted this year.
    Thank you for this opportunity to address S. 1574.

    Senator Begich. Thank you very much.
    Chairman McDonald?

STATEMENT OF HON. LEANDER R. MCDONALD, Ph.D., TRIBAL CHAIRMAN, 
                       SPIRIT LAKE TRIBE

    Mr. McDonald. I would like to begin by thanking Chairman 
Jon Tester and distinguished members of the Senate Committee on 
Indian Affairs for the opportunity to present testimony on 
tribal concerns and issues relevant to children safety and more 
specifically to the proposed Native American Child Safety Act.
    I want to also recognize our Senators from the great State 
of North Dakota and thank them for inviting me to come and 
share a bit of our perspective from the tribes in North Dakota.
    My name is Leander Russell McDonald. I am Chairman of the 
Spirit Lake Tribe located in northeastern North Dakota. The 
Spirit Lake Reservation was established by the treaty of 1867 
and currently consists of more than 250,000 acres of land with 
just over 7,200 enrolled members. Our reservation population is 
approximately 6,200 people consisting of enrolled members, non-
enrolled members and non-Indians.
    Most of the enrolled members of the Spirit Lake Dakota 
Nation reside either on the Spirit Lake Reservation or within 
the immediate area.
    Child protection services continue to a priority for our 
Nation. In Dakota, children are called Wakanheza, which 
translates to sacred being. They are considered sacred to us as 
they are recognized as newly coming from the Creator.
    This perspective guides us as individuals, tribal leaders 
and elected officials to do everything within our power to 
develop legislation that fosters their protection and welfare. 
The Spirit Lake Tribe has been highlighted in the media over 
the past two years as a result of the child protection issues 
experienced by our community.
    On October 1, 2012, the Spirit Lake Tribe retroceded a 
Public Law 93-638 Child Protection Services program back to the 
Bureau of Indian Affairs due to the inability of the Tribe to 
address serious deficiencies identified in a detailed 
corrective action plan issued by the BIA in April 2012.
    Limited budgets, difficulties retaining qualified staff and 
lack of placement options for children in crisis are among the 
factors that have contributed to the issues we continue to face 
within our community. The Tribe continues to administer the 
Title IV-E Foster Care of the Indian Child Welfare Act and 
family preservation programs under the Spirit Lake Tribe Social 
Services Program.
    All four of these programs are recognized as critical and 
interrelated to the protection of American Indian children for 
many of the reservations throughout the Nation.
    In 2011 and 2012, the Spirit Lake Tribe lost three very 
young children to homicides. These homicides devastated our 
community and exposed system-wide flaws and inconsistencies in 
our system. I have come to believe that these inconsistencies 
are not specific to the Spirit Lake Tribe but are rather the 
norm across many reservations within our region.
    Unfortunately, the Spirit Lake Tribe had to lose one of our 
grandchildren to learn that background checks for all adult 
members of the household must be mandatory to ensure the safety 
of all children placed in relative and foster care homes. We do 
not wish to remove children from one dangerous environment only 
to place them in another.
    Equally important, we have come to understand that we must 
hold professionals accountable when they are not following 
tribal existing law.
    This brings me to the proposed Native American Child Safety 
Act currently introduced by Senators Hoeven and Tester and co-
sponsored by Senators Barrasso and Heitkamp.
    The proposed legislation would, among other things, expand 
background check requirements for all adults residing in 
prospective foster care homes where Native American foster care 
children are to be placed by tribes or the Bureau of Indian 
Affairs.
    This legislation would bridge an existing data gap 
identified within our communities and provide a necessary step 
to ensure that all adults residing with children in the foster 
care system are proper screened. The legislation also promotes 
consistency by creating minimum safety standards for children 
in foster care by also requiring new adults joining the 
household to also have background checks.
    We respectfully request that the procedures used to 
implement the legislation not be duplicative, costly nor a 
source of frustration to possible foster parents or caregivers. 
Potentially, up to three jurisdictions may be involved in the 
care and placement of Native Children. Relatives and other 
caregivers may be required to undergo tribal, State, and 
Federal background checks, dependent upon where the placement 
is located.
    Furthermore, requiring independent background checks for 
the same individuals based upon care type, i.e., foster care, 
relative care, guardianship or kinship care, seems 
unnecessarily duplicative and needs to be addressed. A 
comprehensive background check that could be applied regardless 
of care type would suffice to safeguard the children being 
placed while not being a burden on the individuals seeking to 
provide care.
    Equally true is the fact that all tribes have child abuse 
and neglect registries and accessing confidential information 
on existing registries will need to be addressed to ensure that 
the purpose of this legislation can be realized.
    I expect that an obstacle to this end may be that tribal 
convictions are not consistently included in the National Crime 
Information Center database. The process for completing 
criminal background checks is likely to be cumbersome and in 
some instances, unreliable as long as data relevant to criminal 
histories is housed in separate places. This fact will need to 
be addressed in order to have a truly comprehensive criminal 
background check completed.
    In closing, I would like to add that while background 
checks for adults in homes is a necessary part of the effort to 
safeguard our children, this cannot be the only effort. Federal 
support for tribal programs and service agencies that are 
adequately staffed and trained is also imperative.
    Ongoing Federal support to enhance tribal courts, develop 
culturally appropriate service for children and families and 
improved collaboration across tribal, State and Federal 
jurisdictions is necessary. Strong and stable tribal justice 
systems and services are an important part of enforcing our 
tribal laws in a culturally appropriate way and are also 
important to making sure that the service providers working in 
our community are following our tribal laws.
    I would like to thank you for the invitation to speak to 
you today. I trust this testimony will be taken under 
advisement as you continue to develop legislation that will 
help to safeguard the children within our tribal communities.
    Mitakuye Owasin from all my relatives. Thank you.
    [The prepared statement of Mr. McDonald follows:]

Prepared Statement of Hon. Leander R. McDonald, Ph.D., Tribal Chairman, 
                           Spirit Lake Tribe
    I would like to begin by first thanking Chairman Jon Tester and 
distinguished members of the Senate Committee on Indian Affairs for the 
opportunity to present testimony on tribal concerns and issues relevant 
to children's safety, and more specifically, to the proposed Native 
American Child Safety Act.
    My name is Leander ``Russ'' McDonald, Chairman of the Spirit Lake 
Tribe, located in northeastern North Dakota. The Spirit Lake 
Reservation was established by the Treaty of 1867 and currently 
consists of more than 250,000 acres of land. We have just over 7,200 
enrolled members. Our reservation population is approximately 6,200 
people, consisting of enrolled members, non-enrolled members, and non-
Indians. Most of the enrolled members of the Spirit Lake Dakota Nation 
reside either on the Spirit Lake Reservation or within the immediate 
region.
    Child protection services continue to be a priority for our Nation. 
In Dakota, children are called Wakanheza, which translates to sacred 
being. They are considered sacred as they are recognized as newly 
coming from the Creator. This perspective guides us as individuals, 
tribal leaders, and elected officials to do everything within our power 
to develop legislation that fosters their protection and welfare. The 
Spirit Lake Tribe has been highlighted in the media over the past two 
years as a result of the child protection issues experienced by our 
community.
    On October 1, 2012, the Spirit Lake Tribe retroceded a Public Law 
93-638 Child Protection Services (CPS) program back to the Bureau of 
Indian Affairs (BIA) due to the inability of the Tribe to address 
serious deficiencies identified in a detailed corrective action plan 
issued by the BIA in April 2012. Limited budgets, difficulties 
retaining qualified professionals, and lack of placement options, for 
children in crisis are among the factors that have contributed to the 
issues that we continue to face within our community. The Tribe 
continues to administer the Title IV-E Foster Care, the Indian Child 
Welfare Act (ICWA), and Family Preservation programs, under the Spirit 
Lake Tribe Social Services Program. All four of these programs are 
recognized as critical and interrelated to the protection of American 
Indian children for many of the reservations throughout the Nation.
    In 2011 and 2012, the Spirit Lake Tribe lost three very young 
children to homicides. These homicides devastated our community and 
exposed system-wide flaws and inconsistencies. I have come to believe 
that these inconsistencies are not specific to the Spirit Lake Tribe, 
but are rather the norm across many reservations within our region. 
Unfortunately, Spirit Lake Tribe had to lose one of our grandchildren 
to learn that background checks for all adult members of the household 
must be mandatory to ensure the safety of all children placed in 
relative and foster care homes. We do not wish to remove children from 
one dangerous environment only to place them in another, and equally 
important, we have come to understand that we must hold professionals 
accountable when they are not following existing law.
    This brings me to the proposed Native American Child Safety Act 
that is currently being introduced by Senator Hoeven, Senator Tester, 
and co-sponsored by Senator Barrasso and Senator Heitkamp. The proposed 
legislation would, among other things, expand background check 
requirements for all adults residing in prospective foster care homes 
when Native American foster care children are to be placed by Tribes or 
the Bureau of Indian Affairs. This legislation would bridge an existing 
gap that has been identified within our community and provide a 
necessary step to ensuring that all adults residing with children in a 
foster care setting are properly screened. The legislation also 
promotes consistency by creating minimum safety standards for children 
in foster care by also requiring new adults joining the household to 
also have background checks.
    We respectfully request that the procedures used to implement the 
legislation not be duplicative, costly, nor a source of frustration, to 
possible foster parents or caregivers. Potentially, up to three 
jurisdictions may be involved in the care and placement of Native 
Children. Relatives and other caregivers may be required to undergo 
tribal, state, and federal background checks, dependent upon where the 
placement is located. Furthermore, requiring independent background 
checks for the same individuals based upon ``care type'' (i.e. foster 
care, relative care, guardianship, or kinship care) seems unnecessarily 
duplicative and needs to be addressed. A comprehensive background check 
that could be applied regardless of ``care type'' would suffice to 
safeguard the children being placed while not being a burden on the 
individuals seeking to provide care.
    Equally true is the fact that not all tribes have child abuse and 
neglect registries and accessing confidential information on existing 
registries will need to be addressed to ensure that the purpose of this 
legislation can be realized. I expect that an obstacle to this end may 
be that tribal convictions are not consistently included in the 
National Crime Information Center database. The process for completing 
criminal backgrounds is likely to be cumbersome and in some instances 
unreliable as long as data relevant to criminal histories is housed in 
separate places. This fact will need to be addressed in order to have a 
truly comprehensive criminal background check completed.
    In closing, I would like to add that while background checks for 
adults in the homes is a necessary part of the effort to safeguard our 
children this cannot be the only effort. Federal support for tribal 
programs and service agencies that are adequately staffed and trained 
is also imperative. Ongoing federal support to enhance tribal courts, 
develop culturally appropriate services for children and families, and 
improve collaboration across tribal, state and federal jurisdictions is 
necessary. Strong and stable tribal justice systems and services are an 
important part of enforcing our tribal laws in a culturally appropriate 
way and are also important to making sure that the service providers 
working in our community are following our tribal laws. I would like to 
thank you for the invitation to speak to you today. I trust this 
testimony will be taken under advisement as you continue to develop 
legislation that will help to safeguard the children within our Tribal 
communities.

    Senator Begich. Thank you all very much.
    I know we all have questions, so let me go ahead and start.
    First, Natasha, thank you for being here. I know for our 
Alaskan friends who come all the way from Alaska, it is not an 
easy trip and it is very warm here today in comparison. We 
appreciate your being here.
    Your written testimony and your verbal testimony are both 
powerful and helpful. Sometimes we have to read between the 
lines what people want us to think they are presenting. Not 
with you, you were very direct, so I want to follow up on a 
couple things.
    I want to read pieces from a letter I know the Alaska 
Federation of Natives sent to Congressman Young. I am going to 
read this and ask you a question or two. In 2012, the Alaska 
Federation of Natives sent a letter to Congressman Young that 
states that the State of Alaska is entrenched and made policy 
choices that ``under-fund rural Alaska and cripple the capacity 
of rural Alaska, especially tribal governments, to implement 
local solutions.'' It continues to say that ``dismal statistics 
point to the failure of the State of Alaska to protect its 
citizens.''
    First, do you agree with AFN's statement in general?
    Ms. Singh. Yes, I wholeheartedly agree.
    Senator Begich. I know we have discussed and you testified 
on 1474, the Alaska Safe Family and Villages Act, I have 
introduced each session trying to change a few things. You 
commented that there are additional amendments that are needed 
to make it stronger. Do you believe that because of these 
comments that AFN made as well as the Commission just came out 
with an incredible report that was presented at AFN, if I 
remember correctly, and was pretty devastating to say the 
least? Do you think this legislation, with additional 
amendments you suggest and others might suggest, would give us 
those tools to combat the issues of violence and crime within 
our villages in Alaska?
    Ms. Singh. Yes. As currently written, mostly the bill is 
encouraging agreements with the State of Alaska and with our 
tribes but Federal legislation isn't for that. In fact, TCC is 
in a negotiated agreement with the State right now regarding 
our tribal courts. The State of Alaska has agreements across 
the State in different pockets with tribes.
    We need those amendments, the tribal courts need that 
concurrent jurisdiction and authority.
    Senator Begich. Enforcement powers?
    Ms. Singh. Exactly.
    Senator Begich. If you just have those agreements, I don't 
want to put words in your mouth, but want to make sure I am 
hearing you right. For example, the situation you just gave me 
regarding the trooper situation, you may not see a change as 
dramatic as you need which is you want to have a better justice 
system?
    Ms. Singh. Exactly, a law enforcement and justice system 
both.
    Senator Begich. Part of that is critical to ensure that 
Section 910 is repealed?
    Ms. Singh. Yes, it is very important.
    Senator Begich. We have strengthened the law, you negotiate 
with the State but if we don't repeal Section 910, you still 
have some conflict of your authority or potential power?
    Ms. Singh. Yes.
    Senator Begich. Is that a fair statement?
    Ms. Singh. Yes.
    Senator Begich. I appreciate this is something to look for 
as we move to mark up, some of those suggestions I know you 
have in your testimony but even more specific legislative 
language because if we could strengthen it that you are not 
solely depending on the State to make a decision, because to be 
frank with you, in my opinion, the State has not been very 
supportive of tribes in Alaska. Is that fair?
    Ms. Singh. Yes.
    Senator Begich. You need some assistance from the Federal 
Government so you can create some additional tools in the 
toolbox for justice within your own communities. Is that a fair 
statement?
    Ms. Singh. Yes.
    Senator Begich. You can add these amendments but if you 
don't take out Section 910 or repeal it, you are not there yet?
    Ms. Singh. No.
    Senator Begich. You have to repeal 910 and add some 
additional amendments that will add meat to this, is that fair?
    Ms. Singh. Yes.
    Senator Begich. One by itself won't do it.
    Second, I want to thank you. My sister is a foster parent 
and I know what that is like. Every holiday season when I am at 
the house, I am not sure who is going to be additional in the 
home but it is always a great experience because those kids 
come back, even when they are no longer foster kids, and 
participate in our family on many different levels. It is an 
incredible power to see that with these young people given a 
home that is safe and clean.
    I thank you for your personal commitment.
    Lastly, as a judge, do you see, not only in your community 
but throughout Alaska, other tribal court judges or others that 
work in the field are looking for this tool? It is not just TCC 
but throughout Alaska as AFN has said? Is that fair from your 
personal conversations?
    Ms. Singh. Yes. Just yesterday I was emailing with a 
coalition we have across the State of tribal court judges, 
attorneys and tribal leaders precisely on my testimony. They 
all fully support it.
    Senator Begich. Very good.
    I know there are others. I want to go through the list with 
folks who got here in order of attendance but let me also say I 
want to talk with you at some point and Andrea Well who is 
behind me, and see if we can get some of that very specific 
language we can start thinking about inserting in this bill so 
it really creates the tools we need.
    We know the State is not going to agree with what we are 
going to do here but at the end of the day, we hope they will 
because this is about creating justice and a better system for 
Alaska Native people.
    Thank you.
    I have Senator Heitkamp and Senator Murkowski and then 
Senator Hoeven, in that order. Senator Murkowski?
    Senator Murkowski. Thank you.
    Thank you to each of our witnesses for traveling and your 
testimony, but also for what got you here to provide the 
testimony which is clearly a passion in your respective areas.
    I want to note your comments on your Native word for 
children being sacred. I think if we all kept that in mind, 
perhaps we wouldn't be dealing with many of these problems that 
face this Committee. Thank you for your leadership there.
    I know our Alaska tribes want to look at this background 
check issue to ensure our Native children are as safe as we can 
possibly keep them.
    Margaret, I thank you for what you have done in your 
capacity as co-chairperson of the Tribal 477 Workgroup. You 
noted the impact that we have from successful application of 
the 477 program in Alaska. The 477 program is operated by CITC, 
the Cook Inlet Tribe. It provides services to a native 
population of 40,000, transitions over 2,100 TANF recipients 
from welfare to work, providing them with skills and allowing 
them an opportunity to earn an average hourly wage of over 
$11.53.
    CITC provided 8,989 job seekers with career exploration 
training and job search assistance, 4,767 of those job seekers 
were placed in jobs.
    What we see coming from these programs is exactly why we 
need the advocacy. Thank you for that and for your work and 
working with Gloria O'Neil and so many on these very important 
issues. I appreciate that.
    I don't have any questions for you because I agree with 
everything that you have said.
    Natasha, I want to use my time to perhaps provide some 
baseline which I think is going to be critical. Senator Begich 
is right, we recognize there is conflict between our tribes and 
the State in terms of areas of jurisdiction.
    We also recognize that without funding for our tribal 
courts, this is going to be exceedingly difficult to advance. I 
am trying to work to establish some baseline funding for our 
tribal courts in Alaska so that resources are available to 
continuously operate our courts, and invest in the training of 
our tribal court judges and our staff. I hear from so many that 
they are so desperately needed. Assistant Secretary Washburn is 
sitting behind you and will get this question from me when he 
comes before the dais.
    I am the top Republican on Interior appropriations and we 
are looking very critically at how we can establish base 
funding for our Alaska tribes. I would like you to try to 
provide the Committee today, if you cannot do it today, we can 
get information later, what you figure the average cost to run 
a successful tribal court in one of your villages is?
    What I am trying to establish is to provide the 
Administration an estimate of the need and what will 
adequately, hopefully beyond adequately, fund our tribal court 
system in the State of Alaska. Do you have any baselines you 
can share?
    Ms. Singh. I don't off the top of my head have a baseline. 
Most of our tribal courts right now have volunteers, our judges 
are volunteers. Some of our clerks might get paid but some of 
our clerks are volunteers. Our social workers, it is had to 
retain them because they get paid very little.
    Knowing the State system of social and child protection, if 
you go into a State court in a child protection case and you 
are sitting there with probably six attorneys and usually eight 
State-appointed attorneys. When tribal courts have those cases, 
none of those attorneys are present, and you are not paying for 
any of that, the court costs, the flying back and forth from 
the village to an urban center. In child protection alone, you 
save, in one hearing, thousands of dollars.
    I look forward to getting to you specific figures but it 
would depend on the size of the tribe and how many cases they 
are taking on an annual basis.
    Senator Murkowski. I appreciate that. I would appreciate it 
if your folks could really try to put some thought into some 
hard numbers because this is something I think we need to be 
able to establish to the Administration because the need is 
clearly there. It is not just for the day to day operation; it 
is for the training. We have the conferences that go on and you 
have to be able to bring in the folks. There is a very clear 
need here for greater resources to be directed.
    Rather than just pulling numbers out of the air, we need to 
work to identify what our baseline might be.
    I have a couple other questions. My colleague has returned. 
Senator Heitkamp has yielded to me, so if we have an 
opportunity for a second round, I would like to do that.
    Senator Begich. Thank you very much.
    Let me go to Senator Heitkamp and then Senator Hoeven.
    Senator Heitkamp. I will be very brief.
    For those of you who look at this, I will say that no one 
needs to be a second class citizen. Everyone has a right to be 
safe in their homes and when they are not safe in their homes, 
they have a right to see the perpetrator brought before a court 
of law, convicted and appropriately punished. That is a basic 
human right we have in this Country.
    When it is denied, you lose faith and you begin to believe 
maybe we are not part of this Country because what does it mean 
to be an American, what does it mean to be a part of this 
Country. I pledge to you that I will do everything that I can 
to assist in this effort to bring a broader justice not only to 
Alaska Natives but to all of Indian Country. It is appalling 
what we have allowed to happen.
    I want to turn to Chairman McDonald who didn't brag enough 
about himself, so I will brag a bit about him. He stepped into 
a very difficult situation and has brought I think such a 
wonderful sense of community back to tribal government and has 
led his people in very small ways but very important ways to 
knowing we all are working on this together.
    Thank you, Senator Hoeven, for the invitation to Chairman 
McDonald. I think it is so critical that we show progress.
    To that end, I want to talk about what is happening right 
now with BIA sourced funding, whether those resources have been 
adequate, how we are managing the 4E responsibilities and the 
foster care responsibilities and coordination. How would you 
grade child social services right now at Spirit Lake?
    Mr. McDonald. Coming from education, I think right now we 
are around a D. I think we are below average and I think there 
is yet a lot of work to be done and we need to continue to 
build that foundation.
    Senator Heitkamp. How do we get to a C, then a B and then 
an A?
    Mr. McDonald. I think the first part of it is trying to get 
staffed up. I think on both the tribal and BIA sides, we are 
having difficulties in filling positions with qualified 
individuals. Once we are staffed to what funding allows, then 
consider getting us to the point where should be funded.
    I think we are about halfway there on the funding side 
right now. I think if we had double the workers, we wouldn't be 
where we are right now, or double the resources in regard to 
where we are right now. I think that would help them to that 
end.
    I heard the testimony by Senator Dorgan. I agree with him 
that we have caseloads that are overwhelming to the caseworkers 
that we do have. They are overwhelmed and are just trying to 
get the work done. Part of the importance of this bill is that 
we still need to get the work done in a safe way to protect 
those children when we do place them in homes.
    The other part that the Senator talked about was the 
importance of them having the resources to do that. It is 
across the board. It is not just the social services piece of 
it; it is the court piece and having adequate funding to do 
that; it is the law enforcement piece so we can investigate 
those issues that the people are filing 960's on, and the 
criminal investigation piece.
    I do want to say some good words about Mr. Washburn, 
Lillian Sparks and Marian McMullen, the Administration of 
Children and Families from your office, from Senator Heaven's 
office and from Native American Youth. All these guys have 
volunteered resources to help us pull this together. The 
National Resource Center for Children helped us do an 
assessment so we could see where we are.
    I am a former researcher and because of the training, we 
have an assessment of where we and develop that plan and move 
forward. Failure to plan is planning to fail. If we put a good 
plan in place and build that foundation, I think we will be in 
a better position to do right for our children.
    We are doing two things at the same time. One is trying to 
fix what has happened in the past and build that foundation 
while trying to build something for the future. We are doing 
double duty when that foundation should have already been 
built.
    I think we have quite a bit of work in front of us. I think 
the important part of a bill such as this is that it helps to 
ensure that the laws are going to be followed, and the laws are 
going to be in place in order to help build that foundation.
    Senator Heitkamp. I am out of time but I want to make the 
point that no one should be so discouraged that we are looking 
at safety in foster homes. That is critical and is an important 
part of that network. The goal here of a broader look is to 
prevent children from going into foster homes.
    We forget that children are in foster homes for a reason. 
They are coming out of a situation that is not safe or they 
wouldn't be seeking homes in foster care. This should not in 
any way diminish our goal that we are trying to avoid children 
having to be placed in foster care long term.
    Senator Begich. Mr. Chairman, next in line was Senator 
Hoeven and then Senator Murkowski had a couple quick questions 
and then back to you because you are the Chairman.
    The Chairman. [Presiding]. Thank you.
    Senator Hoeven. Thank you, Mr. Chairman.
    Chairman McDonald, thank you for coming today and thank you 
for your willingness to testify on the Native American 
Children's Safety Act.
    We actually put this legislation together because of 
reports of child abuse on the Spirit Lake Reservation prior to 
your serving as chairman. In fact, there was an article in the 
New York Times in September 2012 which detailed an incident in 
which a woman tried to burn down her house with her five year 
old daughter inside. The daughter was then put into a foster 
home where a registered sex offender was living. The same 
article identified several convicted rapists who have been in 
custody of children.
    This legislation is about making sure foster homes are 
safe, not only on our reservations in North Dakota, but across 
the Country. This is legislation we passed in the State for 
non-Indians when I was governor. It is all about making sure 
that we have background checks on all adults in a foster home 
before children are placed in that foster home, but also having 
recertification by the BIA to ensure if new adults move into 
that foster home that they are checked as well and that all 
reservations have a standard to ensure children's safety.
    If you could comment for a minute on what you are doing on 
the Spirit Lake Nation right now to ensure that these 
background checks are done and then talk for a minute about how 
your relationship is going with the BIA as you work with them 
in terms of administration of the tribal social services 
program.
    Mr. McDonald. I lost the first part.
    Senator Hoeven. The first part is talk about how you are 
doing the background checks now, what you are doing to make 
sure the background checks are done. The second part is talk 
about the relationship with the BIA.
    Mr. McDonald. We have been following this for a while. What 
happened about the timeline was not the incident that you spoke 
about but another incident where a child was placed in a 
relative care home and when they did the background check on 
the relative, the grandfather whose home the grandchild was 
being placed in, but they didn't do the background check on the 
rest of the adults in the home.
    The wife of the grandfather was a younger lady and had some 
charges on her and assault was one of them. Then there were 
some alcohol-related charges. What happened is she ended up 
throwing this kid down an embankment and the kid ended up 
dying. She was sentenced in September and I believe she got 30 
years.
    The other part is we still lost a child. If background 
checks had been done on the entire household, that would never 
have happened.
    Since I have been there, we nailed that down. We did hire a 
social service director who did implement those policies or 
followed those policies to make sure the whole household was 
background checked which was happening in the State of North 
Dakota but not on our reservation because it was relative care.
    We said not only for foster care placement should this 
occur, we follow State guidelines because we want to get the 
Title IV youth funds in order to provide foster care some 
resources to take care of these kids, but on the relative care 
side, we weren't doing that because we were just placing them 
in relative care.
    I am an example of that. We got called from social services 
about six years ago and they said, we are going to place these 
kids off the reservation some place unless you guys are able to 
take them, so we took them. As far as I know, there were no 
background checks conducted. They placed them with us and they 
to a safe home and they are with us yet.
    They came and did a home assessment on our house. That was 
about it and we didn't see them. We went back to court a couple 
times and the parents didn't show up, so they are still with 
us. We are not questioning that because they are our kids now. 
We don't want to go back to court and the parents haven't 
approached us, so they are still with us.
    I think there are some cases where these kids have gone 
into safe homes such our example, but I think for the most 
part, we want to be sure that is the case for all of our kids. 
That is the importance of this bill.
    Another example happened in coordination with the State and 
that is why I shared what I shared in the testimony that State 
background checks, not with the former foster care placement 
person, but the previous one, the State background check was 
done but she didn't do the tribal records, she only did the 
State database.
    Because she didn't the tribal records, and they don't 
share, so the kid was placed or a foster care license was 
granted to a foster care home but there were some questionable 
charges on this individual who received a license. We didn't 
know that. We placed kids in that home. Luckily the kid was 
safe in the home but there should have been background checks 
across the board in all jurisdictions.
    That is why again it is so important for us to make sure 
this happening and there is some kind of comprehensive database 
accessible to everybody to ensure the safety of our children.
    On the second part, the Bureau of Indian Affairs, I met 
with Mr. Washburn just recently at the NCAI meeting. For the 
most part, I think we have had good interactions with them. I 
think locally we are in the same boat because they can't fill 
those positions. The tribal council asked that they lift the 
American Indian preference on those positions in order for us 
to get the positions filled but they are still not filled.
    Senator Hoeven. Again, I want to thank you for being here 
today and thank you for your work on the Spirit Lake 
Reservation. That is something we will get a chance to talk to 
Secretary Washburn about.
    Thank you again for being here and for your efforts.
    The Chairman. Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman.
    I have said in this Committee, in writing and before the 
Committee and repeat again, how much I support the policy 
position that our tribal court's protective orders should be 
honored in our Native villages. Natasha, the words you used 
were it appears that there is more hesitancy to issue 
protective orders out there on our non-Natives.
    I know that you are working TCC and continuing its 
discussions, you mentioned in conversation with Senator Begich, 
between the State regarding diverting misdemeanors and felony 
cases to tribes for remedies. Can you give me some indication, 
I know you are still underway in discussions, so if you haven't 
clearly defined it yet, I understand, have you been able to 
determine what kinds of crimes the State would be willing to 
divert to tribes?
    Ms. Singh. Sure. We have a list I would be willing to share 
with you. It is pretty low level domestic violence and alcohol 
related offenses. I know don't see an Assault 4 charge in there 
right now, so we will be speaking to the State about including 
that.
    I think it is a modest start but we are positive. We know 
it is a small step. The difference between an agreement we are 
working out with the State and some of the amendments we have 
proposed is that the amendments would be concurrent 
jurisdiction. The agreement is just delegated authority where a 
defendant would in effect admit guilt and then the tribal court 
would sentence, admit guilt with State violations. It is a 
pretty good list.
    Senator Murkowski. Is the State willing to work with you on 
the assault piece?
    Ms. Singh. I think so. They have been very open in the 
discussion altogether. It has been a learning curve for them. 
The first draft of the agreement is significantly different 
than what we have now.
    Senator Murkowski. Again, I appreciate all that you are 
doing on behalf of so many, not only on the issue as it relates 
to the public safety piece but what you are doing to help 
advance the legislation we are talking about with 477, advance 
appropriations. Your leadership is greatly appreciated.
    I know that you have been working with both our staffs to 
really keep us apprised of all the events. Thank you. Keep at 
it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    I apologize for not being here, there was another hearing I 
had to get to. I want to thank you for your testimony and thank 
you for making yourselves available for questioning. I thank 
you for your commitment to Indian Country. Hopefully we can 
call on you again for your perspectives and input as we take up 
important pieces of legislation for Indian Country.
    Thank you all for your time.
    I would like to welcome the final panel of the day which 
consists of Assistant Secretary, Indian Affairs, Kevin Washburn 
and Commissioner of the Administration for Native Americans, 
Lillian Sparks.
    Mr. Washburn and Ms. Sparks will be offering the 
Administration's perspective on legislation today. Both are 
regulars here in the Senate Indian Affairs Committee. We 
appreciate their flexibility and their perspective as we look 
to the Administration for their perspective on these five 
bills.
    I think we will start with you, Kevin. You can give your 
testimony and then Lillian, you can give yours. Then we will 
have some questions. You may proceed.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
       SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Washburn. Chairman Tester and Senator Heitkamp and 
other members of the Committee, thank you. You have a bunch of 
important bills before you today.
    This is an interesting experience for me because my co-
witness was my intern a few years back and now she is a 
presidentially-appointed, Senate confirmed official over at 
HHS. It makes me proud to be sitting here. As a teacher, it is 
a neat thing.
    Let me go through the bills we have. I apologize, we got 
our testimony to you very, very late. There was a lot of 
negotiation back and forth within the Administration over these 
bills. We try to cooperate as best as we can with the 
Administration and speak with one voice. Sometimes the 
cooperation goes on and on and on. That is where we were today, 
so I apologize. I know that has been an issue for the Chairman.
    The Chairman. You can pause the clock for a second.
    I am glad you brought that up. It is an issue. I have been 
pretty nice about it. I will get crankier as time goes on if it 
doesn't change. I appreciate you bringing it up. I was going to 
bring it up in my opening statement, so thank you for reminding 
me because I would have remembered before time went on.
    For a number of reasons, it helps us help you and if we 
don't have it, we cannot do that. Thank you.
    Mr. Washburn. We know that. Thank you, Chairman. You are 
very gracious. If you wouldn't file controversial bills, it 
wouldn't be so hard. Thank you.
    [Laughter.]
    Mr. Washburn. S. 1474, introduced by Senators Begich and 
Murkowski, the Alaska Safe Families and Villages Act, the 
Administration supports this bill. We are grateful for both the 
Alaskan Senators' leadership on this.
    As the Indian Law and Order Commission report recently 
showed, we have serious problems in Alaska and really need to 
work on fixing those. In law enforcement, coordination is 
everything between State, Federal and tribal officials, so we 
strongly support that effort.
    Within the BIA, we have been doing a lot. We have actually 
started bringing village public safety officers to our Indian 
Police Academy in Artesia, New Mexico to help the State police 
in training those people. That is not an adequate solution so 
we are grateful to support that bill.
    I don't need to say a whole lot more about that since we 
support it.
    Let me now turn to S. 1574, the bill that would modify the 
477 program. You just had Margaret Zientek before you and 
Natasha Singh. They have both exercised great leadership on 
these issues. Margaret has been working tirelessly on our 
Administrative Flexibility Workgroup to help move these issues 
forward. We are grateful for her support and her testimony here 
today.
    We have a lot of interest in this bill and strongly support 
tribal self determination. And 477 is one of our important 
tribal self governance, self determination programs.
    Public Law 102-477 was enacted in 1992 as a demonstration 
project. It has clearly demonstrated that it is a good 
approach, so it no longer needs to be a demonstration project. 
It has established itself. It has granted tribal governments 
much more flexibility to apply government programs through a 
lot of important tribal Federal programs such as temporary aid 
to needy families, TANF, child care and various other programs 
that address education and joblessness.
    So 477 has definitely demonstrated its value. More than 265 
tribes and Native villages are participating in 477. That 
doesn't sound like a demonstration project anymore; it is 
something that is firmly established. We give out more than $80 
million a year in grants to tribes through the 477 programs.
    Let me explain a bit about the programs. Through 477, 
tribes offer roughly ten different Federal programs they can 
bring under one umbrella. That means that a tribal citizen that 
needs these programs doesn't have to go to ten different tribal 
offices to apply for each of these programs.
    Someone who needs TANF, job training and maybe need to get 
their GED can go to one office, fill out one application and 
those services can come to them through that one office. Rather 
than having these siloed in multiple different offices within 
the tribe, they can bring all these together. That is the value 
of 477. It is a beautiful thing and really does support tribal 
self governance and tribal flexibility in addressing serious 
problems.
    I believe it strongly improves service to Indian Country to 
Indian citizens.
    A frequent challenge in all these programs, especially when 
you grant flexibility to tribes, is getting the data to show 
the work is doing good, that you can show each of these 
programs is effective and when you blend them together, it 
makes a lot harder to collect that data.
    You all ask for that data, Congress asks for that data and 
OMB asks for that data, so it is an important subject to 
collect that data so we can prove these programs work so we can 
justify greater appropriations to the appropriations 
committees. That is a challenge that has always been there.
    You heard Senator Dorgan a bit ago talk about how he found 
there were two Federal programs on one reservation that weren't 
even talking to each other. This is the kind of program that 
solves that problem. It puts most social programs under one 
roof, so it is a very good thing. We have some issues with the 
bill but are delighted to work with you to solve some of those 
problems.
    Let me turn to S. 1622, the Alyce Spotted Bear and Walter 
Soboleff Commission on Native Children Act. Senator Heitkamp, 
we are proud to say that we strongly support your bill. There 
is no area that needs greater attention than this.
    There has been recent evidence. The Indian Law Commission 
provided some good attention on important issues and has helped 
provide some potential solutions to those problems. This kind 
of commission we think can do exactly the same thing and 
provide further suggestions.
    We are working very hard to update our Indian child welfare 
guidelines at the BIA and also our child protection handbook. 
Those are two ideas that are sort of complementary to what you 
are doing, along with some of the stuff Senator Dorgan talked 
about.
    We thank you for your bipartisan leadership with Senator 
Murkowski to try to move this forward and get some bright minds 
looking at this to find solutions. We strongly support your 
bill.
    I did hear you say in your opening statement that you now 
have to point your finger at yourself to get things done. You 
have never been shy about pointing the finger at us either but 
we welcome that. We are grateful for your leadership on these 
issues, especially the ones related to children.
    I have gone way over my time, Mr. Chairman. Let me say one 
final thing. S. 2160, Senator Hoeven's Native American 
Children's Safety Act, we are going to withhold judgment on the 
exact details of this bill but we certainly support Senator 
Hoeven's intentions in introducing this bill. We need a bit 
more time to look at it.
    Senator Hoeven has worked really hard on the Spirit Lake 
issue, as has Senator Heitkamp, so he has a sense of the 
problems out there. We would like to work with him on this bill 
as we move forward.
    Why don't I stop there and await your questions.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary--Indian 
                Affairs, U.S. Department of the Interior
    Chairman Tester, Vice-Chairman Barrasso, and Members of the 
Committee, my name is Kevin K. Washburn and I am Assistant Secretary-
Indian Affairs at the Department of the Interior (Department). Thank 
you for the opportunity to present the Department's views, on S. 1474, 
S. 1574, S. 1622, and S. 2160.
S. 1474, the ``Alaska Safe Families and Villages Act of 2013''
    The Department supports S. 1474, a bill to encourages the State of 
Alaska to enter into intergovernmental agreements with Indian tribes in 
the State relating to the enforcement of certain State laws by Indian 
tribes, to improve the quality of life in rural Alaska, and to reduce 
alcohol and drug abuse. This bill involves matters that are under the 
jurisdiction of the Department of Justice and we defer to the 
Department of Justice's testimony on this bill.
S. 1574, the ``Indian Employment, Training and Related Services 
        Consolidation Act of 2013''
    S. 1574 is a bill to ``amend the Indian Employment, Training and 
Related Services Demonstration Act of 1992 to facilitate the ability of 
Indian tribes to integrate the employment, training, and related 
services from diverse Federal sources.'' As discussed below, the 
Department supports the goals of Indian self-determination. We would 
like to work with the Committee to address certain provisions of the 
bill, as described more fully below.
    Public Law 102-477 is a self-determination statute that allows 
tribes greater control over delivery of social-welfare and workforce-
development services. It permits eligible tribes and Alaska Native 
organizations to consolidate into a single plan employment-and-
training-related, formula-funded federal grant monies from ten 
different programs within our Department's Bureau of Indian Affairs and 
Bureau of Indian Education, and the Departments of Labor (DOL) and 
Health and Human Services (DHHS). The ``477'' program allows 
participating tribes to save administrative time and expense because 
they are no longer required to submit individual program plans and 
reports-affording more support for job placements and case management.
    Public Law 102-477 designated our Department to be the lead agency 
to administer this program. We are proud, too, that in FY 2013, we 
disbursed approximately $87 million in grants for this program to 265 
participating tribes, most of which are tribes in Alaska.
    The Public Law 102-477 program has operated for over two decades as 
a demonstration project and has demonstrated that it should be 
permanent. When agencies collaborate to surmount bureaucratic 
obstacles, consolidate programs, and deliver desperately-needed 
services on a one-stop basis, we can more promptly and efficiently 
address joblessness and social distress in Native communities.
    To provide additional flexibility to tribes under P.L. 102-477, the 
P.L. 102-477 federal partners have worked in cooperation with tribal 
representatives since November 2011 as a ``Public Law 102-477 
Administrative Flexibility Work Group'' (AFWG). Between November 2011 
and January 2014, the AFWG met by teleconference or in person 
approximately 30 times and we are happy to report on the group's 
accomplishments: (1) a streamlined plan-approval process that uses an 
agreed upon checklist for tribes and the federal agencies; (2) 
simplified financial reporting based on agreed-upon cost categories 
instead of dollar for dollar reporting; (3) an agreed upon narrative 
report allowing tribes to highlight their program activities; (4) 
agreement that a Tribe with a 477 plan may use funds made available 
under the law for economic development, including providing private 
sector training placement.
    During the last face-to-face meeting on January 24, 2014, the AFWG 
agreed to move forward to consultation on the reporting forms. DOI held 
consultation on Thursday, March 13, 2014, at the National Congress of 
American Indians Executive Council Winter Session. AFWG federal and 
tribal members attended the consultation and tribal workgroup members 
commented on the forms and listed the many accomplishments of the 
workgroup. The 60-day period to comment on the proposed reporting forms 
closes on April 15, 2014.
    We are pleased to support the goals of Indian self-determination, 
and we would like to work with the Committee to address concerns in S. 
1574 to this end.
    S. 1574 provides a 90-day time limit for an affected federal agency 
to decide on a tribal request for a waiver of statutory, regulatory, or 
administrative requirements that prevent the tribe or tribal 
organization from efficiently implementing its plan. We understand why 
tribal governments would want to have a fixed time limit for such 
decisions. However, this provision gives us pause. In light of our need 
to interact not just with tribal governments, but also other federal 
partners, we believe that 90 days may not be a sufficient amount of 
time for proper deliberation and collaboration among the federal 
partners. We would like to discuss this with our federal partners.
    We look forward to working with Senator Murkowski and the Committee 
to modify S. 1574 to achieve its goal of further streamlining federal 
delivery of employment, training and related services to tribes that 
urgently need them.
    One of the reasons that the 477 program is so successful is that it 
requires federal agencies to cooperate to better deliver services to 
tribes. The Department would like to work with the Committee to modify 
certain provisions of S. 1574 that seem to subvert that spirit of 
cooperation by giving the Secretary of the Interior the exclusive 
authority to approve or disapprove a proposed plan without the input of 
other affected federal partners. This also pertains to the provisions 
that would approve a plan if the Secretary took no action on it within 
90 days of receiving it.
    The plan-approval process has been an issue in the past. However, 
this issue recently has been addressed through a cooperative process 
between federal partners and tribal representatives. The AFWG met 
extensively on the plan-approval process and streamlined the P.L. 102-
477 plan-review process by creating a checklist for tribes and federal 
agencies to use when developing, renewing, and approving plans. The 
checklist is already in use. Under this new process, our agency has 
twenty days to review a plan for completeness, after which we submit it 
to the other affected federal agencies for their review. Each of them 
has 30 days to submit its comments and recommendations to us. After we 
receive those comments, we organize a teleconference that includes all 
of the relevant tribal and federal stakeholders. The point of that 
discussion is to ensure that the plan is approvable. We then have 30 
days to render a partial or full approval of the plan.
    We also look forward to discussing further to provisions in the 
bill that would prohibit a tribe or tribal organization from being 
required to submit any additional budget, report, audit, supplemental 
audit, or other documentation after its plan is approved. There are a 
number of reports that are not contemplated in an approved plan that 
must later be submitted. One example is the year-end Financial 
Assistance and Social Services Report, which is critical for 
determining welfare assistance payments. This provision could be 
clarified to specify the kinds of documentation that could not be 
solicited from a tribe once a plan is approved to ensure that they are 
not otherwise required by law. We note that the AFWG has worked on this 
issue as well, and has adopted measures to ensure that plans are 
complete.
    We look forward to working with the Committee to modify the 
provision of S. 1574 that eliminates certain conditions on tribes or 
tribal organizations using funds under this Act for job-creation and 
economic-development activities and would require instead, that those 
expenditures be consistent with their plans. This provision is 
unnecessary if the bill also contains the provision limiting waiver 
decisions to 90 days.
    We are fully supportive of the objective that employers who provide 
work-based training should be incentivized to provide permanent 
employment to people who successfully complete a training program. 
However, we are concerned that compelling employers to hire a ``work 
experience'' or ``on-the-job'' trainee could be a disincentive for them 
to take part in these programs. Thus, we would like to work with the 
Committee on provisions needed to strike the proper balance here.
    We also look forward to working with the Committee on the provision 
limiting the timeframe for the Bureau of Indian Affairs (BIA) to 
transfer funds to participating tribes after receiving the funds from 
the originating federal agency. Once these funds are electronically 
transferred to our agency, we are diligent in disbursing them as 
quickly as possible. We note that we cannot disburse these grant funds 
until we obtain a signed grant amendment from the grantee's tribal 
chairman. This exchange can take time depending on a number of factors, 
including tribal leadership's availability.
    We would also like to note that roughly half of 477 grantees 
receive funding that is disbursed, not through Public Law 93-638 
contracts but through Annual Funding Agreements administered by our 
Department's Office of Self-Governance. Because the Office of Self-
Governance disburses money through Annual Funding Agreements, not grant 
amendments, allowances would have to be made for that office's 
particular funding regime and disbursement timeline.
S. 1622, the ``Alyce Spotted Bear and Walter Soboleff Commission on 
        Native Children Act''
    The Department supports S. 1622 which would establish the Alyce 
Spotted Bear and Walter Soboleff Commission on Native Children. 
Children are a most sacred and valuable resource for Tribes and Indian 
families. Tribal preservation depends on protection and support of 
Indian families and children.
    Native American children are the most at-risk population in the 
United States and are in that vulnerable position because of 
unaddressed poverty; insufficient access to services in health, 
education, social services, mental health, legal and other needs. The 
rates of suicide, foster care, and exposure to violence for Native 
American children are unacceptable.
    We are currently working on initiatives that are complementary to 
the goals of S. 1622. The Department is presently working with DHHS, 
the Department of Justice, and the Substance Abuse and Mental Health 
Services Administration on updates to the BIA Child Protection Handbook 
which is used by social workers, health care providers, law 
enforcement, courts, and educators in Indian Country. The Handbook 
provides guidance on indicators of child abuse, reporting requirements, 
and the assembly and function of child protection teams in Indian 
Country.
    The Department is also re-examining the Bureau of Indian Affairs 
Guidelines for State Courts, providing guidance to state courts in 
interpreting the 1978 Indian Child Welfare Act (ICWA). The guidelines, 
now more than 30 years old, have not been updated since there were 
originally enacted, shortly after passage of ICWA. We hosted a 
listening session with tribal leaders on March 11, 2014 and have 
another listening session scheduled at the National Indian Child 
Welfare Association's National Conference on April 15, 2014. Our 
comment deadline is April 30.
    These two updates are important pieces of the overall effort to 
address Indian child welfare issues, but S. 1622 goes beyond these 
efforts. This bill recognizes the need for a more collaborative and 
holistic approach across the federal government and the private sector 
to better define the issues and make recommendations for meaningful and 
lasting solutions. The bill includes a plan for measurable outcomes, 
stronger data, and implementation of best practices. It also includes 
Tribal youth voices that need to be heard.
    We are happy to work with Senator Heitkamp and the Committee on 
this bill as it moves forward.
S. 2160, the ``Native American Children's Safety Act''
    The Department supports the principles S. 2160, which amends the 
Indian Child Protection and Family Violence Prevention Act to require 
background checks before foster care placements are ordered in tribal 
court proceedings.
    The safety of Native children is a Department priority. The Native 
American Children's Safety Act recognizes the importance of the safety 
of Native children through establishing standards in background checks. 
We note that all placements made with Bureau of Indian Affairs funds 
require a background check. This bill would expand the requirement to 
all placements made through the tribal courts. We look forward to 
working with the committee to create consistency in the requirements of 
background checks. The IV-E background-check requirements are slightly 
inconsistent with those in this bill. The Department of Health and 
Human Services also notes the difference. We are happy to work with the 
Committee to align the requirements to avoid creating two different 
standards.
    This concludes my prepared statement. I will be happy to answer any 
questions the Committee may have.

    The Chairman. Lillian, you are up.

          STATEMENT OF HON. LILLIAN SPARKS ROBINSON, 
            COMMISSIONER, ADMINISTRATION FOR NATIVE 
        AMERICANS, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Robinson. Thank you. Good afternoon, Chairman Tester 
and Senator Heitkamp.
    It is my honor to appear before the Committee on behalf of 
the Department of Health and Human Services to provide 
testimony on bills that affect American Indian and Alaska 
Native children and families.
    I serve as the Commissioner for the Administration for 
Native Americans which is part of the Administration for 
Children and Families at HHS. I am also a member of the Rosebud 
Sioux Tribe.
    My testimony will focus on two of the bills before the 
Committee today, S. 1574, the Indian Employment Training and 
Related Services Consolidation Act of 2013 and S. 2160, the 
Native American Children's Safety Act.
    Since November 2011, tribal representatives of 477 
projects, along with our Federal partners, have been meeting to 
address issues concerning the law, reporting requirements and 
auditing requirements related to 477 projects. We have always 
said we must find a way to balance the need for flexibility and 
accountability to accomplish the goals of 477 projects.
    I am pleased to report that in January, the 477 Workgroup 
agreed to submit new reporting forms and instructions to the 
Paperwork Reduction Act review process as well as to convene a 
concurrent tribal consultation.
    Our joint collaborative effort has resulted in developing a 
checklist to help facilitate the process of reviewing proposed 
477 plans making it possible for tribes to submit a single 
plan, identifying flexibilities within the law to allow tribes 
to consolidate a significant amount of their 477 funds for the 
purpose of supporting economic development, developing a 
financial reporting form that moves away from the dollar for 
dollar reporting and moves to reporting based on functional 
categories including child care, education, employment and 
training services and also fostering a much improved and 
strengthened trust based relationship between the tribes and 
the Federal partners.
    This represents a significant achievement for all parties 
and resolves many of the differences of opinion over operation 
of the 477 projects.
    S. 1674 would amend the 477 program in several ways we 
would like to flag for your attention for additional 
consideration.
    The Secretary of Interior will have exclusive authority to 
approve or disapprove a plan submitted by an Indian tribe or 
tribal organization versus collaboration that currently 
happens. Tribes will have the authority to incorporate any 
provision of the Indian Self Determination and Education 
Assistance Act into their 477 plans, although ISDEAA is not 
applicable to the types of HHS grant funds included in the 477 
demonstration projects.
    There is language in the bill that suggests that S. 1574 
would allow funds to be spent for purposes other than their 
statutory purposes of the underlying program. Once a plan has 
been approved, S. 1574 would allow tribes to operate approved 
consolidated programs without being required to submit any 
documentation.
    The limitation on reporting requirements could prevent 
agencies from understanding the types of services being offered 
with the funds, what service gaps remain and whether the 
programs have a positive impact in Indian Country.
    We have worked with our colleagues at Interior and other 
Federal agencies on a report which was submitted to Congress on 
April 1. This report outlines the main accomplishments we have 
made as well as a plan for regular 477 discussions with the 
tribes.
    HHS and our partners would welcome input from the Committee 
on ways in which we can continue to improve the 477 program.
    The Fostering Connections to Success and Increasing 
Adoptions Act of 2008 provides tribes the opportunity to apply 
to operate a Title IV-E program. Since passage of the law, we 
have approved the Port Gamble S'Klallam Tribe of Kingston, 
Washington, the Confederated Salish and Kootenai Tribes of 
Pablo, Montana and the South Puget Intertribal Planning Agency 
of Shelton, Washington to operate a Title IV-E program.
    The Fostering Connections Act also authorized one-time 
grants of up to $300,000 for tribes to assist in development of 
tribally operated Title IV-E planning. Twenty-two tribes or 
consortia of tribes have received those grants so far.
    Tribes that receive funds through Title IV-B and IV-E for 
child welfare programs are required to license foster family 
homes and child care institutions and conduct criminal and 
child abuse background checks.
    S. 2160 would require tribes to operate programs under both 
Title IV-E and the Department of Interior authorities to apply 
two separate sets of criteria for background checks for foster 
family homes. For example, Title IV-E does not exempt emergency 
placements from the requirement that prospective foster family 
providers complete a fingerprint-based check of the National 
Crime Information Database.
    We would be happy to work with the Committee to align these 
important requirements and to ensure the safety of children 
placed in out of home care.
    I very much appreciate the Committee's interest in the 
issues raised by both bills. I look forward to working together 
on both bills and to continue finding ways to improve services 
provided in our American Indian and Alaska Native communities 
and to ensure the safety of children.
    I would be happy to answer any questions.
    [The prepared statement of Ms. Robinson follows:]

   Prepared Statement of Hon. Lillian Sparks Robinson, Commissioner, 
  Administration For Native Americans, U.S. Department Of Health And 
                             Human Services
    Chairman Tester, Vice Chairman Barrasso, and members of the 
Committee, it is my honor to appear before this Committee on behalf of 
the Department of Health and Human Services (HHS) to provide testimony 
on bills that would affect American Indian and Alaska Native children 
and families. I am a member of the Rosebud Sioux Tribe which is located 
in South Dakota, and I serve as the Commissioner for the Administration 
for Native Americans (ANA), which is part of the Administration for 
Children and Families (ACF) at HHS.
    My testimony will focus on two of the bills before the Committee 
today: S. 1574, the ``Indian Employment, Training and Related Services 
Consolidation Act of 2013'', and S. 2160, the ``Native American 
Children's Safety Act.'' We continue to review S. 1570, ``to amend the 
Indian Health Care Improvement Act to authorize advance appropriations 
for the Indian Health Service (IHS) by providing 2-fiscal-year budget 
authority.''
Public Law 102-477
    HHS participates in the demonstration program established under 
Public Law (P.L.) 102-477, the Indian Employment, Training and Related 
Services Demonstration Act of 1992. This program allows tribes to 
establish demonstration projects to coordinate their Department of the 
Interior (DOI), HHS, Department of Labor (DOL), and Department of 
Education employment, training, and related services programs into a 
single, comprehensive program with consolidated administrative 
functions. The Department of Education does not currently participate. 
The law authorizes, but does not require, Federal agencies to allow 
grant-funded programs to be included in ``477'' projects.
    In 2014, there are 62 grantees, representing 265 tribes, operating 
demonstration projects that include DOI, HHS, and DOL programs. HHS has 
three participating programs: the Temporary Assistance for Needy 
Families (TANF) program, the Child Care and Development Fund (CCDF) 
program, and the Native Employment Works (NEW) program. The great 
majority of funding in 477 projects comes from TANF and CCDF grant 
funds. While the specific amounts vary across projects, total funding 
in FY 2013 was $60 million with approximately 55 percent of those funds 
coming from TANF ($33 million), 40 percent coming from CCDF ($24 
million), and five percent coming from NEW ($2.8 million).
    Since November 2011, tribal representatives of 477 projects, along 
with officials of the Office of Management and Budget, DOI, HHS, and 
DOL have been meeting to address issues concerning the law, reporting 
requirements, and auditing requirements related to 477 projects. I am 
pleased to report that, in January, the 477 work group agreed to submit 
new reporting forms and instructions to the review process governed by 
the Paperwork Reduction Act, as well as to convene a concurrent tribal 
consultation. This represents a significant achievement for all parties 
and resolves many of the differences of opinion over operation of the 
477 projects. As a result of this agreement, tribes will benefit from 
consistency in the way in which 477 projects are reviewed and will be 
subject to more flexible reporting requirements. The Federal agencies 
will benefit from strengthened relationships and greater assurance that 
public funds are being spent in the best interest of tribal members and 
the public.
    The workgroup's accomplishments include: (1) identifying 
flexibilities within the law that allow tribes to consolidate a 
significant amount of their 477 funds for the purpose of supporting 
economic development; (2) fostering a much-improved and a strengthened 
trust-based relationship between the tribes and participating Federal 
agencies; and (3) developing a financial reporting form with 
instructions that move away from dollar-for-dollar reporting and move 
to reporting based on functional categories, including child care, 
education, and employment and training services for example.
    For a number of years, there has been disagreement between the 
tribes and some Federal agencies about auditing and reporting 
requirements governing P.L. 477 projects. The disagreement stems from 
the fact that the Federal agencies, including HHS, have interpreted the 
program statute to mean that, when a program participates in a project, 
program funds must be used for the purposes for which they were 
authorized, and program statutory and regulatory requirements apply, 
unless waived.
    In contrast, a number of tribes interpret the statute to mean that, 
when a program participates in a 477 project, its funds can be used for 
any allowable activity under an approved 477 plan. A number of tribes 
also assert that 477 projects fall under at least some of the terms of 
P.L. 93-638, the Indian Self-Determination and Education Assistance Act 
(ISDEAA), which could allow for redesign and reallocation of funds and 
could make the projects qualify for contract support costs, among many 
other benefits of the ISDEAA; but the ISDEAA does not apply in this 
context for HHS funding. The ISDEAA allows tribes to take over 
Federally-run programs, not to contract for grant programs that were 
never carried out directly by the Federal Government. The HHS programs, 
functions, services, and activities that tribes can contract for under 
the ISDEAA are those that certain Federal agencies administer for the 
benefit of Indians because of their status as Indians. The application 
of the ISDEAA to the TANF program was litigated in Navajo Nation v. 
Department of Health and Human Services, in which the Ninth Circuit 
Court of Appeals found in favor of HHS and determined that the ISDEAA 
does not apply to TANF funds, primarily because tribes are not the 
exclusive beneficiaries of the funds and so TANF is not a program ``for 
the benefit of Indians because of their status as Indians''. The same 
would apply to CCDF funds. In fact, this applies to all ACF programs, 
including Head Start and foster care, with the possible exception of 
the ANA programs that I administer as Commissioner.
Tribal Early Learning Initiative (TELI)
    ACF is pursuing additional ways, beyond the 477 demonstration 
program, to coordinate and simplify programs. Since the fall of 2012, 
ACF has been implementing the Tribal Early Learning Initiative (TELI). 
The TELI is a partnership between ACF and four American Indian tribes 
that have Head Start/Early Head Start, Child Care, and tribal Home 
Visiting grants. The four participating tribes are the Choctaw Nation 
of Oklahoma, the Confederated Salish and Kootenai Tribes in Montana, 
the Pueblo of San Felipe in New Mexico, and the White Earth Nation in 
Minnesota. The purposes of the TELI are to support tribes that wish to 
coordinate tribal early learning and development programs; create and 
support seamless, high-quality early-childhood systems; and raise the 
quality of services to children and families across the prenatal-to-
age-five continuum.
    Over the past year and a half, TELI grantees have made major 
strides in improving their early-childhood systems and services. 
Grantee activities have included jointly creating a community-based 
resource directory, convening joint professional-development 
opportunities and trainings for staff, reviewing and agreeing on common 
assessment tools, creating a single tribal early-learning program-
enrollment form, conducting joint dental services across programs, and 
investing in a data system to allow for better coordination and sharing 
of relevant data across programs. TELI tribes' fruitful partnerships 
across Home Visiting, Head Start, and Child Care have made them models 
for other tribes and Federal programs.
The Indian Employment, Training and Related Services Consolidation Act 
        of 2013
    S. 1574 would amend the Indian Employment, Training and Related 
Services Demonstration Act of 1992 to give the Secretary of the 
Interior the exclusive authority to approve or disapprove a plan 
submitted by an Indian tribe or tribal organization to integrate 
Federal employment, training, and related services, including services 
under programs that Interior does not administer, into a consolidated 
and comprehensive program. The provisions in legislation expand the 477 
program well beyond the initial purpose of integrating employment and 
training programs. For example, it could permit the use of Head Start 
funding to support job training instead; and appears that it would 
allow for opting out of the important bipartisan reform of Head Start 
that requires low-performing programs to improve or face grants being 
put out for competition. We believe that this policy should be 
maintained as part of the Administration's effort to improve and expand 
early-learning programs for all children.
    The bill would give tribes the authority to incorporate any 
provision of the Indian Self-Determination and Education Assistance Act 
(ISDEAA) into their 477 plans and, at the request of tribes, to 
disburse the funds through ISDEAA contracts (bill,  5; proposed  5(b) 
of the 1992 Act). Since its inception, the ISDEAA has not been 
applicable to the types of HHS grant funds that are included in 477 
demonstration projects. The Ninth Circuit Court of Appeals has already 
ruled that that the ISDEAA does not apply to grants like TANF grants 
because tribes are not the exclusive beneficiaries and so it is not a 
program ``for the benefit of Indians because of their status as 
Indians'', as the ISDEAA requires. The ISDEAA allows tribes to take 
over Federally-run programs (for example, when a tribe contracts to run 
a hospital that IHS had been operating), not to contract for grant 
programs never carried out directly by the Federal government. Under 
the ISDEAA, tribes receive Contract Support Cost funding because the 
Congress sought to avoid reductions in program resources when Federal 
programs are transferred to tribal operation. For HHS grant programs, 
the Federal government has never carried out the programs, and the 
grants are not designed to be all-inclusive of costs. States and tribes 
already have broad flexibility to carry out the TANF and CCDF programs. 
Providing contract support costs, along with program redesign authority 
and other benefits, to a tribe administering block grant funds to 
provide cash assistance and other support services to its program 
recipients would not be consistent with how these grants have been used 
historically or the current statutory purpose of contract support 
costs.
    Third, S. 1574 would give agencies with programs involved in a 477 
demonstration project broad waiver authority. That authority currently 
exists under P.L. 102-477 but S. 1574 would take it a step further by 
requiring an agency dispute-resolution process as well as potentially 
creating a right to appeal a waiver denial to Federal district court. 
The language is unclear but there is some suggestion that the same 
appeal right applies to the denial of a 477 plan itself. We would like 
to work with the Committee to better define how waiver disputes would 
be resolved and the flexibility necessary to create economic 
development projects under the 477 program.
    Fourth, S. 1574 would allow tribes to operate approved consolidated 
programs without being required to submit any additional budget, 
report, audit, supplemental audit, or other documentation ( 4 of bill; 
proposed  4(b) of the 1992 Act). We note that there is language in the 
bill that refers to the Department of the Interior creating a single 
report but it is difficult to reconcile that concept with the broad 
language providing that no report or audit is required. Prohibiting 
agencies from obtaining supplemental reports or audits could 
significantly limit our ability to be responsible stewards of public 
funds for important programs such as TANF, CCDF and NEW. The limitation 
on reporting requirements could prevent agencies from understanding the 
types of services being offered with the funds, what service gaps 
remain, and whether the programs have a positive impact in Indian 
country. Fundamentally, taxpayers deserve to know how their funds are 
being used and what outcomes they are getting for these investments.
    As instructed by the Congress in the explanatory statement 
accompanying the Consolidated Appropriations Act, 2014, we have worked 
with our colleagues at DOI and other Federal agencies on a report, 
submitted to Congress on April 1, that outlines the many 
accomplishments we have made, an explanation for why we could not come 
to full agreement on several issues, and laying out a plan for regular 
discussions on 477 issues with tribes. HHS and our partner agencies 
would welcome input from the Committee on ways in which we can continue 
to improve the 477 program.
Children's Bureau Grants to Tribes
    Today, many tribes operate some form of child-protection service 
programs and many have tribal codes, court systems, and child-welfare 
programs. Historically, tribes have obtained much of their child-
welfare funding through the states, or through grants from the 
Department of the Interior's Bureau of Indian Affairs. However, the 
Children's Bureau, within ACF, now offers more direct funding 
opportunities for tribes than ever before through several grant 
programs.
    The Fostering Connections to Success and Increasing Adoptions Act 
of 2008 provided Federally- recognized Indian tribes, tribal 
organizations, and consortia of Indian tribes with the option to apply 
to operate a title IV-E program. Since passage of the law, we have 
approved the Port Gamble S'Klallam Tribe of Kingston, Washington; the 
Confederated Salish and Kootenai Tribes of Pablo, Montana; and the 
South Puget Intertribal Planning Agency of Shelton, Washington to 
operate a title IV-E program.
    The Fostering Connections Act also authorized one-time grants of up 
to $300,000 to tribes to assist in the development of a tribally 
operated title IV-E plan. Twenty-two tribes or consortia of tribes have 
received those grants, totaling approximately $6.4 million, since 2009.
    The Fostering Connections Act also provided both tribes that 
operate a title IV-E program and tribes that have a title IV-E 
cooperative agreement or contract with the state title IV-E agency, the 
option to apply to receive funds directly from HHS to operate a John H. 
Chafee Foster Care Independence (CFCIP) and/or Educational Training 
Voucher Program (ETV). The CFCIP and ETV programs provide funds to help 
older youth in foster care and youth who were formerly in foster care 
acquire training and independent living skills so they can become self-
sufficient. In fiscal year (FY) 2014, four tribes will receive a total 
of $111,500 in funds through the CFCIP and ETV programs.
    Additional funds, under the Stephanie Tubbs Jones Child Welfare 
Services Program, are available to tribes to improve their child-
welfare services with the goal of keeping families together. In FY 
2014, 189 tribes will receive a total of $6.3 million in funds through 
the program.
    Funds are also available for eligible tribes under the Promoting 
Safe and Stable Families (PSSF) Program to assist with family support, 
family preservation and support, time-limited family reunification 
services, and services to support adoptions. In FY 2014, 135 tribes 
will receive $10.3 million in funding through the program.
S. 2160, the ``Native American Children's Safety Act''
    Tribes that receive funds through title IV-E and IV-B for child-
welfare programs are required to license foster family homes and child-
care institutions and conduct criminal and child-abuse background 
checks. The ``Native American Children's Safety Act'' would require 
tribes that operate programs under both title IV-E and Department of 
the Interior authorities to apply two separate sets of criteria for 
background checks for foster family homes. Having to implement two 
different laws and regulations for licensing and background checks for 
foster-care placements is likely to cause confusion for tribes that 
operate a title IV-E or IV-B program or have a IV-E agreement with the 
state. For example, title IV-E does not exempt emergency placements 
from the requirement that prospective foster family providers complete 
a fingerprint-based check of the National Crime Information Database. 
We would be happy to work with the Committee to align these important 
requirements and to ensure the safety of children placed in out-of-home 
care.
    I very much appreciate the Committee's interest in the issues 
raised by both bills. I look forward to working together on both bills 
and to continuing to find ways to improve services provided in our 
American Indian and Alaskan Native communities and to ensure the safety 
of their children. I would be happy to answer any questions.

    The Chairman. Thank you both very much for your testimony.
    Correct me if I am wrong. S. 1474, you support?
    Mr. Washburn. We support the principles behind 1474. Yes, 
we support that.
    The Chairman. The IHS Advanced Appropriations Act, S. 1570, 
you support that?
    Ms. Robinson. Sir, we are currently reviewing that and 
would be happy to take back any questions and get back to you 
with regards to our position.
    The Chairman. I will get back to that in a second.
    S. 1574, you like the ideas but you want to flush them out 
some more, is that pretty much what I gather?
    Mr. Washburn. Yes, sir.
    The Chairman. S. 1622, you support?
    Mr. Washburn. Yes, absolutely.
    The Chairman. S. 2160, you want more time to review, is 
that correct for both of you? I don't want to put words in your 
mouth.
    Ms. Robinson. Right. We agree with the priority review, we 
agree with the goals. We just want to make sure that it is in 
line with the IV-E and IV-B programs.
    The Chairman. Thank you very much.
    I will touch very briefly on advanced appropriations 
because it is the simplest of all the bills. It is advanced 
appropriations. In my opinion, it makes perfect sense. As I 
said before, I serve on the VA Committee and they have advanced 
appropriations. Quite frankly, it works pretty darned well. The 
only way that bill got through the process was with support not 
only from the veterans' service organizations but from the 
department.
    This has been out there for a while. It is not so 
complicated. I would really like to get your opinion on whether 
it is a yea or a nay as we move forward. It will help with 
issues like sequestration and government shutdowns and give 
some certainty to a budget that needs certainty.
    I could put a time frame on it if you want but as soon as 
possible, okay.
    Lillian, is the Administration afraid that tribes will 
divert program funds to other tribal 477 programs for other 
purposes? Why would the Administration approve the plan in the 
first place?
    Ms. Robinson. I think that is a great question. I think it 
is not so much a fear that we are afraid program dollars will 
be used for purposes outside the program, but we want to make 
sure we are accountable with regards to the types of services 
we provide, not just in the plan but we are also accountable to 
the community we are serving as well.
    We would be able to reject the plan but at the same time, 
we feel there is additional pressure within S. 1574 to approve 
plans that would include programs outside 477. In particular, I 
would be happy to give examples and follow up with you.
    The Chairman. You have a responsibility for oversight but 
the bottom line is that if that is a concern, we ought to be 
able to figure it out before going in.
    Ms. Robinson. I agree. I think that is something we would 
be willing to work with the workgroup to figure out how we 
would be able to incorporate those types of plans.
    The Chairman. On the 477 issue, if filing one application 
for client services is a good idea, why doesn't wanting tribes 
to report financial data all together, why isn't that a good 
idea, either one of you?
    Ms. Robinson. I believe that through the workgroup we have 
begun looking at how we might be able to have not just one plan 
but also one report. We do think that is a good idea. We think 
477 is a success and want to be able to have one report that 
has the data as well as one plan.
    The Chairman. Senator Murkowski?
    Senator Murkowski. Following up on the 477 conversation, as 
far as the independent audits go, do you agree that the 
independent audits required by the single agency audit and that 
apply to all these funds, including 477, is the right 
accounting method for these funds?
    Mr. Washburn. Senator Murkowski, I believe I would say yes. 
I think we do feel we do a good job auditing these programs.
    Senator Murkowski. If they do a good job auditing, then why 
do these funds need to be audited more rigorously than funds 
that go into patient health care or trust resources? What is 
the difference there in terms of how they are treated?
    Mr. Washburn. There are a lot of regulatory aspects of this 
whole 477 program. We have to have plan approval in the first 
place. We have an annual report from each tribe describing what 
they did during the year. We have a single audit which is 
really careful to look at all the financial aspects and we 
occasionally do program reviews and site visits also.
    We feel like there is a pretty strong approach to how we 
regulate these programs. We believe they are well regulated.
    Senator Murkowski. Doesn't it appear there is a level of 
inconsistency if you are auditing some more rigorously than 
other accounts? We want to have a level of accountability, most 
certainly, but I think we also want to make sure it is not 
unduly burdensome at the same time I think is where I am going 
with this point.
    Let me ask you would you agree that self governance and 
self determination tribes have achieved sufficient 
accountability to be responsible for the redesign and the re-
budget of their programs and funds within a Title IV compact or 
Title I contract, either of you?
    Mr. Washburn. They absolutely have demonstrated these 
programs work and they do a very good job with these programs. 
Each of the programs has to give up something. When these 
programs go under a 477 plan, the agency that owns that program 
has to give up some control. That is a hard thing because they 
feel a lot of ownership for those programs. It is hard to give 
up that ownership and that control. We are at various stages in 
sort of being able to do that.
    Senator Murkowski. I think you can see where I am going 
with it. If we are saying that we are agreeing with our self 
governance and self determination tribes we have this level of 
accountability, it is tough to discern whether there is any 
real policy reason why tribes shouldn't have the exact same 
authority for 477 funds within a 477 plan.
    We appreciate the good work that the task force and the 
working group have put together but this is something I would 
sure like to find some result for. I would certainly agree with 
the Chairman with regard to his comments about the advance 
appropriations within IHS.
    As you point out, Mr. Chairman, it is working on the 
veterans' side, we see that benefit. The trust responsibility, 
the obligation that we have to our first peoples, and seems to 
me that we ought to be able to advance this.
    Secretary Washburn, I mentioned in my questions to Natasha 
that I was going to pose somewhat the same question about 
funding for our tribal courts. I have asked you before about 
BIA's policy about not funding tribes in Public Law 280 States.
    We have tribal courts in Alaska and they are making 
tremendous advances and advantages but with very little 
funding. Again, our tribal court judges train alongside our 
State court judges. Our tribes really need to have annual 
funding for operation of their courts.
    As I mentioned, I am going to be looking within the 
Interior Appropriations Subcommittee as to how we might be able 
to facilitate this and I would urge you to put together some 
kind of action plan regarding funding for our tribal courts in 
Alaska on an annual basis.
    If you and I want to sit down and have a bit more 
conversation about this, it is something we have to address. 
The issues of jurisdiction are very difficult and complicated 
but I worry a great deal that we might be able to resolve that 
and yet if we haven't done anything to help facilitate the 
operations and administration of these tribal courts, we are 
not going to be nearly as far along as we should.
    If you don't have an action plan in our back pocket you 
want to present right now, I am happy to work with you and your 
folks more on this but it is something I really think we need 
to get to work on.
    Mr. Washburn. Senator Murkowski, thank you for your 
leadership on this. Justice needs to come to Alaska too for 
sure. Again, I think the Indian Law and Order Commission report 
demonstrated that we have some issues there.
    You did mention you are the Ranking Member on Interior 
Appropriations. If I were to go back to the office and say, 
let's fund tribal courts, my people and OMB would say, give me 
some data, explain the problem to me. Frankly, it is a little 
bit influx right now. We do have some tribal courts but we have 
this fledging sort of idea about criminal jurisdiction in those 
tribal courts that Natasha talked about and your bill may help, 
so things are a bit in flux.
    What would help me, I think, and I am not really authorized 
to ask for this so I am not asking for it, I am giving you 
drafting service, I guess.
    Senator Murkowski. Understood.
    Mr. Washburn. You are the Ranking Member on Interior 
Appropriations, one thing you could do is ask us for a study 
and provide a little bit of money to fund that study because it 
is quite complicated. There are 229 Alaska Native villages. How 
many courts do we need?
    One thing the tribes in Alaska do really well is work well 
together, they cooperate on some many things and would that be 
a model we could use? We don't know unless we talk to them. It 
is a huge new initiative. One step to addressing it would be to 
fund a study for this coming fiscal year and go from there and 
the following year see what does this look like.
    If I walked back and said I need $15 million to start 
funding tribal courts in Alaska, they would say, where is your 
data. I am sort of recommending baby steps. I think that might 
be a path.
    Senator Murkowski. I appreciate that. I think it is 
something we need to continue to visit. I kind of asked Natasha 
for a little homework on her end too, so I think we have some 
work but I would like to continue to pursue this with you in 
greater detail.
    Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp?
    Senator Heitkamp. Thank you.
    I have just a couple comments and a couple of points.
    I obviously really appreciate your support of our 
commission bill. Lillian, you were a great help when we were 
drafting and obviously we are very grateful for all of the 
support and all the input that went into it.
    I want to talk a bit about the 477 program. It is not 
something I am all that familiar with but when I hear people 
say, well, they liked their programs and they feel proprietary 
towards their programs, that raises our awareness and we say, 
you know what, we all have enough problems, we don't need to 
hog them.
    If the Native American Commission bill is going to work, we 
know we are going to have to be much more collaborative to hear 
37 agencies. When you spread the responsibility, there is no 
accountability. We are trying to get an arm around how do we 
hold agencies accountable when we hear things like we like our 
programs, we don't and they don't want to collaborate.
    I think we are only here because internal discussions 
haven't worked. If there is one thing that we can take out of 
this on the 477 program is if you don't feel under fire when 
you get here because there were lots of opportunities to 
collaborate before you got here to present a plan. As a result 
of this hearing, I hope what will happen is exactly that.
    I want to talk a little bit about forward funding because I 
didn't worry during the shutdown one bit about what was going 
to happen at the VA or with our Medicare and Medicaid 
recipients because they are forward funded.
    Why is it that every program we look at, when the short end 
of the lollipop comes, it is always in the Native American 
programs? What we are saying is, health care is too critically 
important to not forward fund it. Once again, you get the sense 
that is a second class citizen because we are not going to fund 
you the way we would veterans, the way we would seniors or 
people under the Medicaid programs. We are quite serious about 
a forward funding for Indian health and for health care.
    With that said, I think once again the need to look not 
only at forward funding but parity and I know, Lillian you 
probably looked at number after number about parity per Native 
American who is served in the Indian Health Service compared to 
someone who is at Medicare levels, at Medicaid levels, at 
veteran service levels.
    We know that Native American health care programs are 
grossly under funded and the population is unserved leading to 
tons of other problems. When we look at catching up, whether it 
is background checks for foster care or forward funding, we 
have to step back and say, how can we do this better. I would 
suggest that having 30 agencies looking at Native American 
children programming is not doing it better.
    My final comment is, I hear over and over again this is 
broader to the Administration and maybe to us a little bit. 
There are nonprofits in my State who are deathly afraid of 
applying for a four, five or fifty thousand dollar grant 
because they tell me the cost of compliance will be half of 
that.
    We have not come to grips with how we balance the cost of 
compliance against the risk of fraud. I think in some ways we 
have maybe overreached on the fraud side and as a result, we 
have people going unserved. Yes, it is important that we have 
accountability but it also is important that this money gets 
spent where the Congress intended and where the American people 
intended it to be spent and not on compliance burdens and 
unnecessary overhead.
    I think you see that discussion all the way through what we 
have talked about today. I look forward to hearing more 
collaboration on the 477 program. I even look forward to 
getting a final commitment on forward funding. I appreciate 
your support and your passion for Native American children.
    The Chairman. Thank you, Senator Heitkamp. I very much 
appreciate those comments.
    We have two votes starting right now so we will wrap this 
up.
    There are five bills on today's docket we dealt with in 
this hearing: 1474, support; 1622, support. It is April 2. I 
would like to get the applicable departmental response back on 
1570, 1574 and 2160 by the end of the month as to what needs to 
be done with those bills to get the departmental support if 
anything.
    With that, I want to thank Senator Begich for taking over 
the chairmanship while I was gone. I want to thank all the 
witnesses today. I appreciate all of your commitment to the 
issue. I want to thank Kevin Washburn and Lillian Robinson for 
their service and what you do every day. We very much 
appreciate it.
    I would note the hearing record will remain open for two 
weeks from today.
    With that, the hearing is adjourned.
    [Whereupon, at 4:34 p.m., the Committee was adjourned.



                            A P P E N D I X

   Prepared Statement of Dimitri Philemonof, President/CEO, Aleutian 
                      Pribilof Islands Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Ralph Andersen, President/CEO, Bristol Bay Native 
                              Association
S. 1474, the Alaska Safe Families and Villages Act
    Chairman Tester and Committee Members: my name is Ralph Andersen, 
and I am President and Chief Executive Officer of the Bristol Bay 
Native Association (BBNA), which is a consortium of 31 tribes in the 
Bristol Bay region of Southwest Alaska. On behalf of BBNA and its 
member tribes, I submit this written testimony in support of S. 1474, 
the Alaska Safe Families and Villages Act, and more specifically to 
support a set of amendments to that bill proposed by the Alaska 
Federation of Natives, BBNA, and other tribal entities in Alaska. Our 
understanding is that Senator Begich is prepared to introduce such 
amendments.
    BBNA, the Alaska Federation of Natives, our sister regional non-
profits, and Alaska tribes have been requesting federal legislation to 
affirm and clarify tribal civil jurisdiction in Alaska since at least 
the mid-1990s. In successive Congresses there have been different 
versions of proposed bills and different approaches to the scope of 
tribal jurisdiction, but we have been very consistent for the last 20 
years in urging that the single best and most effective thing Congress 
could do to address the serious social ills in rural Alaska is to 
simply confirm that our tribal governments and tribal courts have the 
authority to regulate and address social problems at home. That 
necessarily means confirming tribal judicial power--the authority to 
adjudicate domestic relations, juvenile matters, and lower-grade 
offenses that might be considered ``criminal'' in the state system but 
which can also be handled as civil violations subject to restorative 
justice style remedies.
    We have consistently and repeatedly asked for jurisdictional 
legislation not because we seek to undo the ANCSA settlement or to 
create ``Indian Country'' in Alaska or as some kind of power grab. We 
seek jurisdictional legislation because our real-life experience in 
rural villages over the last 30 years tells us that the State of 
Alaska's unified, top-down system for providing law enforcement and 
judicial services doesn't extend very far or work very well in rural 
Alaska. It is often culturally inappropriate. It is unlikely to ever 
work well because of funding limitations and the sheer geographic 
challenges to service delivery in rural Alaska. Social problems ranging 
from underage drinking and substance abuse to domestic violence to 
sexual assaults continue to occur in our villages at unacceptably high 
rates.
    In the meantime, the tribes are where they always have been, with 
human resources on the ground and with tribal governments already 
providing a wide range of services either directly or via regional 
tribal organizations. Although Alaska Native tribes have been excluded 
from Bureau of Indian Affairs funding for courts and law enforcement, 
some Department of Justice funding has been available for these 
functions. For other categories of service delivery--such as social 
workers and case managers--tribes and tribal organizations have more 
resources to bear in rural Alaska than the state agencies do.
Why is Legislation Needed?
    In short, because there is a huge gap in judicial and quasi-
judicial services and law enforcement in remote rural villages. In most 
areas, tribes aren't filling that gap in large part because of 
perceived lack of authority and the lack of clarity about tribal 
jurisdiction. There are also funding constraints, with relatively few 
grants specifically for tribal courts. Yet the state courts only exist 
in hub communities. The Alaska State Troopers are based in the hubs. 
Given the expense of investigating cases and of transporting people for 
trials in hub communities, and the expense of incarcerating offenders, 
it seems to be a pattern in the state system that only the most serious 
crimes are prosecuted, that even serious crimes sometimes fall through 
the cracks, and that nothing much happens at all in regard to what 
might be called entry level offenses such as minors consuming alcohol, 
other drug offenses, vandalism and similar problems. This gap in 
services could be filled, in part, and we believe should be filled by 
tribal courts, using culturally appropriate and relevant models of 
justice delivery which may not look much like western-style courts at 
all.
    We sometimes hear from different points of the political spectrum 
that ``tribes can already do that''--i.e., that they already have 
jurisdiction to handle minor civil-type cases, so federal legislation 
shouldn't be necessary. In reality, the extent of tribal jurisdiction 
in Alaska is very grey at best, and the State of Alaska relentlessly 
litigates against tribal authority at almost every opportunity. The 
likely limit of tribal jurisdiction to ``tribal members'' is very 
problematic in the context of our villages for a variety of reasons. 
Alaska attracts ``end of the roaders''--people who are escaping bad 
situations in the Lower 48 and think they can remake themselves and/or 
do as they please in rural Alaska. Some have criminal records. It only 
takes one outsider with violent or anti-social tendencies to make life 
difficult in a small village.
    There are also a lot of mixed marriages, and it simply doesn't make 
sense for tribes to be able to assert authority in regard to one spouse 
but not the other. Even all-Native families may derive from different 
villages, with the spouses being members of different tribes. Tribal 
membership itself can be very fluid in Alaska. Tribal members can 
simply resign their tribal membership with no particular penalty or 
loss of service. Eligibility for Native programs in Alaska is not based 
solely on tribal membership but alternatively can be based on ANCSA 
descendancy, and proven by obtaining a Certificate of Indian Blood from 
the BIA.
    Tribes in Alaska clearly have jurisdiction over child neglect and 
adoption cases and they have jurisdiction over other types of domestic 
relations cases involving their members, including domestic violence 
protective orders. Beyond that it is very unclear what subject matter 
jurisdiction tribes may have and where and to whom it may apply. 
Although some tribes have been more assertive than others and some 
tribal courts may do a variety of things in different parts of the 
state, the sheer lack of clarity in regard to tribal authority has had 
a huge chilling effect on tribal courts in Alaska. In the Bristol Bay 
region there is little court activity at present beyond ``child in need 
of aid'' cases, where tribal authority is clear under the Indian Child 
Welfare Act (ICWA). More often than not in our region, the tribal 
involvement is limited to intervention in state court proceedings.
    In our view, ICWA is perhaps the best illustration of why tribal 
jurisdictional legislation is needed in Alaska. While ICWA created some 
procedural protections for Native American families and tribes and 
created a ranked order of preference for the placement of Native 
children, from a jurisdictional perspective ICWA didn't change pre-
existing law much at all. Tribes already had jurisdiction over child 
abuse and neglect cases and over adoptions. State courts already had 
the authority to transfer children's cases to tribal courts, and 
sometimes did so. But from the perspective of tribal governments and 
tribal courts, the big impact of ICWA was that it provided clarity and 
a firm legal basis for asserting tribal authority. To this day, ICWA--
related cases remain the predominant activity of tribal courts in 
Alaska. It is very doubtful this tribal involvement in children's cases 
would have occurred without federal legislation. ICWA provided a road 
map.
    The amendments Senator Begich has developed for the Alaska Safe 
Families and Villages Act will serve very much the same function for 
the limited subject matter areas they cover: child abuse and neglect, 
domestic violence, and alcohol and drugs.
The Alaska Safe Families and Villages Act
    Although we appreciate that S. 1474 was introduced, except for the 
repeal of the ``Alaska exclusion'' in Section 910 of the Violence 
Against Women Act our support for the bill as introduced is lukewarm. I 
will stress that we strongly support the repeal of the VAWA Alaska 
exclusion, and urge that the repeal go forward through any available 
legislative vehicle. Anecdotally, we have heard that in some regions 
the VAWA Alaska exclusion has already had a large chilling effect as 
measured by the number of tribal domestic violence protective orders 
registered with the state courts. Some tribes have apparently just 
stopped issuing protective orders. The Alaska exclusion is harming 
people and should be repealed as quickly as possible.
    Otherwise, however, S. 1474 as introduced is limited to encouraging 
state-tribal agreements, principally for the diversion of state 
criminal cases to tribal courts in situations where there is complete 
agreement by everyone, including the defendant. We have some 
reservations about such legislation, because nothing prohibits the 
state and tribes from entering such agreements now or even broader 
cross-jurisdictional agreements. There have been some state-tribal 
agreements and municipal-tribal agreements on jurisdictional matters 
over the years. Our fear is that if Congress enacts legislation 
``authorizing'' agreements for pre-trial diversion, it may imply to 
some future court that the tribes had no underlying authority at all. 
Although we know this is not the intent, as we read the bill it comes 
very close to implying that tribes only have derivative authority, 
coming from either Congress or the state.
    What is actually needed, and what will make a huge positive 
difference in the safety and quality of life in rural Alaska, is 
legislation that clearly recognizes that tribes can adopt and enforce 
laws addressing the most serious social problems in the villages.
Amendment Package
    We support a package of amendments developed as a substitute for 
the existing S. 1474 language. The amendments actually keep the 
existing provisions S. 1474, but adds a jurisdictional section very 
similar to a bill introduced by Senator Begich in the last Congress. 
The proposed amendment package would confirm that tribes can exercise 
civil jurisdiction in the subject matter areas of child abuse and 
neglect, domestic violence, and drug or alcohol related matters. It 
establishes a process whereby tribes can develop appropriate ordinances 
and tribal court procedures, and provides for review and approval of 
the tribal code by the Department of Justice. It specifies some 
remedies that can be imposed by tribes, all of which are ``civil'' in 
nature.
    The bill is limited to tribal civil authority; it does not extend 
criminal jurisdiction to tribes. It does not in any way undercut or 
reduce state criminal or civil authority; tribal jurisdiction under the 
bill is concurrent with state jurisdiction.
    We recognize this bill will be no panacea; it might even be 
considered a mere baby step in the direction of tribal self-
empowerment. It will still be up to the state system to deal with 
serious crimes, including the epidemic level of sexual assaults in 
Alaska. It remains up to the state and federal governments to 
adequately fund law enforcement and courts.
    But still this legislation will give tribes some of the tools they 
need to handle behavioral problems at home, particularly among young 
people, without involving the state systems at all. If intervention 
occurs early and is effective in heading off worse problems, then 
everyone benefits--including individual offenders who might otherwise 
end up with criminal records that follow them for life.
    I will mention in passing the recent Indian Law and Order 
Commission Report: A Roadmap for Making Native American Safer, which I 
understand was the subject of an oversight hearing by this Committee. 
The report was highly critical of the current state-centric system of 
providing justice and law enforcement services in rural Alaska. 
Although there have been some quibbles about the accuracy of some 
aspects of the report, from BBNA's perspective the gist of the report--
that the state system has failed rural Alaska and that it is time for a 
major change of approach towards fostering tribal governments--is not 
just true, but obviously true. The statistics regarding sexual assault, 
Native incarceration rates, alcohol abuse, and many other social 
indicators speak for themselves.
    The ILOC report did not really say much that was new--every single 
report or study regarding Alaska Natives in the last 30 years has said 
much the same thing and concluded that more reliance should be placed 
on tribes. But for tribally-based solutions to work, the tribes need 
the necessary tools. One critical tool, which this legislation will 
provide, is clear authority to act.

S. 1574, the Indian Employment, Training and Related Services 
        Consolidation Act
    Chairman Tester and Committee Members: My name is Ralph Andersen, 
and I am President and Chief Executive Officer of the Bristol Bay 
Native Association (BBNA), which is a consortium of 31 tribes in the 
Bristol Bay region of Southwest Alaska. On behalf of BBNA and its 
member tribes, I submit this written testimony in support of S. 1574, 
the Indian Employment, Training and Related Services Consolidation Act.
    BBNA has operated a consolidated workforce development program, 
combining services under P.L. 102-477 plans, since the 1990s. Our 
Workforce Development Director, Rae Belle Whitcomb, is a Co-Chair of 
the 477 Tribal Work Group, and BBNA has closely tracked national 
developments regarding P.L. 102-477.
    The 477 law authorizes tribes and tribal organizations to 
consolidate funding streams from thirteen separate programs within the 
Departments of the Interior (DOI), Health & Human Services (DHHS), and 
Labor (DOL). The law provides that participating tribes develop a 
single ``477 Plan'' which is approved by the Secretary of the Interior 
and which enables the tribe to use a single budget and reporting 
system. The funds are transferred from the other agencies to DOI, and 
the award mechanism used to transfer funds from DOI to the tribes is 
either a ``Title I contract'' or a ``Title IV Compact'' under the 
Indian Self-Determination Act, P.L. 93-638.
    Since the 477 Initiative's inception, tribes and tribal 
organizations have used the P.L. 93638 funding mechanism and have 
reported (and been audited) based on their 477 Plans, which by 
definition is tribally created. In BBNA's experience, 477 has been 
highly successful. The flexibility of the 477 Initiative have been key 
to the efficient and cost-effective provision of our employment 
training, job placement, child care and related programs. The 477 
Initiative reduces redundancies in administrative effort and personnel 
costs. BBNA operates in an extremely high cost area, and within a large 
geographic area--31 small tribal communities with no connecting roads 
scattered in an area the size of Ohio. We have a bare bones staff 
relative to the demands placed on them, and every dollar we can save by 
freeing staff from redundant grant requirements is a dollar used on 
client services.
Disagreements with DHHS
    Beginning in 2008 actions by DHHS and to a certain extent by DOI 
threatened an almost complete rollback of the success of the 477 
Program. First DHHS concluded unilaterally it would no longer allow its 
program funds to be administered under P.L. 93-638 contracts and 
compacts. The DOI acquiesced in this, and announced that DHHS funds 
within 477 would be awarded by ordinary grants. At a stroke, this would 
have undercut much of the purpose of P.L. 102-477 by effectively 
keeping DHHS funds out of consolidated tribal programs. DHHS then had 
audit guidelines issued that required tribes and tribal organizations 
operating 477 Programs to separately report and account for each 
funding stream within the 477 Plan. Essentially, the 477 Initiative 
would no longer authorize the true consolidation of programs but rather 
would just bundle disparate grants together with all their separate 
requirements intact. The tribes believed this undercut the intent of 
the law.
    Although these policy changes were held in abeyance by the agencies 
pending further dialogue, there was no agreement between the agencies 
and the tribes. In 2011 the 477 Tribal Work Group, BBNA, and many other 
individual tribes and tribal organizations asked Congress to intervene. 
As a result, the FY 2012 Interior appropriations bill instructed the 
federal agencies, including OMB, to consult with the 477 tribes and 
tribal organizations to reach consensus and ``permanently resolve'' 
these issues. The agencies and the 477 Tribes agreed to try to resolve 
their differences over these new issues, and this led to the formation 
of the P.L. 102477 Administrative Flexibility Work Group (AFWG)
    The AFWG included representatives from DOI, DHHS, DOL, and OMB, and 
a good cross-section of interested tribes and tribal organizations 
including the co-chairs of the 477 Tribal Work Group. The AFWG met for 
more than two years. It conducted a comprehensive review of the 477 
Act, the history of program implementation, the process of submitting 
and approving 477 Plans, the consolidated reporting system, and other 
matters. In the meantime the agencies temporarily suspended their 
proposed changes, allowing the 477 Program to operate as it had from 
its inception under P.L. 93-638 mechanisms and without supplemental 
reporting.
    Eventually, although the tribes and agencies represented on the 
AFWG came to consensus on some issues and reached a better mutual 
understanding regarding the 477 Act and 477 Programs, its was not 
possible to ``permanently resolve'' their disagreements over fund 
transfer and reporting issues. This was because DHHS has interpreted 
the 477 Act in a manner that is distinctly at odds with the 
interpretation tribes have had of it since it was enacted.
Need for Amendments to 477 Act
    Although progress was made in reaching mutual understandings during 
the AFWG process, it is clear that it is time for Congress to update 
and clarify the law. The remaining disagreements appear to be based on 
different interpretations of terms Congress used in the law, so 
clarifying amendments by Congress should resolve them. Even in some 
areas where there has been agreement, such as the continued use of P.L. 
93-638 contracts and agreements, there has been no binding agreement or 
commitment in writing by the agencies. The agencies could simply walk 
away from the AFWG consensus items in the future.
    The testimony of DHHS at this hearing illustrates the problem. 
Commissioner Lillian Sparks Robinson of the Administration for Native 
Americans within DHHS, stated at various points in her testimony that 
participation in the 477 Initiative is discretionary with the agencies 
(rather than the tribes), that it doesn't actually allow the tribes to 
consolidate programs and funding, and that the 477 law doesn't bring 
the included programs within the tribe's P.L. 93-638 contracting 
authority. The foregoing is a paraphrase, but I believe it is a fair 
reading of parts of her testimony. BBNA would certainly disagree with 
all of these points, and we have no wish to engage an in an endless 
debate with the agencies over whether we have the authority to do 
things we've been doing successfully for 20 years.
    For the above reasons, BBNA believes it is time for Congress to 
amend the 477 Act. It is time P.L. 102-477 became permanent 
legislation, and we thank Senator Murkowski and Senator Begich and the 
other co-sponsors of S. 1574.
    We agree with other commenters that one area of improvement would 
be to clarify what is meant by the word ``program'' within the 477 
context. One suggestion with which we concur is that the term 
``program'' be used to describe the individual federal programs or 
funding streams that are included within a 477 Plan, that the 477 
``Plan'' refer to the tribe's consolidated program and operations, and 
that the term 477 ``Initiative'' be used to describe the federal level 
477 operations.
    We believe the bill will resolve the disagreements that remain with 
the agencies and improve the delivery of services to the tribes' client 
community. We specifically support the following:

        1. Reaffirming the intent of Congress's intent that Tribes and 
        tribal organizations with an approved 477 Plan may receive 
        their funds through P.L. 93-638 contracts and agreements.

        2. Reaffirming that tribes may continue to use 477 funds on 
        allowable activities authorized pursuant to each Tribe's 
        approved 477 Plan, and to report and be audited based on the 
        Plan.

        3. Reaffirming that Tribes and tribal organizations are not 
        required to maintain separate records tracking services or 
        activities conducted under an approved Plan back to individual 
        federal program sources, nor are they required to audit 
        expenditures by original program source. Congress should 
        reiterate that Single Agency Audit Act audits, which audit 
        funds on a consolidated basis, are sufficient to assure 
        accountability in the expenditure of these funds, as has long 
        been the case.

        4. Reaffirming that federal program funds can be combined and 
        integrated in order to achieve the program goals set forth in 
        an approved 477 Plan.

    The above provisions would ``permanently resolve'' the outstanding 
disputes that have arisen between the 477 Tribes and the federal 
agencies, and also ensure that issues that have been discussed and at 
least partially resolved in the AFWG process do not return whenever 
there is a change of administration.
    Additionally, we suggest the 477 Act should be amended to address 
timely approval of 477 Plans, regulation waivers and dispute 
resolution, so that there are clear rules and a clear process to follow 
for resolution of disagreements about the 477 Act. Finally, we suggest 
that 477 be expanded to other employment, training and related programs 
in other agencies.
    Thank you for holding this hearing and providing the opportunity to 
testify on S. 1474 and S. 1574.
    We deeply appreciate the Committee's work and its long-standing 
support for the 477 Initiative.
                                 ______
                                 
 Prepared Statement of Hon. Bill John Baker, Principal Chief, Cherokee 
                                 Nation
    Osiyo. My name is Bill John Baker, and I am honored to serve as 
Principal Chief for the largest sovereign Indian Nation in the United 
States, the great Cherokee Nation. Our more than 300,000 citizens live 
in our jurisdiction in Oklahoma and across the country. Our tribe and 
related business ventures employ more than 9,000 workers, and we are 
proud of the opportunities we provide our people and the communities of 
northeast Oklahoma. In FY 2012, the Cherokee Nation had a $1.33 billion 
impact on the State of Oklahoma's economy.
    The Cherokee Nation fully supports legislation to amend the Indian 
Employment, Training and Related Services Demonstration Act of 1992 
(P.L. 102-477). We have operated a P.L. 102-477 Plan since 2002 and 
appreciate the flexibility opportunities P.L. 102-477 provides. 
However, we believe it is time to make the demonstration project a 
permanent program and to clarify Congressional intent in regards to the 
flexibility offered under this law.
    In FY 2012, the Cherokee Nation's P.L. 102-477 program provided 
employment and training services to 355 individuals, over 66 percent of 
them cash assistance recipients from such programs as TANF or BIA-
General Assistance. We also provided child care services for 3,040 
children in 1,841 families, allowing their parents to work or attend 
school when they might not have otherwise. Through our P.L. 102-477 
program, we assisted 173 businesses and created 82 new jobs in mostly 
rural areas.
    Unfortunately, this proven demonstration project is endangered. 
Federal agencies that are partners in the P.L. 102-477 project (the 
Department of the Interior, the Department of Labor, the Department of 
Health and Human Services, and the Office of Management and Budget) do 
not recognize the most fundamental aspects of the law--the flexibility 
to integrate programs into one comprehensive program in a manner 
necessitated by local circumstances as determined by the tribal 
government, and the ability to reallocate these funds according to an 
approved 477 Plan.
    Tribes have tried to resolve issues with their federal partners 
since November 2011 through the Administrative Flexibility Workgroup. 
Cherokee Nation had two staff members on the Workgroup, Vickie Hanvey, 
Government Resources Administrator, and Kim Carroll, Career Services 
Director of Grants and Compliance and P.L. 102-477 Tribal Workgroup 
Executive Committee Secretary. Although much progress was made, the 
tribal representatives and federal representatives on the Workgroup 
were unable to come to agreement on the basic issues discussed below.
    The federal partners have unilaterally published for comment a new 
reporting system for the P.L. 102-477 program despite objections from 
the tribal members of the Administrative Flexibility Workgroup. The 
proposed new reporting system provides no benefit to the federal 
agencies or their respective programs, and instills an increased 
administrative burden on tribal programs, contrary to the intent of 
P.L. 102-477. They refuse to acknowledge the ability of tribes to 
integrate programs and funds under a 477 Plan and have set arbitrary 
rules for tribes wishing to integrate programs into a 477 Plan, 
effectively discouraging the expansion of the program.
    Legislation to amend P.L. 102-477 can address these issues and 
protect the integrity of the law. The Cherokee Nation supports S. 1574 
because it:

  <bullet> Clarifies that tribes are not required to maintain separate 
        records tracing funds to individual federal programs, but are 
        allowed to integrate separate programs into one 477 program and 
        reallocate funds as needed to accomplish the goals and 
        objectives identified in their approved 477 Plan;

  <bullet> Makes P.L. 102-477 a permanent program;

  <bullet> Clarifies transfer of funds to tribes through contracts and 
        agreements pursuant to the Indian Self Determination and 
        Education Assistance Act (ISDEAA);

  <bullet> Clarifies that annual reporting should be based on each 
        tribe's approved 477 Plan and the accomplishment of their 
        stated goals and objectives; and

  <bullet> Expands the 477 program by insisting federal agencies 
        currently identified as partners (i.e., the Department of 
        Education, which has never participated as a partner) 
        participate in good faith and develop a mechanism for the 
        addition of other employment, training and related service 
        program to be included.

    The Cherokee Nation believes P.L. 102-477 embodies the ideas of 
self-governance and self-determination. It has proven successful for 
over 20 years and demonstrates how tribes can effectively consolidate 
limited funding to address the unique needs of their tribal members and 
accomplish their individual tribal goals.
    Thank you for the opportunity to present this written testimony in 
support of S. 1574. I appreciate your consideration of my testimony and 
your commitment to fostering self-sufficiency for Indian people.
                                 ______
                                 
   Prepared Statement of Hon. Gregory E. Pyle, Chief, Choctaw Nation
    The Choctaw Nation of Oklahoma supports legislation to amend the 
Indian Employment, Training and Related Services Demonstration Act of 
1992 (P.L. 102-477). We believe it is time to make this demonstration 
project a permanent program and to clarify Congressional intent 
regarding these programs.
    Public Law 102-477, commonly known as the ``477 Program,'' 
authorizes tribal governments to consolidate up to thirteen different 
programs from the Department of Interior, Department of Labor, 
Department of Education, and Department of Health and Human Services 
into a single plan, approved by the Secretary of the Interior. These 
consolidated programs all foster employment and economic development in 
Indian Country. P.L. 102-477 is still technically a ``demonstration 
project,'' which has existed for over two decades, and there are 
currently over 250 tribes that consolidate multiple programs into a 
single 477 Plan. Tribes' success with these programs demonstrates why 
this should become a permanent program, not just a demonstration 
project.
    The Choctaw Nation of Oklahoma has operated P.L. 102-477 
programming since 2007. Our programming combines both WIA and higher 
education. These programs have provided Choctaws job training and 
assisted numerous businesses employing our tribal citizens. Some 
program highlights are below:

  <bullet> Serve 1,600+ 14-21 year olds yearly through the summer youth 
        work experience

    --Summer youth workers are placed in 1,400+ businesses annually. 
        This provides businesses with free summer help, and helps the 
        business contribute back to the community.

  <bullet> Assist 200+ adults annually with classroom and on-the-job 
        training.

  <bullet> 5,000+ students served annually by higher education 
        scholarships and grants.

    The 477 Program provides tribal governments with the flexibility to 
design employment, training and economic development plans that utilize 
funding from several federal programs to best meet the needs of their 
local communities, while reducing administrative burden by streamlining 
program, statistical, and financial reporting requirements. Tribes 
operating under 477 Plans complete a single narrative, statistical, and 
financial report based on their approved 477 Plan rather than 
completing multiple reports for individual programs. This reduced 
administrative burden allows for more time and money to be spent on 
direct services rather than duplicative reporting requirements.
    Tribes and Tribal organizations depend on the 477 Program to ensure 
efficient use of federal funding for employment training, job 
placement, childcare and related programs. It increases cooperation 
between agencies, reduces administrative burden and maximizes federal 
dollar where they are most needed.
    Unfortunately, this proven demonstration project is endangered. 
Actions proposed by DHHS and DOI have created extensive and expensive 
duplications in implementation that conflict with congressional intent 
in establishing the 477 Program. Federal agencies that partner in the 
P.L. 102-477 project do not recognize the most fundamental aspects of 
the law--the flexibility to integrate programs into one comprehensive 
program in a manner necessitated by local circumstances as determined 
by the tribal government, and the ability to reallocate these funds 
according to an approved 477 Plan.
    These challenges led to the formation of the so-called P.L. 102-477 
Administrative Flexibility Work Group. Tribes have tried to resolve 
issues with their federal partners since November 2011 through the 
Administrative Flexibility Workgroup. Much progress has been made, but 
the tribal representatives and federal representatives on the Workgroup 
were unable to come to agreement on the basic issues discussed.
    We question the need for the proposed changes. The current 
reporting system is appropriate and satisfies all reporting 
requirements. The proposed new reporting system provides no benefit to 
the federal agencies or their respective programs, and instills an 
increased administrative burden on tribal programs, contrary to the 
intent of P.L. 102-477. Furthermore, this does not acknowledge the 
ability of tribes to integrate programs and funds under a 477 Plan. It 
also sets arbitrary rules for tribes wishing to integrate programs into 
a 477 Plan, effectively discouraging the expansion of the program.
    The Choctaw Nation supports S. 1574 because it allows legislation 
to amend P.L. 102-477 and will address these issues to protect the 
law's integrity.
    The legislation clarifies that tribes are not required to maintain 
separate records tracing funds to individual federal program, but are 
allowed to integrate separate programs into one 477 program and 
reallocate funds as needed to accomplish the goals and objectives 
identified in their approved 477 Plans. It also clarifies the transfer 
of funds to tribes through contracts and agreements pursuant to the 
Indian Self-Determination and Education Assistance Act. Additionally, 
it reinforces that annual reporting should be based on each tribe's 
approved 477 plan and the accomplishment of their stated goals and 
objectives. This legislation will also expand the 477 program by 
insisting that federal agencies currently identified as partners 
participate in good faith and develop a mechanism for the addition of 
other employment, training and related service programs to be included.
    The Choctaw Nation of Oklahoma fully supports legislation to amend 
the Indian Employment, Training and Related Services Demonstration Act 
of 1992 (P.L. 102-477). We believe it is time to make the demonstration 
project a permanent program and to clarify Congressional intent in 
regards to the flexibility offered under this law.
    Thank you for this opportunity to address S. 1574.
                                 ______
                                 
Prepared Statement of Gloria O'Neill, CEO/President, Cook Inlet Tribal 
                                Council
    Chairman Tester and Members of the Committee, thank you for the 
opportunity to provide testimony on the proposed S. 1574. My name is 
Gloria O'Neill and I am the Chief Executive Officer and President of 
Cook Inlet Tribal Council (CITC), an Alaska Native tribal non-profit 
organization which serves as the primary education and workforce 
development center for Native people in Anchorage. CITC has been 
designated tribal authority through Cook Inlet Region Inc., organized 
through the Alaska Native Claims Settlement Act and recognized under 
Section 4(b) of the Indian Self-Determination Act and Education 
Assistance Act, P.L. 93-638. CITC builds human capacity by partnering 
with individuals to establish and achieve both educational and 
employment goals that result in lasting, positive change for 
themselves, their families, and their communities.
Demographics and Expanding Service Population
    CITC's programs serve Alaska Native and American Indian people in 
the Cook Inlet Region, which includes Alaska's most urbanized and 
populated communities, and is home to an Alaska Native/American Indian 
population of more than 40,000, approximately 40 percent of the Native 
population of the state of Alaska. In Anchorage alone, the Native 
population is approximately 22,000, about 20 percent of the total 
Native population in the state. CITC's programs address many of the 
social, economic, and educational challenges faced by Alaska Native 
people. For example, Alaska Native students are twice as likely to drop 
out as their non-Native peers; 33 percent of Alaska's unemployed are 
Alaska Native people, and almost 20 percent of Alaska Native people 
have incomes below the federal poverty line--nearly three times the 
rate of non-Native people.
    In-migration from rural, largely Alaska Native communities to the 
urban areas in the Cook Inlet Region is accelerating as Alaska Native 
people find it increasingly difficult to make a living in rural Alaska. 
59 percent of CITC's participants have been in Anchorage for five years 
or less; and employment, training, and education are frequently cited 
as reasons for moving to Anchorage. In contrast, the current Bureau of 
Indian Affairs funding formula for CITC is based on the population 
figure of 14,569--from the 1990 Census--which leaves CITC with a 
funding shortfall to meet the needs of the 40,000 Alaska Native and 
American Indian people currently residing in our service region. CITC 
is able to create and maintain successful programs, despite this 
shortfall, due to flexibility granted by the 477 program that allows us 
to leverage our existing funding and maximize efficiencies.
Public Law 102-477 is Essential to Effective Service Provision
    The Indian Employment Training and Related Services Demonstration 
Act, Pub. L. 102-477, as amended, 25 U.S.C.   3401-3417 (or the ``477 
program''), currently administered by the Office of Indian Energy and 
Economic Development in the Department of the Interior, provides a 
critical foundation for maximizing the effectiveness of CITC's 
programs. The law allows the consolidation of funding streams from the 
U.S. Departments of Interior, Health and Human Services, and Labor into 
a single education, employment and training program. The 477 program 
enables flexibility on the part of the receiving organization to plan 
the programming to best fit the needs of the community and minimize 
administrative redundancy by merging reporting requirements, while 
still adhering to the Government Performance Results Act's stringent 
accountability standards. 267 tribes and tribal organizations operate 
through 63 plans under the 477 program, making this a program of 
national significance.
CITC 477 Programs
    The 477 Program is essential to the success of our program as it 
allows CITC to increase effectiveness and innovation, enhance 
interoperability, and eliminate inefficiency while maximizing program 
outcomes. CITC's Employment & Training Services Department (ETSD) 
provides comprehensive services to assist Native job seekers, including 
job training and placement, TANF, and child care. CITC's employment and 
training programs are based on the premise that effective solutions to 
workforce development require integrated approaches to ensuring job 
readiness, training, and placement. By working closely with state and 
federal programs, community and tribal non-profits, universities, 
vocational training centers, employers, and Native corporations, CITC 
is able to provide a wide array of training and employment assistance, 
coupled with supportive services, to help overcome many barriers to 
employment and self-sufficiency for our people.
    CITC is the sole provider of Tribal TANF in Anchorage, a key 
component of our 477 program. Our TANF program is built on an 
integrated service model that connects participants to the range of 
programs offered throughout CITC's departments. Through our integrated 
service model, CITC has reduced caseloads as well as effectively 
implemented TANF prevention. This is precisely the type of innovation 
and interoperability that would be impossible without the flexibility 
provided by the 477 program.
    Furthermore, efficiencies gained within the TANF program resulted 
in a 5-year savings of $8.4 million--savings that have been re-invested 
in supportive services and programs going directly to TANF 
participants. 477 allows Tribes and Tribal entities (e.g. CITC) to 
administer federally funded employment and job training programs as a 
single program, with a single budget and single set of reporting 
requirement. CITC relies on the 477 program to provide our people more 
effective and integrated services while reducing costly administrative 
redundancy.
    Over the Past 5 Years CITC 477-supported Programs Have:

  <bullet> Provided 8,989 job seekers with career exploration, training 
        and job search assistance; 4,671 (52 percent) of these 
        individuals were placed in jobs. The average hourly wage (AHW) 
        of a job seeker coming to CITC for services increased by $6.66 
        per hour.

  <bullet> Transitioned over 2100 TANF recipients from welfare to work, 
        entering with no job experience or income, and leaving with an 
        AHW of $11.53.

  <bullet> Provided training opportunities and job placement in 
        critical employment sectors, including: Customer Service/Retail 
        Management (AHW $11.01); Driver's Education (AHW $14.16) and 
        CDL Driver's Certification (AHW $16); Weatherization Training 
        (AHW $14.77-$22.15); Healthcare: CNA, LPN, RN, Medical Coding 
        (AHW $13.79).

    CITC has demonstrated that the 477 program is very successful in 
connecting people to long term, meaningful jobs. In short, the 477 
program is a ``win-win'' for the federal funders and CITC, since it 
eliminates wasteful inefficiency while maximizing program outcomes. In 
addition to being successful on the ground, the 477 program is fully 
accountable. It achieved the highest Office of Management and Budget 
PART (Program Assessment Rating Tool) rating in Indian Affairs. The 477 
program is critical to our effectiveness, especially in this 
environment of shrinking funding sources.
    Similarly, the 477 program on a national level has excellent 
results. These programs provide tribes and tribal organizations the 
ability to leverage their federal job training and job placement 
funding for DOI, HHS and DOL--including TANF, Childcare other programs. 
As a result, the 2012 477 national report shows that tribal programs 
served almost 44,000 people, of whom over 99 percent completed their 
education or employment objectives. More importantly, of those who 
obtained employment: (1) Adults gained $7 per hour over their previous 
hourly wage; (2) Youth gained $6.80 per hour over their previous hourly 
wage; and (3) people on cash assistance gained $5 per hour over their 
previous hourly wage. As you can see, the 477 program is critical to 
our effectiveness, especially in this environment of shrinking funding 
sources.
Support for 477
    In 2011 and again in 2012, the Tribes sought assistance from the 
House and Senate Appropriations Committees regarding two problematic 
changes the agencies proposed to the administration of the 477 program 
that would significantly undermine its success: (1) ending the practice 
of transferring 477 program funds to participating Tribes and Tribal 
organizations through P.L. 93-638 contracts or SelfGovernance 
agreements, as authorized by the Indian Self-Determination and 
Education Assistance Act (ISDEAA); and (2) a new requirement that 477 
Tribes and Tribal organizations report their 477 expenditures 
separately by funding source number for audit purposes.
    The federal agencies and 477 Tribes agreed to try to resolve their 
differences over these issues, which led to the formation of the P.L. 
102-477 Administrative Flexibility Work Group. This group met almost 
weekly for 18 months and included policy and program representatives 
from the Departments of the Interior (DOI), which administers the 477 
program, Health and Human Services (HHS), Labor (DOL) and the Office of 
Management and Budget (OMB), as well as representatives from 10 
affected Tribes and Tribal organizations. In the meantime, the agencies 
agreed to temporarily allow funds to continue to be transferred through 
ISDEAA and have suspended the reporting requirements instituted in the 
March 2009 OMB Circular.
    The House/Senate Appropriations conferees on the FY 2013 Interior 
Appropriations bill instructed the federal agencies to continue to 
engage in consultations with the 477 Tribes and Tribal organizations to 
reach consensus on the transfer and reporting of funds administered by 
Tribes through program plans adopted by Tribes and approved by the 
Department of the Interior under the 477 program.
    The Work Group has had some successes: (1) effectively 
collaboration on interim OMB circular language that has kept the status 
quo while discussions continue; (2) new draft 477 program guidelines 
for the agencies in reviewing tribal plan proposals; (3) certain 
components of the draft narrative, statistical and financial reporting; 
(4) representatives agreed that 477 funds would be transferred through 
P.L. 93-638 contract(s) or Self-Governance funding agreement(s); and 
(5) agreement that funds in a 477 Plan were eligible for use for 
economic development. However, in spite of this progress, it has become 
clear that the agencies continue to question one of the fundamental 
purposes of the 477 program--to allow tribes and tribal organizations 
to re-budget and reallocate their funds within their approved 477 
program in order to address local issues and programmatic needs in the 
most effective manner. From our perspective, this authority for and 
responsibility of tribes to meet their own needs is exactly the point 
and strength of the 477 program. It is precisely this flexibility that 
has allowed us to be so successful.
    Given this disagreement of fundamental principle, we urge the 
expeditious review and mark-up of S. 1574, which lays the groundwork to 
resolve these issues and achieve long term workforce development goals 
for which the Tribes and tribal organizations have been working. This 
is particularly important because the federal agencies are moving 
forward with reporting guidelines that will dramatically alter the way 
that Tribes and tribal organizations have been successfully managing 
their programs for over two decades. The Tribes and tribal 
organizations have consistently argued for the status quo:

        1. reporting in aggregate and not by fund source;

        2. tribal authority to re-budget and reallocate funds as 
        specified in an approved Plan;

        3. implementation that does not require Tribes to create or 
        maintain new or additional records or to incur new 
        administrative costs;

        4. accountability against the requirements of the Plan;

        5. continued funding through self-determination contracts and 
        compacts that allows for contract support costs only for funds 
        that qualify for contract support costs; and

        6. permanent elimination of any OMB requirement to do 
        supplemental accounting by fund source.

    During the course of the negotiations with the federal agencies 
over the past two years, the use of the word ``program'' in the 477 
context has surfaced as an area of confusion and disagreement. To clear 
up the terminology, we propose using the term ``Initiative'' for the 
federal program operated by the Department of Interior, using the term 
``Plan'' for tribal operations under the 477 law, and using the term 
``program'' for the federal programs constituting the components of 
each Tribe's or tribal organization's Plan. This clarification would 
help to resolve disagreement over interpretation of the law that has 
arisen recently.
    Therefore, we urge that the legislation reaffirm Congress' intent 
that Tribes and tribal organizations operating consolidated programs 
under the Act through an approved Plan continue to receive funds 
through contracts and compacts awarded under the Indian Self-
Determination Act, and use those 477 funs on allowable activities 
authorized under each Tribe's approved Plan. We urge that Congress also 
reaffirm its original intent that Tribes and tribal organizations are 
not required to keep separate records tracing services, activities or 
funding back to original program source, and that the Single Agency 
Audit Act audits continue to be sufficient to ensure accountability in 
the expenditure of those funds. Thirdly, we urge that the legislation 
eliminates any ambiguity that federal program funds can be combined and 
integrated in order to achieve the program goals set forth in an 
approved 477 Plan. Finally, the 2000 amendment to 477 added the 
authority to allocate funds in an approved 477 Plan to directly support 
economic development and job creation, and we urge that S. 1574 
reaffirm that very important and successful opportunity. These 
provisions will permanently resolve the issues that the federal 
agencies and tribes have attempted to resolve and will ensure that the 
spirit and intent of the original 477 Act, so successful for over two 
decades, will continue and be implemented consistently regardless of 
administrative shifts moving forward.
    In addition, the experience of the last two decades has resulted in 
several goals for enhancing work force development in Indian Country 
that S. 1574 can also address, including (1) a mechanism to identify 
eligible employment, training and related social service programs from 
other federal agencies which Tribes and tribal organizations might 
include to increase outcomes in their Plans; (2) expand the 477 
Initiative to include a wider range of departmental and agency funds, 
including competitive, formula and designated funds as well as block 
grants; (3) amendments to ensure timely approval of 477 Plans, 
regulation waivers and dispute resolution and (4) options for Tribes 
and tribal organizations to use their negotiated indirect cost rate, 
rather than applying separate administrative caps to each funding 
source.
Conclusion
    Mr. Chairman, as a 477 Tribal organization, CITC is grateful for 
this Committee's interest in and support for the 477 program. This 
program is essential to our ability to meet the needs of our people in 
innovative and efficient ways that allow us to provide wrap around 
services designed on a model of integration and maximum efficiency, 
leveraging funds and human resources to make the greatest impact for 
our people. We agree that the time is right for specific legislative 
authorization as provided above, which will make this innovative 
program permanent, expand the types and sources of funding eligible to 
be included in a 477 plan, to establish protective review procedures 
and address new issues that have only arisen in response to agency 
resistance to tribal self-determination. The legislation will also 
ensure that the spirit, the letter and the opportunities of the P.L. 
102-477 law will provide for the next century's success in meeting the 
employment and training needs of Alaska Native and American Indian 
people across the country.
    Thank you for your time and consideration.
               Supplementary Testimony by Gloria O'Neill
    Chairman Tester and Members of the Committee, thank you for the 
opportunity to provide supplemental testimony on the proposed S. 1574 
on behalf of Cook Inlet Tribal Council (CITC), an Alaska Native tribal 
non-profit organization which serves as the primary education and 
workforce development center for Native people in Anchorage. CITC has 
been designated tribal authority through Cook Inlet Region Inc., 
organized through the Alaska Native Claims Settlement Act and 
recognized under Section 4(b) of the Indian Self-Determination Act and 
Education Assistance Act, P.L. 93-638.
    Testimony from Kevin Washburn and Lillian Sparks Robinson on behalf 
of the Departments of Interior and Health and Human Services, 
respectively, demonstrates exactly why amendments to the current 
statute are necessary to make this innovative program permanent, expand 
the types and sources of funding eligible to be included in a 477 plan, 
to establish protective review procedures and address new issues that 
have only arisen in response to agency resistance to tribal self-
determination. The legislation is also necessary to ensure that the 
spirit, the letter and the opportunities of the P.L. 102-477 law will 
provide for the next century's success in meeting the employment and 
training needs of Alaska Native and American Indian people across the 
country.
    We appreciate the Department of the Interior's support for 477 and 
for this legislation, and its candor in identifying areas of concern. 
We look forward to working with the Committee to address what questions 
remain to guarantee that the way in which the 477 Initiative has worked 
in terms of operating on one plan, one budget and one report for the 
last twenty-plus years to continue to offer the success of employment 
and training and lifelong sustainability in Indian country. Three 
statements in Mr. Washburn's testimony require clarification: First, we 
do not agree that the financial reporting system developed by the 
Administrative Flexibility Work Group (AFWG) is ``simplified,'' because 
the current system of reporting and the dictates of the Single Audit 
Act are more simple than the proposal and more than adequate to cover 
both accountability and the streamlined, simple process contemplated by 
the statute. Secondly, while we agree that the 477 plan approval 
process has improved in the recent past, an articulated legislative 
structure will ensure that changes in administration in the future do 
not undermine the accomplishments of the last two years. Finally, the 
section in the proposed legislation that ``would prohibit a Tribe or 
tribal organization from being required to submit any additional 
budget, report, audit or supplemental audit or other documentation 
after its plan is approved'' is necessary precisely to clarify that 
Congress does not intend multiple reports as part of the elegant 
success that has operated so successfully for over two decades.
    We also appreciate the Department of Health and Human Services' 
willingness to participate in the lengthy conversations and meetings 
over the duration of the AFWG, and the leadership within the Department 
that looked for ways in which the HHS programs could support the 
flexibility and successes of the 477 Initiative across the nation. The 
AFWG did indeed ``identify. . .flexibilities within the law that allow 
tribes to consolidate. . .477 funds for the purpose of supporting 
economic development'' and strengthened the relationships both between 
the tribes and the federal agencies, as well as between the agencies 
participating in the program. However, the Department's testimony 
contains several statements that require response and clarification. 
First, the federal agencies made the decision to submit the reporting 
forms and instructions for the review process and notified the tribal 
representatives of this course of action at the January 2014 meeting. 
Secondly, tribal representatives on the AFWG never advocated that the 
contract support cost provisions of the Indian Self-Determination and 
Education Assistance Act (ISDEAA) accrued to Tribes as a product of 
utilizing the contracts and compacts under ISDEAA as the vehicle by 
which 477 funds were distributed to Tribes and tribal organizations. On 
the contrary, tribal representatives specifically stated and assured 
that only the contract support costs to which Tribes and tribal 
organizations were already entitled under the Department of Interior 
programs were retained under their agreements. Other attributes of 
contracting, such as using matching funds to match other federal 
programs, have been part of the 638 contract process; however, this 
disagreement in interpretation of the law shows one area that needs to 
be clarified by legislation. Third, the tribal representatives asserted 
that the 477 Initiative already authorizes the ability to re-budget and 
re-program within an already approved Plan, contrary to the agencies' 
interpretation of the law. Finally, the legislation does not remove the 
requirement for any report or audit--for over twenty years, Tribes and 
tribal organizations have provided in-depth reports of the activities 
and outcomes of the funds they manage under the 477 Initiative, and 477 
received the highest OMB PART rating in Indian Country. Accountability 
to the public for the funds placed in the Tribes' and tribal 
organizations' trust has a proven track record. The current reporting 
system has ensured that accountability. Clarifying these disagreements 
is a primary goal of the legislation before this Committee.
    Particular response is necessary for the testimony related to the 
purpose of the ISDEAA and the reference to Navajo Nation v. Department 
of Health and Human Services. In October 2008 DOI and HHS announced 
that they would end the practice of transferring 477 Program funds to 
participating tribes through agreements under ISDEAA. As a basis for 
the action the agencies cited the court's ruling in Navajo Nation v. 
Department of Health and Human Services, 325 F.3d 1133 (9th Cir. 2003), 
a case that did not involve the administration of the 477 Program. In 
that case the court held that an Indian tribe could not administer TANF 
under a 638 contract. The court did not address the administration of 
TANF under 477. The court simply concluded that TANF is not a 
contractible program under the ISDEAA because it is (1) not a program 
or service ``otherwise provided'' to Indians under federal law, 25 
U.S.C.  450b(j), and (2) not a program ``for the benefit of Indians 
because of their status as Indians,'' 25 U.S.C.  450f(a)(1)(E).
    There is an enormous difference between being compelled under the 
ISDEAA to contract the TANF program, and choosing to transfer TANF 477 
funds through such contracts. For over 20 years HHS has transferred 477 
funds in this manner--not because the ISDEAA mandated it but because 
doing so made sense and was not prohibited by law. The 477 Tribes have 
consistently argued that 477 plans can be funded through the ISDEAA, 
and that the Navajo Nation case in particular does not bar the fund 
transfers currently implemented for the Program. The relevant law is 
the 477 Act, administered by the BIA, not the numerous and varied 
agency programs (such as TANF) that can be integrated into a tribal 477 
Plan. In fact, the Act provides for administration of the program 
through the Department of the Interior, including transfer of HHS and 
DOL agency program funds to the BIA, which then transfers the funds to 
the tribes.
    The key to understanding the 477 Act is that the 477 Act is 
administered by the Department of the Interior under the Secretary of 
the Interior. The Secretary of the Interior has the authority to 
approve or disapprove a tribal plan, which must be done within 90 days 
of submittal. 25 U.S.C.  3407. The Act provides for the Secretary of 
the Interior to ``cooperate'' with and ``consult'' with other affected 
agency Secretaries, \1\ but it is the Secretary of the Interior who 
``shall, upon receipt of a plan acceptable to the Secretary of the 
Interior submitted by an Indian tribal government, authorize the tribal 
government to coordinate, in accordance with such plan, its federally 
funded employment, training, and related service programs in a manner 
that integrates the program services involved into a single, 
coordinated, comprehensive program and reduces administrative costs by 
consolidating administrative functions.'' 25 U.S.C.  3403 (emphasis 
added).
---------------------------------------------------------------------------
    \1\ See 25 U.S.C.   3403 (integration of services authorized) and 
3406 (plan review).
---------------------------------------------------------------------------
    Moreover, the 477 Program is an Interior ``program, service, 
function or activity'' that is available to tribes with consolidated 
funds from Interior and appropriations from other agencies. The federal 
programs that may be integrated into a tribal 477 Plan ``include any 
program under which an Indian tribe is eligible for receipt of funds 
under a statutory or administrative formula for the purpose of 
assisting Indian youth and adults to succeed in the work force, 
encouraging self-sufficiency, familiarizing Indian youth and adults 
with the world of work, facilitating the creation of job opportunities 
and any services related to these activities.'' 25 U.S.C.  3404 
(emphasis added).
    The 477 Act thus fits the Navajo Nation Court's criteria that 
ISDEAA-eligible programs are those ``specifically targeted to 
Indians.'' The 477 Program is one provided for tribes by virtue of 
their status as Indians because only tribes can take advantage of it. 
Its targeted purpose is to facilitate employment opportunities for 
Indian youth and adults, as well as to encourage tribal self-
sufficiency consistent with self-determination principles.
    The fact that HHS has again raised this issue further identifies 
the need for amendments to the current law. First of all, as described 
above, the Navajo Nation case does not apply to funds transferred from 
the Department of Interior under the 477 Initiative. Secondly, all 
three HHS programs currently participating in the 477 Initiative are 
``tribal'' programs: ``Tribal TANF,'' ``Tribal Child Care,'' and 
``Native Employment Works.'' Finally, Congress has the authority to 
authorize the fund transfer mechanism under the ISDEAA if necessary, 
and as proposed in S. 1574.
Conclusion
    As a 477 Tribal organization and a constant member of the 
Administrative Flexibility Work Group, CITC is grateful for the work 
that the federal agencies put into improving relations and operations 
of the 477 Initiative. We appreciate the opportunity to address 
particular points raised in their testimony before this Committee, and 
to further articulate the necessity for clarifying why S. 1574 is so 
important to the continued success of the 477 Initiative to improve the 
lives of American Indian and Alaska Native people throughout the 
country. This program is essential to our ability to meet the needs of 
our people in innovative and efficient ways that allow us to provide 
wrap around services designed on a model of integration and maximum 
efficiency, leveraging funds and human resources to make the greatest 
impact for our people. Immediate markup and passage of S. 1574 will 
assure the realization of the 477 Initiative's potential now and into 
the future.
                                 ______
                                 
 Prepared Statement of Rhonda Pitka, Chairwoman, Council of Athabascan 
                       Tribal Governments (CATG)
    The Council of Athabascan Tribal Governments (CATG), a tribal 
consortium of ten Athabascan Indian Villages in the Yukon Flats, 
Alaska, is pleased to submit this statement in support of S. 1570, 
legislation to authorize advance appropriations for the Indian Health 
Service (IHS). We thank Senators Murkowski and Begich for introducing 
this legislation.
    Our region encompasses a large amount of federal public lands 
including all of the Yukon Flats National Wildlife Refuge and portions 
of the Arctic National Wildlife Refuge. The Gwich'in Athabascan Indian 
population of Alaska, occupies about 55,000 square miles in the 
Northern Interior of Alaska on the Yukon River drainage--this is 11,000 
square miles larger than the state of Pennsylvania. The villages are 
scattered over the vast valley called the Yukon Flats--half of them 
above the Arctic Circle.
    The Council of Athabascan Tribal Governments provides essential 
services to our member villages, including health care, natural 
resource protection and enhancement, and economic development 
opportunities. We focus on utilization of our own people's knowledge 
and talents to make better lives for ourselves through assumption of 
activities previously done only by outsiders and have Self-Governance 
agreements with the Indian Health Service, the Bureau of Indian Affairs 
and the U.S. Fish and Wildlife Service.
    The Yukon Flats Health Center provides primary health care, dental, 
diagnostic, behavioral health, radiology, telemedicine consultation, 
diabetic and medical travel assistance services. We have clinics in 
Arctic Village, Beaver, Birch Creek, Fort Yukon, and Venetie and a 
Community Health Aide Program. Our dental team travels one week out of 
the month to each of the CATG villages.
    S. 1570, Advance Appropriations for the Indian Health Service. The 
Senate Committee on Indian Affairs is well aware of the frustrations 
and inefficiencies caused by funding the Indian Health Service and 
other federal agencies via a series of start and stop Continuing 
Resolutions and final funding decisions being made months into the 
fiscal year. We are grateful to the Alaska delegation--Senators Begich 
and Murkowski and Representative Young--for taking the leadership in 
addressing the IHS portion of the problem by introducing legislation 
that would authorize advance appropriations for the IHS.
    The current (FY 2014) fiscal year funding was enacted 3 \1/2\ 
months after the beginning of the fiscal year; in FY 2013 enactment was 
6 months into the fiscal year. And following enactment, there is a 
couple month process of clearance through the agency and the Office of 
Management and Budget and then allotment to the Area Offices and 
finally to the tribes. Both the tribal and IHS programs suffer under 
this situation. It is no way to run a railroad. Tribal government and 
tribal health care employees want to do the best job possible in 
planning, decisionmaking and administering programs but are limited by 
not knowing how much funding will be available or when it will be 
available. It also requires constant re-working of our budget, time we 
would much rather devote to providing health care services. Especially 
affected are recruiting and hiring decisions.
    Congress has provided the authority for the Veterans Administration 
medical accounts funding (over $50 billion) to be appropriated on an 
advance basis. In the first year of an advance appropriations schedule 
Congress appropriates two years of funding, and thereafter funds are 
appropriated one year at a time, but one year in advance. So even if 
there are Continuing Resolutions, the IHS budget--if it were advance 
appropriated--would not be affected by them. The Appropriations 
Subcommittees on Interior, Environment and Related Agencies would not 
have their spending caps affected by advance appropriations as it 
counts against the Subcommittee's caps only in the year for which it is 
authorized to be obligated. Admittedly there would be a transition 
phase with regard to consultation, but that is doable and well worth 
the effort. We are already consulting with the IHS on the FY 2016 
budget in any event.
    The fact that Congress in 2010 enacted legislation (P.L. 111-81) to 
authorize advance appropriations for the Veterans Administration 
medical programs and that the Appropriations committees provided such 
funding is a compelling argument for tribes and tribal organizations to 
be given equivalent status with regard to IHS. Both systems provide 
direct medical care and both are the result of federal policies. 
Veterans organizations were alarmed at the impact of delayed and 
sporadic funding for veterans health services and led the charge for 
Congress to provide advance appropriations, and now tribes and tribal 
organizations are doing the same with regard to the IHS budget. We 
thank the Senate Committee on Indian Affairs for holding this hearing 
on legislation to authorize advance appropriations for the Indian 
Health Service and ask you to do everything possible to make the actual 
provision of advance appropriations a reality.
    Thank you.
                                 ______
                                 
 Prepared Statement of Robert TwoBears, Representative, Ho-Chunk Nation
Introduction
    Chairman Tester, Vice Chairman Barrasso and members of the 
Committee, I am pleased to submit this written statement on behalf of 
the Ho-Chunk Nation of Wisconsin (``Nation'') and its ``477'' Federal 
Program Division in support of the Indian Employment, Training and 
Related Services Consolidation Act (S. 1574).
    My name is Robert TwoBears, and I serve in the Nation's 
Legislature. The Nation, also known as ``People of the Big Voice,'' has 
a tribal enrollment of 7,200 members and our tribal headquarters is 
located in Black River Falls, Wisconsin. The Nation's lands are 
scattered across twelve counties in Wisconsin, Minnesota and Illinois.
    Thank you for the opportunity to submit written testimony for the 
Committee's consideration as it considers S. 1574. I also want to thank 
Senator Murkowski for taking the lead in developing and introducing the 
necessary changes to Pub.L. 102-477 (the Act of the ``477'' program) 
contained in S. 1574.
Summary of the Nation's ``477'' Federal Program Division
    The ``477'' program was launched in 1992 and authorized Indian 
tribes and tribal consortia to reach across the entire spectrum of 
federal employment training and related programs and administer them as 
a single, consolidated program. Using the ``477'' program, tribes are 
able to combine funding from thirteen programs from various 
departments, including Interior, Labor, and Health and Human Services 
into a single employment and training program for their members.
    The ``477'' program does not carry with it administrative or 
overhead funding, but it does enable them to reduce administrative, 
accounting, and reporting burdens and costs, and tailor employment and 
training programs to the needs of their local populations. Training 
without the prospect of a job does not help many people.
    To help tribes and consortia bridge the gap between employment 
training and job placement, Congress, in 2000, made the Act permanent 
and amended it to authorize the use of ``477'' funding for job creation 
activities such as development of business plans by individual 
entrepreneurs.
    Since 2001, the Nation's ``477'' program has provided employment 
services to enhance the Nation's tribal members' job skills by 
assisting them in becoming self-sufficient and providing workplace 
safety programs. On average, our program serves 294 clients each year. 
For instance, the program provides employability assessments combined 
with goal and objective planning and referral services.
    It also carries out training and classes to enable participants 
with little or no work experience to become ``Job Ready,'' thereby 
improving their chances of securing good-paying jobs. In addition, the 
program serves at-risk youth and helps them obtain their GED/HSED 
through a vocational experience program. The program works 
cooperatively with the Nation's Tribal Employment Rights Ordinance 
(TERO) Division to maximize job opportunities to tribal members by 
utilizing TERO case managers to conduct program intake and assessments.
    Recently-offered classes provided by the program include Cost 
Accounting, Economics, Powered Industrial Truck, Welding Certification, 
Roofing, Computer Graphic Design, Resume Writing, Certified Nurse Aide, 
CDL Training, Paralegal Prep, Grants Writing, Security, Cement 
Finishers Pre-Apprenticeship, and Real Estate Law, to name a few.
Ho-Chunk Nation's Success and Need for Congressional Action
    In recent years, a turn-over in program directors has slowed the 
program's progress. However, with a new program director now in place, 
services to tribal members are stabilizing and making real progress.
    Last year, 99 out of 141 participants received training from the 
program and secured gainful employment. While our ``477'' program is 
improving, the Nation's unemployment rate remains high at 31.6 percent. 
In addition, the lack of a driver's license for tribal clients is one 
of the single largest barriers to employment for our clients, and one 
of the most difficult to overcome.
    While the 1992 Act and amendments made in 2000 are valuable tools 
for tribal participants, the ``477'' program can be improved upon. We 
see S.1574 as providing much-needed statutory clarifications and 
program expansions to assist tribes across the country with their 
never-ending need for training and job placement.
The Indian Employment, Training and Related Services Consolidation Act 
        (S. 1574)
    Given the success of the Nation's ``477'' program, we strongly 
support provisions of the Indian Employment, Training and Related 
Services Consolidation Act (S. 1574).
    If enacted, this legislation would broaden the kind of programs and 
funding that can be combined into a single plan to include job 
training, welfare-to-work, job opportunities, skill development, Indian 
youth into the workplace, and the creation of opportunities.
    S. 1574 would also establish an interagency dispute resolution 
process, set deadlines for plan approval, grant tribes and Indian 
organizations hearing and appeal rights if the plan is not approved, 
reaffirm the current single agency audit process, and augment authority 
in the Act to use funds to support direct economic development and job 
creation.
    We respectfully urge swift consideration of S. 1574 by the 
Committee so that it can be considered by the full Senate.
                                 ______
                                 
    Prepared Statement of Timothy Schuerch, President/CEO, Maniilaq 
                              Association
    The Maniilaq Association is an Alaska Native regional non-profit 
organization representing twelve tribes in Northwest Alaska, providing 
health services through an Indian Self-Determination Act Self- 
Governance agreement with the Indian Health Service (IHS). We have been 
active for some time in advocating for legislation that would bring 
stability and certainty to the Indian Health Service budget by changing 
its funding to an advance appropriations basis, and thus we support S. 
1570, legislation that would make this possible. This is what Congress 
has done with regard to the Veterans Administration medical accounts, 
and we ask for comparable treatment with regard to the IHS. We prepared 
in 2012 a white paper on the issue of IHS advance appropriations and 
attach it.
    We are so proud and thankful to our Alaska delegation--Senators 
Murkowski and Begich and Representative Young for introducing 
legislation, S. 1570 and H.R. 3229, to authorize advance appropriations 
for the IHS. And we thank Senate Committee Chairman Tester (D-MT) and 
Committee members Schatz (D-HI) and Udall (D-NM) along with Senator 
Heinrich (D-NM) and former Senator Baucus (D-MT) for cosponsoring S. 
1570.
    There is momentum in Indian Country in recognizing and supporting 
advance appropriations for the IHS and point to resolutions in support 
of it by the National Indian Health Board, National Congress of 
American Indians, United South and Eastern Tribes and a steadily 
increasing number of individual tribes enacting supportive resolutions.
The Need for Indian Health Service Advance Appropriation
    The Federal health services to maintain and improve the health of 
American Indians and Alaska Natives are consonant with and required by 
the Federal Government's historical and unique legal relationship with, 
and resulting responsibility to, the American Indian and Alaska Native 
people. Since FY 1998 there has been only one year (FY 2006) when the 
Interior, Environment and Related Agencies appropriations bill has been 
enacted by the beginning of the fiscal year. The lateness in enacting a 
final budget during that time ranges from 5 days (FY 2002) to 197 days 
(FY 2011). In the last four fiscal years, the IHS appropriations have 
been signed into law far beyond the beginning of the fiscal year by--
197 days late for FY 2011; 84 days late for FY 2012; 178 days late for 
FY 2013 and 109 days late for FY 2014.
    Even after enactment of an appropriations bill, there is an 
apportionment process involving the Office of Management and Budget and 
then a process within the IHS for allocation of funds to the IHS Area 
Offices and then to the tribes and tribal organizations.
    Late funding causes the IHS and tribal health care providers great 
challenges in planning and managing care for American Indians and 
Alaska Natives. It significantly hampers tribal and IHS health care 
providers' budgeting, recruitment, retention, provision of services, 
facility maintenance and construction efforts. Receipt of funds late 
also severely impacts Maniilaq's ability to invest the funds and 
generate interest which can be used to offset the chronic underfunding 
of the region's health programs. Providing sufficient, timely, and 
predictable funding is needed to ensure the Government meets its 
obligation to provide health care for American Indian and Alaska Native 
people.
    In the case of the Maniilaq Association, we draft our budget for 
the coming fiscal year in the Spring--a budget which must be reviewed, 
amended, and approved during the ensuing months. However, if we find 
out that come October, as has been the case for far too many years, 
that Congress has not enacted an IHS appropriations bill, we are in 
limbo and must spend considerable staff time re-doing our budget, 
perhaps multiple times. We--and all tribes and tribal organizations--
are hampered by the uncertainty as to whether Congress will provide 
funding for built-in costs, including inflation and pay increases, what 
amount of funding we might have with regard to signing outside vendor/
and or medical services contracts, ordering supplies, and making 
crucial hiring decisions.
Advance Appropriations Explanation
    As you know, an advance appropriation is funding that becomes 
available one year or more after the year of the appropriations act in 
which it is contained. For instance, if FY 2016 advance appropriations 
for the IHS were included in the FY 2015 Interior, Environment and 
Related Agencies Appropriations Act, those advance appropriations would 
not be counted against the FY 2015 Interior Appropriations 
Subcommittee's funding allocation but rather would be counted against 
its FY 2016 allocation. It would also be counted against the ceiling in 
the FY 2016 Budget Resolution, not the FY 2015 Budget Resolution.
    To begin an advanced appropriations cycle there must be an initial 
transition appropriation which contains (1) an appropriation for the 
year in which the bill was enacted (for instance, FY 2015) and (2) an 
advance appropriation for the following year (FY 2016). Thereafter, 
Congress can revert to appropriations containing only one year advance 
funding. If IHS funding was on an advance appropriations cycle, tribal 
health care providers, as well as the IHS, would know the funding a 
year earlier than is currently the case and would not be subject to 
Continuing Resolutions. We note that advance appropriations are subject 
to across-the-board reductions.
The Veterans Administration Experience
    In FY 2010 the Veterans Administration (VA) medical care programs 
achieved advance appropriations. This came after many years of 
veterans' organizations advocating for this change, including enactment 
of the Veterans Health Care Budget Reform and Transparency Act of 2009 
(PL 111-81) which authorized advance appropriations and specified which 
appropriations accounts are to be eligible for advance appropriations. 
The Act required the Secretary to include in documents submitted to 
Congress in support of the President's budget detailed estimates of the 
funds necessary for the medical care accounts of the Department for the 
fiscal year following the fiscal year for which the budget is 
submitted.
    The fact that Congress has implemented advance appropriations for 
the VA medical programs provides a compelling argument for tribes and 
tribal organizations to be given equivalent status with regard to IHS 
funding. Both systems provide direct medical care and both are the 
result of federal policies. Just as the veterans groups were alarmed at 
the impact of delayed funding upon the provision of health care to 
veterans and the ability of the VA to properly plan and manage its 
resources, tribes and tribal organizations have those concerns about 
the IHS health system. We also note that there is legislation (H.R. 
813) pending in this Congress that would expand advance appropriations 
to the VA beyond its medical accounts.
    We thus request this Committee's active support for any legislation 
that may be needed to authorize IHS advance appropriations, to protect 
such funding from a point of order in the Budget Resolution, and to 
appropriate the necessary funds.
    Attachment

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                 ______
                                 
  Prepared Statement of Cathy Abramson, Chairperson, National Indian 
                          Health Board (NIHB)
    Chairman Tester, Vice Chairman Barrasso, and Members of the 
Committee, thank you for holding this important hearing on the proposed 
legislation. All of these proposed bills address issues of paramount 
importance to Indian Country and we sincerely appreciate the attention 
that this committee has given to the discussion of these key concerns. 
On behalf of the National Indian Health Board (NIHB) \1\ and the 566 
federally recognized Tribes we serve, I submit this testimony for the 
record, specifically addressing S. 1570--Indian Health Service Advance 
Appropriations Act.
---------------------------------------------------------------------------
    \1\ The National Health Board (NIHB) is a 501(c) 3 not for profit, 
charitable organization providing health care advocacy services, 
facilitating Tribal budget consultation and providing timely 
information and other services to all Tribal Governments. Whether 
Tribes operate their own health care delivery systems through 
contracting and compacting or receive health care directly from the 
Indian Health Services (IHS), NIHB is their advocate. Because the NIHB 
serves all federally-recognized tribes, it is important that the work 
of the NIHB reflect the unity and diversity of Tribal values and 
opinions in an accurate, fair, and culturally-sensitive manner. The 
NIHB is governed by a Board of Directors consisting of representatives 
elected by the Tribes in each of the twelve IHS Areas. Each Area Health 
Board elects a representative and an alternate to sit on the NIHB Board 
of Directors.
---------------------------------------------------------------------------
    First, I would like to emphasize the importance of the Federal 
Trust responsibility, when it comes to the health of American Indian/
Alaska Native (AI/AN) people. The United States assumed this 
responsibility in a series of treaties with Tribes, exchanging 
compensation and benefits for Tribal land and peace. The Snyder Act of 
1921 (25 U.S.C. 13) legislatively affirmed this trust responsibility. 
To facilitate upholding its responsibility, the federal government 
created the Indian Health Service (IHS) and tasked the agency with 
providing health services to AI/ANs. Since its creation in 1955, IHS 
has worked toward fulfilling the federal promise to provide health care 
to Native people. In passing the Affordable Care Act, Congress also 
reauthorized and made permanent the Indian Health Care Improvement Act 
(IHCIA). In renewing the IHCIA, Congress reaffirmed the duty of the 
federal government to American Indians and Alaska Natives, declaring 
that ``it is the policy of this Nation, in fulfillment of its special 
trust responsibilities and legal obligations to Indians--to ensure the 
highest possible health status for Indians and urban Indians and to 
provide all resources necessary to effect that policy.''
    Despite this responsibility, AI/ANs still experience greater health 
disparities than other races. For instance, the AI/AN life expectancy 
is 4.2 years less than the rate for the U.S. all races population. 
According to IHS data from 2006-2008, AI/AN people die at higher rates 
than other Americans from chronic liver disease and cirrhosis (368 
percent higher), diabetes (177 percent higher), unintentional injuries 
(138 percent higher), homicide (82 percent higher) and suicide (65 
percent higher). Additionally, AI/ANs suffer from higher mortality 
rates from cervical cancer (1.2 times higher); pneumonia/influenza (1.4 
times higher); and maternal deaths (1.4 times higher).
    Sadly, these statistics have become all too familiar in our 
communities. IHS is currently funded at only 59 percent of total need. 
In 2013, the IHS per capita expenditures for patient health services 
were just $2,849, compared to $7,717 per person for health care 
spending nationally. Medicare spending per patient was over $12,000 and 
Medicaid spending was over $6,000/per person. Clearly, the federal 
government is not doing a good job of fulfilling its legal and moral 
obligations to Indian Country. Additionally, Medicare and Medicaid are 
mandatory spending accounts, meaning that the health delivery to these 
groups is known well in advance of the actual care needed.
    This is why the NIHB strongly supports S. 1570--The Indian Health 
Service Advance Appropriations Act and the House companion bill H.R. 
3229. While S. 1570 will not solve the severe lack of funding that the 
agency experiences, advance appropriations would allow IHS/Tribal and 
urban (I/T/U) health programs to effectively and efficiently manage 
budgets, coordinate care, and improve health quality outcomes for AI/
ANs. This change in the appropriations schedule creates an opportunity 
for the federal government to come closer to meeting the trust 
obligation owed to Tribal governments and bring parity to federal 
health care system by brining IHS in line with other federal health 
programs.
Funding Delays and Impact on Care
    Since FY 1998, there has been only one year (FY 2006) when the 
Interior, Environment, and Related Agencies budget, which contains the 
funding for IHS, has been enacted by the beginning of the fiscal year. 
The lateness in enacting a final budget during that time ranges from 5 
days (FY 2002) to 197 days (FY 2011). In FY 2014, there was a 108 day 
delay on the enactment but it was 140 days before the FY 2014 operating 
plan which allocates specific accounts was known. These delays make it 
very difficult for Tribal health providers and IHS to adequately 
address the health needs of AI/ANs. Even once appropriations is 
enacted, there is an administrative process of apportionment involving 
the Office of Management and Budget that causes delay in actually 
getting funding down to the local level. Advance appropriations will 
allow IHS and Tribal health professionals time to plan and tackle many 
other administrative hurdles, thereby improving access to care. 
Additionally, it will result in costs savings through lower 
administrative costs as significant staff time, at all levels, is 
required each time Congress decides to pass a continuing resolution.
    Nothing underscores this need more clearly than the federal 
government shutdown at the start of FY 2014. Not only did this period 
prevent Tribal and IHS facilities from providing care, it came at a 
time when programs were already operating with minimal budgets due to 
the draconian, and irresponsible FY 2013 across- the- board 
sequestration cuts. The two week government shutdown forced Tribally-
run health programs to close their doors and deny care to thousands of 
AI/ANs. The Crow Nation furloughed 300 Tribal employees during this 
time. Others were only able to treat ``life or limb'' cases due to the 
lack of an operating budget. As a result, AI/AN population experienced 
additional suffering. Other Americans do not have to live with this 
reality. The First people of the United States should not be last in 
line when it comes to receiving their health care.
    Even without events as extreme as a federal government shutdown, 
funding delays contribute to other health risks for AI/ANs. Sadly, it 
is often a saying in our communities, ``Don't get sick after June 1'' 
because this is often when dollars to treat patients through the 
Purchased/Referred Care program run out. However, if Tribal and IHS 
programs had advance appropriations, they could better plan their 
patients' care over a longer period of time. Currently, when funding 
becomes scarce, I/T/U medical professionals often prescribe treatments 
that address only symptoms, and not the disease. This `Band-Aid' type 
of care contributes to a wide variety of other medical risks that are 
more costly and can be detrimental to the person over the long term. 
Advance appropriations would mean better ability to plan programmatic 
activity over several years, thereby leading to better health outcomes 
for AI/AN people and decreased long-term healthcare costs.
    Funding delays also often impact recruitment and retention of IHS 
medical professionals. Many IHS and Tribal health facilities are 
located in remote, rural areas where staff recruitment is especially 
difficult. This is true throughout the rural United States, not just in 
Indian Country. However, it becomes impossibly difficult to recruit 
staff if it is not known whether a position will be funded in two 
months. Giving medical professionals attractive job opportunities that 
spans longer than a year benefits Tribal communities by providing 
stability for AI/ANs and the quality that comes with medical 
professionals familiar with their patients. Additionally, these 
professionals can provide a higher level of cultural competency which 
is learned over a sustained amount of time.
Veterans Administration Advance Appropriations
    In FY 2010, the Veterans Health Administration (VHA) achieved 
advance appropriations. IHS, like the VHA provides direct medical care 
to fulfill legal promises made by the federal government. In the 111th 
Congress, which ultimately enacted the advance appropriations for the 
VHA, the House bill (H.R. 1016) had 125 bi-partisan cosponsors. The 
Senate bill (S. 423) had 56 co-sponsors. Importantly, the Congressional 
Budget Office ruled at the time that the act ``would not affect direct 
spending or revenues.''
    IHS, like the VHA, provides direct care to patients as a result of 
contractual obligations made by the federal government. To NIHB and 
Tribes, enacting S. 1570 is a civil rights issue and a matter of 
equality. Like Veterans, Tribal communities have made sacrifices for 
this country, both historically and contemporarily. However, under the 
current funding mechanism, AI/ANs do not have the same stability in the 
care they are provided.
Unity in Indian Country
    Tribes and organizations are supporting advance appropriations for 
IHS. Attached to this testimony are resolutions and letters from the 
United South and Eastern Tribes; the California Rural Indian Health 
Board; Alaska Native Health Board; Midwest Alliance of Sovereign 
Tribes; the Northwest Portland Area Indian Health Board; the Oklahoma 
City Area Inter-Tribal Health Board; the Inter Tribal Council of the 
Five Civilized Tribes; and the Three Affiliated Tribes. NIHB will 
continue to share these supportive documents with the committee as they 
are received.
    It should also be noted that Tribes are ready and willing to engage 
with the government in advance consultation for the IHS budget should 
S. 1570 be enacted. The IHS Tribal Budget Formulation Workgroup already 
proposes its budget two years in advance, so this transition would not 
be difficult for Tribes. IHS officials have also stated publicly that 
they are engaged in conversations with the VHA on how this budgeting 
mechanism will work.
Conclusion
    Medicare and Medicaid provide health care to millions of Americans, 
but these individuals do not have to worry on September 30 of each year 
if they will be treated on October 1 because they are considered 
``mandatory spending.'' The VHA provides care through discretionary 
spending, but still knows its budget a year in advance. Despite being 
founded on contractual treaty obligations and federal law, the 
requirement to fund the IHS is still discretionary. Our people must 
still wait on the whims of Congress before they can know if their 
health care is funded. Advance appropriations will be one important 
step forward toward improving the health of AI/ANs.
    NIHB would like to again thank Senator Murkowski for introducing 
this important legislation and Chairman Tester for holding this hearing 
on S. 1570. We urge the Committee to quickly markup and favorably 
report this critical bill as quickly as possible.
    Thank you.
                                 ______
                                 
     Prepared Statement of Hon. Delores Pigsley, Tribal Chairman, 
                 Confederated Tribes of Siletz Indians
    My name is Delores Pigsley and I am the Tribal Chairman of the 
Confederated Tribes of Siletz Indians. The purpose of this testimony is 
to respectfully support S. 1574, the Indian Employment, Training and 
Related Services Consolidation Act of 2013, introduced by Senator 
Murkowski on October 16, 2013. The bill will make permanent the 
demonstration project begun in 1992 with Pub. L No. 102-477 and will 
clarify the congressional intent that Tribes and tribal organizations 
carrying out consolidated programs under the Act may continue to 
receive funds through the Indian Self-Determination and Education 
Assistance Act (ISDEAA), Pub. L 93-638, as amended, and may continue to 
use and account for those funds pursuant to each Tribe's approved 
consolidated (477) plan.
    In making P.L. 102-477 a permanent part of Indian Country 
legislation, S. 1574 introduces several changes that will enhance the 
opportunities for Tribes and tribal organizations to take advantage of 
diverse resources in order to produce locally appropriate programs that 
facilitate real employment in Indian County. One significant change 
will add eligible employment related programs from the Departments of 
Agriculture, Commerce, Education, Energy, Transportation and other 
agencies that Tribes will be able to draw on in designing their own 
employment-related programs consolidated in an approved 477 plan.
    S. 1574 will streamline the process for plan approval, and includes 
important language in regards to consolidation and reallocation of 
funds that Tribes have requested for years. This bill will enhance the 
ability of Tribes to obtain waivers from regulatory impediments and 
will allow Tribes to recover indirect costs for all programs that are 
included in a 477 plan. At the same time, it eliminates administrative 
redundancy by merging program and financial reporting requirements, all 
while still adhering to the Government Performance Results Act's 
stringent accountability standards. The Confederated Tribes of Siletz 
Indians strongly supports these changes. Tribes, alone, decide which 
programs or combination of programs to combine into a 477 Plan. This 
structure affords maximum local flexibility and full accountability, 
which accounts for the fact that the 477 Initiative has to date, 
received the highest OMB PART rating of any program in Indian Country.
    The Confederated Tribes of Siletz Indians has operated a successful 
477 Program since 1997. Our approved 477 plan incorporates funding from 
the Department of Health and Human Services (TANF), Bureau of Indian 
Affairs (General Assistance) and the Department of Labor (WIA Adult and 
Youth). The ability to consolidate funding into one plan and budget has 
allowed the Siletz Tribe to reduce administrative costs, streamline 
services and provide a quality ``one stop shop'' for education and 
employment related services for not only Siletz Tribal members, but 
members of many other Tribes as well. We served at total of 559 
participants in 2013 and showed significant success rates. The program 
reported that 70 participants entered unsubsidized employment and the 
overall earnings gain was $11.54/hr in wages. Participants throughout 
our eleven county service area are benefiting greatly from our 477-Self 
Sufficiency Program.
    Enactment of S. 1574 will confirm the successful and innovative 
employment initiatives embodied in P.L. 102-477, and enhance the 
ability of the Siletz Tribe to carry out the consolidated programs as 
intended under the Act. The 477 program has worked well for over 20 
years by allowing the design of tribe-specific employment, education 
and economic development programs that meet the needs of the people we 
serve.
    The Confederated Tribes of Siletz Indians requests your support for 
S. 1574 to assist us in lowering the unemployment rate in Indian 
Country and we appreciate your continued support of tribal self-
determination and self-governance.
                                 ______
                                 
    Prepared Statement of the United South and Eastern Tribes, Inc.
    The United South and Eastern Tribes, Inc. (USET) is pleased to 
provide the Senate Committee on Indian Affairs with the following 
testimony in support of S. 1570, legislation that would authorize 
advance appropriations for the Indian Health Service (IHS). Advance 
appropriations is funding that becomes available one year or more after 
the year of the appropriations act in which it is contained, allowing 
for increased certainty and continuity in the provision of services.
    USET is a non-profit, inter-tribal organization representing 26 
federally recognized Indian Tribes from Texas across to Florida and up 
to Maine. \1\ Both individually, as well as collectively through USET, 
our member Tribes work to improve health care services for American 
Indians. Our member Tribes operate in the Nashville Area of the IHS, 
which contains 36 IHS and Tribal health care facilities. Tribal members 
may receive health care services at IHS facilities, as well as in 
Tribally operated facilities operated under contracts with IHS pursuant 
to the Indian Self-Determination and Education Assistance Act (ISDEAA), 
P.L. 93-638.
---------------------------------------------------------------------------
    \1\ USET member Tribes include: Eastern Band of Cherokee Indians of 
North Carolina, Chitimacha Tribe of Louisiana, Mississippi Band of 
Choctaw Indians, Cayuga Nation of New York, Coushatta Tribe of 
Louisiana, Miccosukee Tribe of Florida, Saint Regis Mohawk Tribe of New 
York, Passamaquoddy Tribe at Pleasant Point of Maine, Passamaquoddy 
Tribe at Indian Township of Maine, Penobscot Indian Nation of Maine, 
Seminole Tribe of Florida, Seneca Nation of New York, Houlton Band of 
Maliseet Indians of Maine, Poarch Band of Creek Indians of Alabama, 
Tunica-Biloxi Tribe of Louisiana, Narragansett Indian Tribe of Rhode 
Island, Mashantucket Pequot Indian Tribe of Connecticut, Wampanoag 
Tribe of Gay Head (Aquinnah) of Massachusetts, Alabama-Coushatta Tribe 
of Texas, Oneida Nation of New York, Aroostook Band of Micmac Indians 
of Maine, Catawba Indian Nation of South Carolina, Jena Band of Choctaw 
Indians of Louisiana, Mohegan Tribe of Connecticut, Mashpee Wampanoag 
Tribe of Massachusetts and the Shinnecock Indian Nation of New York.
---------------------------------------------------------------------------
Background
    As recognized in statute and upheld through the courts, the United 
States government has a trust responsibility to provide for the health 
and welfare of federally recognized American Indian Tribes. The IHS is 
the primary agency tasked with ensuring that the federal government 
fulfills its promise to provide health care to American Indians and 
Alaska Natives (AI/AN). Unfortunately, as this Committee well knows, 
the IHS remains funded at only 56 percent what is required to fulfill 
its mission. Although the IHS budget has grown 29 percent since Fiscal 
Year (FY) 2008, this funding is barely able to meet non-medical 
inflation rates and is completely unable to meet the rates of medical 
inflation.
    In addition to chronic underfunding, the Agency and the Tribes 
operating facilities under ISDEAA face the problem of discretionary 
funding that is almost always delayed. In fact, since FY 1998, there 
has only been one year (FY 2006) in which appropriated funds for the 
IHS were released prior to the beginning of the new fiscal year. Delays 
range from 5 days in FY 2002 to 197 days in FY 2011. Appropriations for 
this year, FY 2014, were over three months late and precipitated by a 
full government shutdown. As the Committee is aware, delays are most 
often caused by a Congressional failure to enact prompt appropriations 
legislation.
Consequences of Delayed Appropriations
    Late funding has severely hindered IHS and Tribal health care 
providers' ability to administer the care to which AI/AN are legally 
entitled. Budgeting, recruitment, retention, the provision of services, 
facility maintenance, and construction efforts all depend on annual 
appropriated funds. IHS and Tribal facilities must continue to operate 
while Congress engages in philosophical debates about federal spending. 
However, they are forced to do so at a severely reduced capacity. In a 
world where it is not unusual to exhaust funding before the end of the 
Fiscal Year, surgeries are delayed, services are reduced, and 
employment is in jeopardy.
    USET Tribes report tangible impacts from longer delays, including 
the suspension of transportation services and youth programs, and 
having to lay off staff. Facilities with limited or no funds remaining 
in purchased/referred care programs must defer care for many Tribal 
citizens who are truly in need of services; those in need of joint 
replacement, for example. In these cases, patients are given 
prescription pain medication and told to wait. By the time funding is 
finally appropriated, our people have become sicker and in some cases, 
dependent on prescription drugs.
Parity With the Veteran's Administration
    Congress has recognized the difficulties inherent in the provision 
of direct health care that relies on the appropriations process and 
traditional funding cycle. When it became clear that our nation's 
veterans were not able to receive the quality health care earned in the 
protection of this country due to funding delays, advance 
appropriations were enacted for the Veterans Administration (VA) 
medical care accounts. Advance appropriations serve to mitigate the 
effect of delayed and, at times, inadequate funding for the VA. As the 
only other federal provider of direct health care and a consistently 
underfunded agency, IHS should be afforded this same consideration and 
certainty.
Conclusion
    Funding for Indian health care should not fall victim to Congress' 
inability to successfully pass appropriations, as the lives of AI/AN 
across the country quite literally hang in the balance. USET strongly 
supports S. 1570, which presents a no-cost \2\ solution to the effects 
of delayed funding on the Indian Health System. With certainty in 
funding, IHS and Tribal facilities are able to plan and budget 
appropriately, allowing for a greater focus on patients and the 
continuity of care that they deserve.
---------------------------------------------------------------------------
    \2\ CBO Cost Score, H.R. 1016, Veterans Health Care Budget Reform 
and Transparency Act of 2009, June 16, 2009.
---------------------------------------------------------------------------
    We thank the Committee for holding a hearing on S. 1570 and the 
many Members of the Committee who support the bill. As always, please 
count USET as a willing partner in your efforts to see that advance 
appropriations for the Indian Health Service are enacted. Together, we 
can help raise the health status of and provide healthier futures for 
our nation's first people.
                                 ______
                                 
               Supplemental Testimony by Margaret Zientek
    Chairman Tester and Members of the Committee: Thank you for the 
opportunity to provide supplemental testimony on the proposed S. 1574 
on behalf of the P.L. 102-477 Tribal Work Group and the Citizen 
Potawatomi Nation.
    Testimony from Kevin Washburn and Lillian Sparks Robinson on behalf 
of the Departments of Interior and Health and Human Services, 
respectively, demonstrates exactly why amendments to the current 
statute are necessary to make this innovative program permanent, expand 
the types and sources of funding eligible to be included in a 477 plan, 
to establish protective review procedures and address new issues that 
have only arisen in response to agency resistance to tribal self-
determination. The legislation is also necessary to ensure that the 
spirit, the letter and the opportunities of the P.L. 102-477 law will 
provide for the next century's success in meeting the employment and 
training needs of Alaska Native and American Indian people across the 
country.
    We appreciate the Department of Interior's support for 477 and for 
this legislation, and its candor in identifying areas of concern. We 
look forward to working with the Committee to address what questions 
remain to guarantee that the way in which the 477 Initiative has worked 
in terms of operating on one plan, one budget and one report for the 
last twenty-plus years continues to offer the success to employment and 
training and lifelong sustainability in Indian country.
Kevin Washburn Assistant Secretary Testimony
    Agree with Mr. Washburn's testimony and support:

  <bullet> It is time to make this program permanent which as operated 
        for over two decades as a demonstration program. When agencies 
        collaborate to surmount bureaucratic obstacles, consolidate 
        programs, and deliver desperately-needed services on a one-stop 
        basis, we can more promptly and efficiency address joblessness 
        and social distress in Native communities.

  <bullet> One of the reasons that the 477 program is so successful is 
        that it requires federal agencies to cooperate to better 
        deliver services to tribes.

    Statements in Mr. Washburn's testimony require clarification or 
response:

        1.  We do not agree that the financial reporting system 
        developed by the Administrative Flexibility Work Group (AFWG) 
        is ``simplified''. In fact, the current system of reporting and 
        the dictates of the Single Audit Act are more simple than the 
        proposal and more than adequate to cover both accountability 
        and the streamlined, simple process contemplated by the 
        statute. This is substantiated by the OMB PART scores received 
        in a review of the 477 Reporting.

        2.  We agree that the approval process has improved in the 
        recent past, but legislative structure will ensure that future 
        changes in administration do not undermine the accomplishments 
        of the last two years AFWG collaboration.

        3.  The section of the proposed legislation that ``would 
        prohibit a Tribe or tribal organization from being required to 
        submit any additional budget, report, audit or supplemental 
        audit or other documentation after its plan is approved'' is 
        necessary precisely to clarify that Congress does not intent 
        multiple reports from a program that has operated so 
        successfully for over two decades. (emphasis added).

        4.  Mr. Washburn expresses concerns with a 90-day time limit 
        for federal response to a tribal request for a waiver of 
        statutory, regulatory, or administrative requirements that 
        prevent the tribe or tribal organization from efficiently 
        implementing its plan. However, he also outlines an 80 day plan 
        approval process that agencies are now using. This would 
        certainly lend support that the 90-day time limit is feasible.

        5.  Mr. Washburn also stated: That certain provisions of S. 
        1574 that seem to subvert that spirit of cooperation by giving 
        the Secretary of the Interior the exclusive authority to 
        approve or disapprove a proposed plan without the input of the 
        other affected federal partners. This also pertains to the 
        provisions that would approve a plan if the Secretary took no 
        action on it within the 90 days of receiving it. It is 
        unfortunate but history makes this clause necessary. Some 
        tribes have experienced significantly longer delays in 
        responses and/or never received responses. This provision only 
        reaffirms that DOI has the leadership role.

Lillian Sparks Robinson Commissioner Testimony
    Agree with Ms. Sparks Robinson testimony and support:
    We appreciate the Department of Health & Human Services' 
willingness to participate in the lengthy conversations and meetings 
over the duration of the AFWG, and the leadership within the Department 
that looked for ways in which the HHS programs could support the 
flexibility and successes of the 477 Initiative across the nation. The 
AFWG did indeed ``identify. . .flexibilities within the law that allow 
tribes to consolidate. . .477 funds for the purpose of supporting 
economic development'' and strengthened the relationships both between 
the tribes and the federal agencies, as well as between the agencies 
participating in the program.
    Statements in Ms. Sparks Robinson testimony require clarification 
or response:

        1.  The federal agencies made the decision to submit the 
        reporting forms and instructions to the review process under 
        the Paperwork Reduction Act. The changes in the reporting forms 
        and instructions are not due to the Paperwork Reduction Act. 
        These changes reflect an increase in reporting not a reduction.

        2.  Tribal representatives on the AFWG never advocated that the 
        contract support cost provisions of the Indian Self-
        Determination and Education Assistance Act (ISDEAA) accrued to 
        Tribes as a product of utilizing the contracts and compacts 
        under ISDEAA as the vehicle by which 477 funds were distributed 
        to Tribes and tribal organizations. On the contrary, tribal 
        representatives specifically stated and assured that only the 
        contract support costs to which Tribes and tribal organizations 
        were already entitled under the Department of Interior programs 
        were retained under their agreements. Other attributes of 
        contracting, such as using matching funds to match other 
        federal programs, do continue as part of the 638 contract 
        process, but due to this disagreement in interpretation of the 
        law, need to be clarified by legislation.

        3.  The tribal representatives disagreed with the agencies' 
        interpretation that the 477 Initiative did not already grant 
        the ability to re-budget and re-program within an already 
        approved Plan.

        4.  The legislation does not remove the requirement for any 
        report or audit--for over twenty years, Tribes and tribal 
        organizations have provided in-depth reports of the activities 
        and outcomes of the funds they manage under the 477 Initiative, 
        and 477 received the highest OMB PART rating in Indian Country. 
        Accountability to the public for the funds placed in the 
        Tribes' and tribal organizations' trust has a proven track 
        record. The current reporting system has ensured that 
        accountability. Clarifying these disagreements is a primary 
        goal of the legislation before this Committee.

        5.  For a number of years, there has been disagreement between 
        the tribes and some Federal agencies about auditing and 
        reporting requirements governing P.L. 477 projects. The only 
        agency which has raised any question was HHS. In fact over many 
        years, 477 Tribes were unsuccessful in getting HHS to provide 
        detail as to what was their concern? During the AFWG, it was 
        finally highlighted that HHS had ``concerns with the financial 
        reporting.'' This was despite no intervening problems. And with 
        the highest OMB PART rating of any DOI program.

        6.  The provisions in legislation to expand the 477 program , 
        HHS believes is well beyond the initial purpose of integrating 
        employment and training programs and related social service 
        programs. This provision is critical for the continued success 
        of the 477 initiative. Programs operated under a 477 Plan are 
        actually reviewed on a more frequent basis than programs 
        operated outside of 477 and have demonstrated a more efficient 
        and tribally driven approach to address the needs of our 
        communities.

    Last, in regard to the testimony related to the purpose of the 
ISDEAA and the reference to Navajo Nation v. Department of Health and 
Human Services: In October 2008 DOI and HHS announced that they would 
end the practice of transferring 477 Program funds to participating 
tribes through agreements under ISDEAA. As a basis for the action the 
agencies cited the court's ruling in Navajo Nation v. Department of 
Health and Human Services, 325 F.3d 1133 (9th Cir. 2003), a case that 
did not involve the administration of the 477 Program. In that case the 
court held that an Indian tribe could not administer TANF under a 638 
contract. The court did not address the administration of TANF under 
477. The court simply concluded that TANF is not a contractible program 
under the ISDEAA because it is (1) not a program or service ``otherwise 
provided'' to Indians under federal law, 25 U.S.C.  450b(j), and (2) 
not a program ``for the benefit of Indians because of their status as 
Indians,'' 25 U.S.C.  450f(a)(1)(E).
    There is a enormous difference between being compelled under the 
ISDEAA to contract the TANF program, and choosing to transfer TANF 477 
funds through such contracts. For over 20 years HHS has transferred 477 
funds in this manner--not because the ISDEAA mandated it but because 
doing so made sense and was not prohibited by law. The 477 Tribes have 
consistently argued that 477 plans can be funded through the ISDEAA, 
and that the Navajo Nation case in particular does not bar the fund 
transfers currently implemented for the Program. The relevant law is 
the 477 Act, administered by the BIA, not the numerous and varied 
agency programs (such as TANF) that can be integrated into a tribal 477 
Plan. In fact, the Act provides for administration of the program 
through the Department of the Interior, including transfer of HHS and 
DOL agency program funds to the BIA, which then transfers the funds to 
the tribes.
    The key to understanding the 477 Act is that the 477 Act is 
administered by the Department of the Interior under the Secretary of 
the Interior. The Secretary of the Interior has the authority to 
approve or disapprove a tribal plan, which must be done within 90 days 
of submittal. 25 U.S.C.  3407. The Act provides for the Secretary of 
the Interior to ``cooperate'' with and ``consult'' with other affected 
agency Secretaries, \1\ but it is the Secretary of the Interior who 
``shall, upon receipt of a plan acceptable to the Secretary of the 
Interior submitted by an Indian tribal government, authorize the tribal 
government to coordinate, in accordance with such plan, its federally 
funded employment, training, and related service programs in a manner 
that integrates the program services involved into a single, 
coordinated, comprehensive program and reduces administrative costs by 
consolidating administrative functions.'' 25 U.S.C.  3403 (emphasis 
added).
---------------------------------------------------------------------------
    \1\ See 25 U.S.C.   3403 (integration of services authorized) and 
3406 (plan review).
---------------------------------------------------------------------------
    Moreover, the 477 Program is an Interior ``program, service, 
function or activity'' that is available to tribes with consolidated 
funds from Interior and appropriations from other agencies. The federal 
programs that may be integrated into a tribal 477 Plan ``include any 
program under which an Indian tribe is eligible for receipt of funds 
under a statutory or administrative formula for the purpose of 
assisting Indian youth and adults to succeed in the work force, 
encouraging self-sufficiency, familiarizing Indian youth and adults 
with the world of work, facilitating the creation of job opportunities 
and any services related to these activities.'' 25 U.S.C.  3404 
(emphasis added).
    The 477 Act thus fits the Navajo Nation Court's criteria that 
ISDEAA-eligible programs are those ``specifically targeted to 
Indians.'' The 477 Program is one provided for tribes by virtue of 
their status as Indians because only tribes can take advantage of it. 
Its targeted purpose is to facilitate employment opportunities for 
Indian youth and adults, as well as to encourage tribal self-
sufficiency consistent with self-determination principles.
    The fact that HHS has again raised this issue further identifies 
the need for amendments to the current law. First of all, as described 
above, the Navajo Nation case does not apply to funds transferred from 
the Department of Interior under the 477 Initiative. Secondly, all 
three HHS programs currently participating in the 477 Initiative are 
``tribal'' programs: ``Tribal TANF,'' ``Tribal Child Care,'' and 
``Native Employment Works.'' Finally, Congress has the authority to 
authorize the fund transfer mechanism under the ISDEAA if necessary, 
and as proposed in S. 1574.
Conclusion
    As a 477 Tribal organization and a constant member of the 
Administrative Flexibility Work Group, on behalf of the Citizen 
Potawatomi Nation and as Co-Chair of the P.L. 102-477 Tribal Work 
Group, I am grateful the work that the federal agencies put into 
improving relations and operations of the 477 Initiative. We appreciate 
the opportunity to address particular points raised in their testimony 
before this Committee, and to further articulate the necessity for 
clarifying why S. 1574 is so important to the continued success of the 
477 Initiative to improve the lives of American Indian and Alaska 
Native people throughout the country. This program is essential to our 
ability to meet the needs of our people in innovative and efficient 
ways that allow us to provide wrap around services designed on a model 
of integration and maximum efficiency, leveraging funds and human 
resources to make the greatest impact for our people.
                                 ______
                                 
  Letter in Support of S. 1570, Submitted by Hon. Scott N. BigHorse, 
                     Principal Chief, Osage Nation
    Dear Chairman Tester and Vice Chairman Barrasso:
    On behalf of the Osage Nation we offer this letter of support for 
S. 1570, the Indian Health Service Advance Appropriations Act of 2013 
which provides advance appropriations for the Indian Health Service 
(IHS), and urge you to co-sponsor this legislation. Osage Nation 
believes that providing appropriations one year in advance will enable 
the IHS to better serve American Indian/Alaska Native (AI/AN) 
communities and would help ensure that the Government meets its trust 
obligation to native people. Specifically, IHS and Tribally run 
programs would benefit from improved budgeting, retention, recruitment 
provision of services, facility maintenance and construction efforts.
    Since FY 1998, appropriated funds for medical services and 
facilities through IHS have not been provided before the commencement 
of the new fiscal year, causing IHS and Tribal providers great 
challenges in planning and managing care for AI/ANs. Although the IHS 
budget has increased by a historic 29 percent since 2008, this equates 
to an average of 7.25 percent per year, barely enough to cover medical 
and non-medical inflation and the cost of contract health care for our 
growing population. Additionally, when automatic budget rescissions and 
sequestration are taken into account, IHS has lost $240 million since 
FY 2011. Both serious budgetary increases and changes to resources 
supporting this health care system are necessary if we are going to 
effectively address the growing gap in health disparities, which has 
resulted in early death, and preventable, expensive chronic care costs 
for AI/ANs of all ages.
    The lateness in enacting a final budget ranges from five days (FY 
2002) to 197 days (FY 2011), making quality budget planning almost 
impossible. Health care services in particular require consistent 
funding to be effective. In FY 2010, the Veterans Administration (VA) 
medical care programs achieved advance appropriations. The fact that 
Congress has implemented advance appropriations for the VA medical 
programs demonstrates the importance of advance appropriations for 
direct health service agencies. Just as the veterans groups were 
alarmed at the impact of delayed funding upon the provision of health 
care to veterans and the ability of VA to properly plan and manage its 
resources, Tribes and Tribal organizations have those concerns about 
the IHS health system.''
    If IHS funding was on an advance appropriations cycle, Tribal 
health care providers, as well as the IHS, would know the funding a 
year earlier and their health care services would not be stymied by 
continuing resolutions. This would lead to greater outcomes for 
patients in IHS, Tribal and Urban (I/T/U) programs. For example, 
hospital administrators would have the ability to continue treating 
patients without wondering if they had to de-fund facilities or 
programs. Additionally, IHS administrators would not waste valuable 
resources in an agency funded at only 56 percent of need by re-
allocating the budget each time Congress passed a continuing 
resolution. Tribal health providers would know in advance how many 
physicians and nurses they could hire without wondering if funding for 
positions would be available from month to month.
    Osage Nation relies heavily on funding from Indian Health Services 
for the operations of our health program and departments. These funds 
are vital to our constituents who have no other means of meeting their 
health needs on a daily basis. These constituents, as well as the Osage 
Nation Health programs, budget and plan on the funds we receive from 
Indian Health Services. Any delay in these funds has an immediate 
impact on the health and welfare of our constituents. Many of our 
diabetic patients cannot wait weeks or months for their diabetic 
supplies or to be seen and monitored. Delay in funding, has a direct 
impact on the lives of these patients and many others that depend 
solely on the Osage Nation Health programs as their only source of 
medical treatment and outreach.
    We appreciate the opportunity to offer this letter of support for 
S. 1570.
                                 ______
                                 
   Letter in Support of S. 1570, Submitted by Diana Autaubo, Chair, 
              Oklahoma City Area Inter-Tribal Health Board

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Letter in Support of S. 1570, Submitted by Hon. Robert Shepherd, Tribal 
                   Chairman, Sisseton-Wahpeton Oyate

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Letter in Support of S. 1570, Submitted by Hon. Tex G. Hall, Chairman, 
                  Mandan, Hidatsa, and Arikara Nation
    On behalf of the MHA Nation we offer this letter of support for the 
provision of advance appropriations for the Indian Health Service (IHS) 
as address in S. 1570 that will be heard before the Senate Indian 
Affairs Committee on April 2, 2014. MHA believes that providing 
appropriations one year in advance will enable the IHS to better serve 
American Indian/Alaska Native (AI/AN) communities and would help ensure 
that the Government meets its trust obligation to native people. 
Specifically, IHS and Tribally run programs would benefit from improved 
budgeting, retention, recruitment provision of services, facility 
maintenance and construction efforts.
    Since FY 1998, appropriated funds for medical services and 
facilities through IHS have not been provided before the commencement 
of the new fiscal year, causing IHS and Tribal providers great 
challenges in planning and managing care for AI/ANs. Although the IHS 
budget has increased by an historic 29 percent since 2008, this equates 
to an average of 7.25 percent per year, barely enough to cover medical 
and non-medical inflation and the cost of contract health care for our 
growing population. Additionally, when automatic budget rescissions and 
sequestration are taken into account, IHS has lost $240 million since 
FY 2011. Both serious budgetary increases and changes to resources 
supporting this health care system are necessary if we are going to 
effectively address the growing gap in health disparities, which has 
resulted in early death, and preventable, expensive chronic care costs 
for AI/ANs of all ages.
    The lateness in enacting a final budget ranges from five days (FY 
2002) to 197 days (FY 2011), making quality budget planning almost 
impossible. Health care services in particular require consistent 
funding to be effective. In FY 2010, the Veterans Administration (VA) 
medical care programs achieved advance appropriations. The fact that 
Congress has implemented advance appropriations for the VA medical 
programs demonstrates the importance of advance appropriations for 
direct health service agencies. Just as the veterans groups were 
alarmed at the impact of delayed funding upon the provision of health 
care to veterans and the ability of VA to properly plan and manage its 
resources, Tribes and Tribal organizations have those concerns about 
the IHS health system.
    If IHS funding was on an advance appropriations cycle, Tribal 
health care providers, as well as the IHS, would know the funding a 
year earlier and their health care services would not be stymied by 
continuing resolutions. This would lead to greater outcomes for 
patients in IHS, Tribal and Urban (I/T/U) programs. For example, 
hospital administrators would have the ability to continue treating 
patients without wondering if they had to de-fund facilities or 
programs. Additionally, IHS administrators would not waste valuable 
resources in an agency funded at only 56 percent of need by re-
allocating the budget each time Congress passed a continuing 
resolution. Tribal health providers would know in advance how many 
physicians and nurses they could hire without wondering if funding for 
positions would be available from month to month.
    We appreciate the opportunity to offer this letter of support for 
the advance appropriations for the IHS.
                                 ______
                                 
Letter in Support of S. 1570, Submitted by Robert Polasky, CEO, Sun'aq 
                            Tribe of Kodiak

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
